<html>
<title> - Deficiencies in the Permitting Process for Off-Shore Seismic
Research</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]









 DEFICIENCIES IN THE PERMITTING PROCESS FOR OFFSHORE SEISMIC RESEARCH

=======================================================================

                           OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Friday, January 19, 2018

                               __________

                           Serial No. 115-35

                               __________

       Printed for the use of the Committee on Natural Resources








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-338 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT
Vacancy

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                      PAUL A. GOSAR, AZ, Chairman
            ALAN S. LOWENTHAL, CA, Ranking Democratic Member

Louie Gohmert, TX                    Anthony G. Brown, MD
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Niki Tsongas, MA
Stevan Pearce, NM                    Jared Huffman, CA
Glenn Thompson, PA                   Donald S. Beyer, Jr., VA
Scott R. Tipton, CO                  Darren Soto, FL
Paul Cook, CA                        Nanette Diaz Barragan, CA
  Vice Chairman                      Vacancy
Garret Graves, LA                    Vacancy
Jody B. Hice, GA                     Raul M. Grijalva, AZ, ex officio
Jack Bergman, MI
Liz Cheney, WY
Vacancy
Rob Bishop, UT, ex officio
                                 ------                                
























                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Friday, January 19, 2018.........................     1

Statement of Members:
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3
    Lowenthal, Hon. Alan S., a Representative in Congress from 
      the State of California....................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Cruickshank, Walter, Ph.D., Acting Director, Bureau of Ocean 
      Energy Management, U.S. Department of the Interior.........     6
        Prepared statement of....................................     8
        Questions submitted for the record.......................    11
    Davis, Tom, State Senator, District 46, South Carolina 
      Legislature................................................    19
        Prepared statement of....................................    20
    Ludwigson, Jon, Acting Director, Government Accountability 
      Office.....................................................    13
        Prepared statement of....................................    14
    Steen, Ryan, Partner, Stoel Rives, LLP.......................    25
        Prepared statement of....................................    27

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    68 


. 
 OVERSIGHT HEARING ON DEFICIENCIES IN THE PERMITTING PROCESS FOR 
                       OFFSHORE SEISMIC RESEARCH

                              ----------                              


                        Friday, January 19, 2018

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:01 a.m., in 
room 1324, Longworth House Office Building, Hon. Paul A. Gosar 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gosar, Gohmert, Lamborn, Wittman, 
Tipton, Graves, Lowenthal, Costa, Huffman, Beyer, and Soto.
    Also Present: Representatives Johnson and McEachin.
    Dr. Gosar. The Subcommittee on Energy and Mineral Resources 
will come to order.
    The Subcommittee is meeting today to hear testimony on the 
deficiencies in the permitting process for offshore seismic 
research.
    I ask unanimous consent that the gentleman from Louisiana, 
Mr. Johnson, and the gentleman from Virginia, Mr. McEachin, be 
allowed to sit with the Subcommittee and participate in the 
hearing. Without objection, so ordered.
    Under Committee Rule 4(f), any oral opening statements at 
the hearings are limited to the Chairman, the Ranking Minority 
Member, and the Vice Chair. This will allow us to hear from our 
witnesses sooner and help Members keep to their schedules. 
Therefore, I ask unanimous consent that all Members' opening 
statements be made part of the hearing record if they are 
submitted to the Subcommittee Clerk by 5:00 p.m. today. Without 
objection, so ordered.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Today, we meet to discuss the findings of the 
December 2017 GAO report that examined the convoluted and 
politicized process for reviewing and issuing permits to 
conduct seismic surveying. From failures in the simplest of 
management tasks, such as recording start dates, to blatant, 
politically driven maneuvers, the GAO report identified poor 
practices that led to the delayed issuance of permits by over 
1,000 days.
    This hearing seeks to shed light on these findings, to 
highlight exactly what seismic surveying is, and to address 
potential solutions to ensuring these permits are issued in a 
responsible and timely manner.
    Seismic surveying itself is the safest and least intrusive 
way of imaging both underground and subsea geology. The process 
sends acoustic waves down into the earth, which then rebound 
and are subsequently received and recorded by seismophones or 
receiving phones. Essentially, this is ultrasound technology, 
as acoustic waves are used to produce an image.
    Seismic surveying data is used to identify offshore 
reservoirs with production potential. To be clear, the seismic 
surveying process is completely distinct from the National OCS 
Oil and Gas Leasing process. It is seismic data that informs 
the leasing process, specifically the decision to lease and the 
value of the assets.
    In addition to offshore oil and gas planning, the data 
collected serves a variety of purposes. For instance, seismic 
tests allow researchers to examine the movement of tectonic 
plates and to identify sand and gravel resources used to shore 
up hurricane-ravaged coastlines. Furthermore, the military 
makes extensive use of this data when planning offshore 
infrastructure or exercises. Despite these multiple uses, we 
have not conducted offshore seismic surveys in over 30 years in 
the Atlantic and Pacific, and much of the Alaskan OCS.
    To perform seismic surveys, a seismic operator must apply 
to BOEM for a geological and geophysical, or G&G, permit. 
Operators seeking studies on the Atlantic, Pacific, and Alaskan 
coasts also apply for an Incidental Harassment Authorization 
permit, or an IHA, from the National Marine Fisheries Service, 
NMFS, or the Fish and Wildlife Service. BOEM typically issues 
the G&G permits rather quickly, usually within 100 days.
    The IHAs are the real problem. They are required under the 
Marine Mammal Protection Act (MMPA) to ensure that no marine 
mammals are harassed or disturbed by any human activity. It 
should be noted that, to date, there has been no instance of 
harm or disturbance to a marine mammal from acoustic seismic 
testing. The MMPA stipulates that NMFS and the Fish and 
Wildlife Service have 120 days to review and issue an IHA. 
However, GAO found that NMFS never recorded the accurate and 
completeness date of the IHA applications.
    Without something as basic as a start date, NMFS and Fish 
and Wildlife were not able to track permitting timelines, and 
were unable to determine whether they were meeting their 
statutory obligations. The basic failure to record a start date 
threw IHA permits into uncertainty, with the agencies failing 
to meet statutory time limitations on review and issuance of 
permits. This is a completely unacceptable instance of 
regulatory failure.
    On top of all of this is the politicization of these 
permits. Under the Obama administration, there were six G&G 
permits that were essentially yanked from the applicants for 
purely political reasons. These permit applications were 
rejected because, under the former administration's extremely 
limited 5-year leasing plan, no leases or production could take 
place in the Atlantic.
    Thankfully, President Trump identified the unlawful 
misinterpretation of the seismic and leasing processes and 
reinstated review of these permits. Yet, these permits are 
still undergoing review, as they have for over 1,000 days at 
this point in time.
    Failure to properly process these permits, and failure to 
develop a proper path forward for future permits, keeps our 
country in the dark about our offshore resources, hindering our 
Nation's ability to make informed, long-term leasing decisions. 
Today, we examine the regulatory failures that took place as we 
seek to improve access to this invaluable seismic data.

    [The prepared statement of Dr. Gosar follows:]
Prepared Statement of the Hon. Paul A. Gosar, Chairman, Subcommittee on 
                      Energy and Mineral Resources
    Today, we meet to discuss the findings of the December 2017 GAO 
Report that examined the convoluted and politicized process for 
reviewing and issuing permits to conduct seismic surveying. From 
failures in the simplest of management tasks, such as recording start 
dates, to blatant, politically driven maneuvers, the GAO report 
identified poor practices that led to the delayed issuance of permits 
by over a thousand days. This hearing seeks to shed light on these 
findings, to highlight exactly what seismic surveying is, and to 
address potential solutions to ensuring these permits are issued in a 
responsible, and timely manner.
    Seismic surveying itself is the safest and least intrusive way of 
imaging both underground and subsea geology. The process sends acoustic 
waves down into the earth, which then rebound and are subsequently 
received and recorded by seismophones or receiving phones. Essentially, 
this is ultrasound technology, as acoustic waves are used to produce an 
image.
    Seismic surveying data is used to identify offshore reservoirs with 
production potential. To be clear, the seismic surveying process is 
completely distinct from the National OCS Oil and Gas Leasing process. 
It is seismic data that informs the leasing process, specifically the 
decision to lease and the value of the assets. In addition to offshore 
oil and gas planning, the data collected serves a variety of purposes. 
For instance, seismic tests allow researchers to examine the movement 
of tectonic plates and to identify sand and gravel resources used to 
shore up hurricane ravaged coastlines. Furthermore, the military makes 
extensive use of this data when planning offshore infrastructure or 
exercises. Despite these multiple uses, we haven't conducted offshore 
seismic surveys in over 30 years in the Atlantic and Pacific, and much 
of the Alaskan OCS.
    To perform seismic surveys, a seismic operator must apply to BOEM 
for a Geological and Geophysical, or G&G, permit. Operators seeking 
studies on the Atlantic, Pacific, and Alaskan coasts also apply for an 
Incidental Harassment Authorization Permit, or ``IHA,'' from the 
National Marine Fisheries Service (``NMFS'') or the Fish & Wildlife 
Service. BOEM typically issues the G&G permits rather quickly, usually 
within 100 days.
    The IHAs are the real problem. They're required under the MMPA 
(Marine Mammals Protection Act) to ensure that no marine mammals are 
``harassed'' or disturbed by any human activity. It should be noted 
that, to date, there has been no instance of harm or disturbance to a 
marine mammal from acoustic seismic testing. The MMPA stipulates that 
NMFS and Fish & Wildlife have 120 days to review and issue an IHA. 
However, GAO found that NMFS never recorded the ``accurate and 
completeness'' date of the IHA applications. Without something as basic 
as a start date, NMFS and Fish & Wildlife were not able to track 
permitting timelines, and were unable to determine whether they were 
meeting their statutory obligation. The basic failure to record a start 
date threw IHA permits into uncertainty, with the agencies failing to 
meet statutory time limitations on review and issuance of the permits. 
This is a completely unacceptable instance of regulatory failure.
    On top of all of this is the politicization of these permits. Under 
the Obama administration, there were six G&G permits that were 
essentially yanked from the applicants for purely political reasons. 
These permit applications were rejected because, under the former 
administration's extremely limited 5-year leasing plan, no leases or 
production could take place in the Atlantic. Thankfully, President 
Trump identified the unlawful misinterpretation of the seismic and 
leasing processes, and reinstated review of these permits. And yet, 
these permits are still undergoing review, as they have for over 1,000 
days at this point. Failure to properly process these permits, and 
failure to develop a proper path forward for future permits, keeps our 
country in the dark about our offshore resources, hindering our 
Nation's ability to make informed, long-term leasing decisions. Today, 
we examine the regulatory failures that took place as we seek to 
improve access to this invaluable seismic data.

                                 ______
                                 

    Dr. Gosar. I now recognize the Ranking Member for his 
testimony.

 STATEMENT OF THE HON. ALAN S. LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Lowenthal. Thank you, Mr. Chairman. And thank you to 
the witnesses for being here today.
    The Interior Department's just-released plan to open every 
region of the Outer Continental Shelf to oil and gas 
development is the latest example of the Republicans governing 
for the benefit of corporations, not citizens.
    Under the plan, the risks from offshore drilling would 
extend from coast to coast, from the shores of Maine down to 
the Florida Everglades, and from the California beaches to 
fishing and native communities in Washington State and in 
Alaska.
    In total, Secretary Zinke wants to satisfy Big Oil's 
insatiable appetite with over 1.6 billion acres of America's 
oceans, all while rolling back the safety protections developed 
in response to the 2010 Deepwater Horizon disaster. But I have 
news for Secretary Zinke, Americans have zero interest in 
handing more of our oceans over to oil and gas corporations.
    Our coastlines are home to 123 million citizens, and along 
with the oceans, these resources serve as a massive economic 
engine. For example, in my home state of California, coastal 
counties account for 68 percent of the state's population and 
over 80 percent of our GDP. But now for the first time since 
1984, the Interior Department has proposed new Federal oil and 
gas leases off California's coast.
    Had the Secretary consulted California residents and 
elected officials before his decision, he would have learned 
why Federal offshore leases have not been offered in over 30 
years and why our legislature prohibited leasing in state 
waters in 1994. But since he didn't, I will enlighten him.
    In 1969, a well blowout 6 miles off the coast of Santa 
Barbara resulted in over 3 million gallons of oil gushing into 
the ocean. The spill created a 35-mile long oil slick along 
California's coast and killed thousands of fish, birds, and 
marine mammals. To date, it is the largest oil spill in the 
state's history and the third largest in our Nation's.
    A silver lining of the Santa Barbara spill is that it woke 
the environmental consciousness of many Americans, and it was 
integral to the development of today's regulatory framework 
that governs our natural resources. In 1970, the National 
Environmental Policy Act was signed into law, the Environmental 
Protection Agency was created, and Earth Day was established.
    A bipartisan California legislature banned offshore 
drilling in state waters in 1994, and between 1981 and 2008, 
the U.S. Congress prevented Federal leasing off the Pacific and 
Atlantic coasts.
    Today, Americans who live along our shores understand their 
critical importance and want the government to protect these 
resources, not risk them for another drop or two of fossil 
fuels.
    But Secretary Zinke could not care less about California's 
history or about the local voices vehemently opposed to his 
drill-everywhere plan. A few days after releasing his proposal, 
Secretary Zinke tweeted out that he met with Florida Governor 
Rick Scott, and then after just a few minutes, decided that the 
offshore leasing plan would no longer include Florida. Sadly, I 
have had trouble deciding what is more flagrantly 
inappropriate, that Governor Scott is running for Senate 
against an incumbent Democrat, that President Trump owns a 
coastal resort in Palm Beach, Florida and profits from its 
success, or that Secretary Zinke's announcement circumvents the 
process and disregards the local voices opposed to offshore 
drilling in every other coastal state.
    Secretary Zinke's reasoning that, ``Florida is unique and 
its coasts are heavily reliant on tourism as an economic 
driver,'' reveals his tweet is nothing more than a political 
ploy. I am confident my coastal colleagues and I could easily 
point to the uniqueness of our coasts, and the local businesses 
that are economically reliant upon a healthy and oil-free 
environment.
    Mr. Chairman, I would like to enter two letters into the 
record. The first is a letter from the 36 Members of our 
California Congressional Delegation to Secretary Zinke opposing 
our state's inclusion in the leasing plan. A second is from 151 
Members of the House opposing the inclusion of the Atlantic, 
Arctic, Pacific, and the East Coast regions in the leasing 
plan.
    Californians have experienced catastrophic oil spills 
before and we will do everything in our power to prevent them 
from happening again.
    I thank the witnesses for being here, and I yield back.

    [The prepared statement of Mr. Lowenthal follows:]
   Prepared Statement of the Hon. Alan S. Lowenthal, Ranking Member, 
              Subcommittee on Energy and Mineral Resources
    Thank you, Mr. Chairman, and thank you to the witnesses for being 
here.
    The Interior Department's just-released plan to open every region 
of the Outer Continental Shelf to oil and gas development is the latest 
example of Republicans governing for the benefit of corporations, not 
citizens.
    Under the plan, the risks from offshore drilling would extend from 
coast to coast--from the shores of Maine down to the Florida 
Everglades, and from California's beaches to fishing and native 
communities in Washington State and Alaska.
    In total, Secretary Zinke wants to satisfy Big Oil's insatiable 
appetite with over 1.6 billion acres of America's oceans, all while 
rolling back the safety protections developed in response to the 2010 
Deepwater Horizon disaster. But I have news for the Secretary: 
Americans have zero interest in handing more of our oceans over to oil 
and gas corporations.
    Our coastlines are home to over 123 million citizens, and along 
with the oceans, these resources serve as a massive economic engine. In 
my home state of California, coastal counties account for 68 percent of 
the state's population and over 80 percent of our GDP. But now, for the 
first time since 1984, the Interior Department has proposed new Federal 
oil and gas lease sales off California's coast.
    Had the Secretary consulted California residents and elected 
officials before his decision, he would have learned why Federal 
offshore leases haven't been offered in over 30 years, and why our 
Legislature prohibited leasing in state waters in 1994. But since he 
didn't, I'll enlighten him.
    In 1969, a well blowout 6 miles off the coast of Santa Barbara 
resulted in over 3 million gallons of oil gushing into the ocean. The 
spill created a 35-mile long oil slick along California's coast and 
killed thousands of fish, birds, and marine mammals. To date, it's the 
largest oil spill in the state's history and third largest in our 
Nation's.
    A silver lining of the Santa Barbara spill is that it woke the 
environmental consciousness of many Americans and was integral to the 
development of today's regulatory framework that governs our natural 
resources.
    In 1970, the National Environmental Policy Act was signed into law, 
the Environmental Protection Agency was created, and ``Earth Day'' was 
established. A bipartisan California legislature banned offshore 
drilling in state waters in 1994, and between 1981 and 2008, the U.S. 
Congress prevented Federal leasing off the Pacific and Atlantic coasts.
    Today, Americans who live along our shores understand their 
critical importance and want the government to protect these 
resources--not risk them for another drop or two of fossil fuels.
    But Secretary Zinke couldn't care less about California's history, 
or the about the local voices vehemently opposed to his drill-
everywhere plan. A few days after releasing his proposal, Secretary 
Zinke tweeted out that he met with Florida Governor Rick Scott, and 
after just a few minutes decided that the offshore leasing plan would 
no longer include Florida.
    Sadly, I've had trouble deciding what's more flagrantly 
inappropriate: that Governor Scott is likely running for Senate against 
an incumbent Democrat; that President Trump owns a coastal resort in 
Palm Beach, Florida, and profits from its success; or that the 
Secretary's Twitter announcement circumvents the process, and 
disregards the local voices opposed to offshore drilling in every other 
coastal state.
    Secretary Zinke's reasoning that, ``Florida is unique and its 
coasts are heavily reliant on tourism as an economic driver,'' reveals 
his tweet is nothing more than a political ploy. I'm confident my 
coastal colleagues and I could easily point to the uniqueness of our 
coasts and the local businesses economically reliant upon a healthy and 
oil-free environment.
    Mr. Chairman, I'd like to enter two letters into the record. The 
first is a letter from the 36 Members of the California congressional 
delegation to Secretary Zinke opposing our state's inclusion in the 
leasing plan. The second is from 151 Members of the House opposing the 
inclusion of the Atlantic, Arctic, Pacific and Eastern Gulf regions in 
the leasing plan.
    Californians have experienced catastrophic oil spills before, and 
we'll do everything in our power to prevent them from happening again.
    I thank the witnesses again for being here, and I yield back.

                                 ______
                                 

    Dr. Gosar. Without objection, so ordered, to be included in 
the record.
    Mr. Lowenthal. Thank you, Mr. Chairman.
    Dr. Gosar. Now I will introduce our witnesses. First, we 
have Dr. Walter Cruickshank, Acting Director of the Bureau of 
Ocean Energy Management. Did I say that right?
    Dr. Cruickshank. Yes, you did. Thank you.
    Dr. Gosar. OK. Dr. Jon Ludwigson, Acting Director of the 
Government Accountability Office; State Senator Tom Davis, 
District 46, South Carolina Legislature; and Mr. Ryan Steen, 
Partner, Stoel Rives, LLP.
    Let me remind the witnesses that under Committee Rules, 
they must limit their oral statements to 5 minutes, but their 
entire statement will be entered into the record. Our 
microphones are not automatic, so you are going to have to push 
the button. You are going to see some lights there. For the 
first 4 minutes, it will be green, then it will turn yellow. 
When you see it red, we need to summarize, get caught up, 
because we will have votes here early this morning.
    And with that, now I will recognize Dr. Cruickshank for his 
testimony.

STATEMENT OF WALTER CRUICKSHANK, Ph.D., ACTING DIRECTOR, BUREAU 
                   OF OCEAN ENERGY MANAGEMENT

    Dr. Cruickshank. Thank you, and good morning.
    Chairman Gosar, Ranking Member Lowenthal, and members of 
the Subcommittee, I am pleased to be here today to discuss the 
Bureau of Ocean Energy Management's oversight of geological and 
geophysical surveys on the Outer Continental Shelf. Such 
surveys support BOEM's mission to ensure the responsible 
development of conventional and renewable energy offshore, as 
well as marine mineral resources, while protecting the 
environment.
    Geological and geophysical data are critically important to 
understanding the bathymetry of the ocean floor as well as the 
vast area beneath the seabed. There are numerous technologies 
that can be employed to gather this data which are used for a 
variety of purposes, including hydrocarbon exploration and 
production, aiding in the siting of renewable energy structure 
such as offshore wind turbines, locating potential sand and 
gravel resources for coastal restoration projects, identifying 
possible seafloor or shallow geologic hazards, and locating 
potential archeological resources and hard bottom habitats that 
should be avoided. G&G surveys also help to advance fundamental 
scientific knowledge and are currently conducted in countries 
throughout the world.
    One common method of procuring this data is with seismic 
surveys. Those surveys use sound waves sent through the ocean 
floor to map the subsurface. Modern seismic acquisition and 
processing techniques can provide data sets that significantly 
enhance subsurface imaging, leading to improved oil and gas 
resource assessments and more informed administration of 
regulatory responsibilities.
    One of the principal environmental issues with seismic 
surveys is the potential impact of associated noise on various 
marine species. Our environmental studies program is one of the 
earliest Federal programs to sponsor research on ocean sounds 
beginning in the early 1980s. Since 1998, BOEM has partnered 
with academia and other experts to invest more than $50 million 
on protected species and noise-related research. This work has 
helped inform development of mitigation measures to protect 
marine species from potential adverse impacts of survey-related 
activity.
    On April 28 of last year, the President issued Executive 
Order 13795, entitled ``Implementing an America-First Offshore 
Energy Strategy.'' The Executive Order calls for the Secretary 
of the Interior to develop and implement, in coordination with 
the Secretary of Commerce, and to the maximum extent permitted 
by law, a streamlined permitting approach for privately-funded 
seismic data research and collection and in expeditiously 
determining the offshore energy resource potential for the 
United States.
    The Executive Order further states that the Secretary of 
the Interior and the Secretary of Commerce shall, to the 
maximum extent permitted by law, expedite all stages of 
consideration of incidental take authorization requests and 
seismic survey permit applications under the Outer Continental 
Shelf Land's Act and the Marine Mammal Protection Act.
    The directive in the Executive Order for a streamlined 
permitting approach is predicated on industry and other 
stakeholder complaints of the ramifications from exceedingly 
long, unpredictable, and inconsistent processes for agencies to 
reach permitting decisions, mainly under the Marine Mammal 
Protection Act, but also to a lesser degree, under the 
Endangered Species Act.
    Over the past 6 months, BOEM and the National Marine 
Fisheries Service, both leadership and staff, have met to 
discuss possible procedural approaches and statutory or 
regulatory changes for streamlining the permitting process. 
Collectively, we are committed to creating a streamlining 
framework if it could lead to the implementation of process-
oriented solutions and guidance for administering and 
implementing the ESA and the MMPA for oil and gas activities 
generally, and G&G permitting, specifically.
    BOEM is committed to continuing the streamlining efforts 
with National Marine Fisheries Service and the U.S. Fish and 
Wildlife Service and continuing to communicate and coordinate 
with other stakeholders on this issue as the process moves 
forward.
    I would also like to note that we have a very strong, long-
standing working relationship with the Department of Defense on 
all aspects of the OCS program, including G&G permitting, and 
we look forward to continuing to work with that department as 
well.
    Finally, I would also like to acknowledge the Government 
Accountability Office's recent report titled, ``Offshore 
Seismic Surveys, Additional Guidance Needed to Help Ensure 
Timely Reviews.'' BOEM worked closely with the GAO to provide 
accurate and up-to-date information for this report, which does 
not include any recommendations for BOEM action.
    Mr. Chairman, thank you again for the opportunity to be 
here today to discuss the Bureau's efforts to execute its 
missions, to safely and responsibly reduce our dependence on 
foreign oil, and create jobs through the development of 
important energy resources. I would be happy to answer any 
questions that you or members of the Subcommittee may have.

    [The prepared statement of Mr. Cruickshank follows:]
 Prepared Statement of Walter Cruickshank, Acting Director, Bureau of 
        Ocean Energy Management, U.S. Department of the Interior
    Chairman Gosar, Ranking Member Lowenthal, and members of the 
Subcommittee, I am pleased to appear before you today to discuss the 
Bureau of Ocean Energy Management's (BOEM) oversight of geological and 
geophysical (G&G) surveys on the Outer Continental Shelf (OCS). Such 
surveys support BOEM's mission to ensure the responsible development of 
conventional and renewable offshore energy and marine mineral resources 
while protecting the environment.
                               background
    Geological and geophysical data is critically important to 
understanding the bathymetry of the ocean floor, as well as the vast 
area underneath. There are numerous technologies that can be employed 
to gather this data, which is used for a variety of purposes, including 
hydrocarbon exploration and production, aiding in siting renewable 
energy structures by characterizing the ocean floor, locating potential 
sand and gravel resources for coastal restoration projects, identifying 
possible seafloor or shallow depth geologic hazards, and locating 
potential archaeological resources and potential hard bottom habitats 
that should be avoided. One common method of procuring this data is 
with seismic surveys; those surveys use sound waves, sent through the 
ocean floor, to map the subsurface.
    BOEM scientists are experts in the use of the newer survey data to 
make more informed decisions concerning potential oil and gas lease 
sales, ensure appropriate development of OCS energy resources, and 
assure the receipt of fair market value for any leasing of public 
lands. Modern two-dimensional (2D) and three-dimensional (3D) 
acquisition and processing techniques can provide data sets that 
significantly enhance subsurface imaging, leading to improved oil and 
gas resource assessments and more informed administration of regulatory 
responsibilities.
    G&G surveys are not used exclusively for oil and gas exploration. 
Seismic surveys and geologic coring are also helpful in identifying 
sand used for restoration of our Nation's beaches and barrier islands 
following severe weather events and for protecting coasts and wetlands 
from erosion. Recent examples of BOEM's sand restoration projects 
include New Jersey, where Long Beach Island has been restored in 
response to erosion caused by Hurricane Sandy; Louisiana, where 1,100 
acres of marsh, dune, and beach habitat at Whiskey Island have been 
reconstructed; and Florida, where a final environmental assessment on a 
shoreline restoration project in Brevard County totaling over 1.7 
million cubic yards of sand was recently completed in response to 
erosion caused by Hurricane Matthew. Seismic and geologic coring 
surveys also provide information that is vital to the siting and 
development of offshore renewable energy facilities.
    G&G surveys also help to advance fundamental scientific knowledge 
and are currently conducted in the Gulf of Mexico and in countries 
around the world.
    One of the principle environmental issues with seismic surveys is 
the potential impact of associated noise on various marine species. Our 
environmental studies program was one of the earliest Federal pioneers 
in sponsoring research on ocean sounds beginning in the early 1980s 
such as funding a 1985 study on the effects of drilling noise on whales 
in the Beaufort Sea. Since 1998, BOEM has partnered with academia and 
other experts to invest more than $50 million on protected species and 
noise-related research. BOEM has funded, developed, and overseen 
critical studies on marine mammals, such as evaluation of seismic 
survey impacts on endangered sperm whales, and has conducted numerous 
expert stakeholder workshops to discuss what is known and to identify 
further information needs on acoustic impacts in the ocean.
 endangered species act (esa) and marine mammal protection act (mmpa) 
                          streamlining effort
    On March 28, 2017, Executive Order 13783 entitled ``Promoting 
Energy Independence and Economic Growth'' was issued by the President. 
The Executive Order called for executive agencies to immediately review 
existing regulations that potentially burden the development or use of 
domestically produced energy resources and appropriately suspend or 
rescind those that are found unduly onerous. Additionally, on April 28, 
2017, the President issued Executive Order 13795 entitled, 
``Implementing an America-First Offshore Energy Strategy'' (April 28, 
2017). The Executive Order calls for the Secretary of the Interior to 
``develop and implement, in coordination with the Secretary of Commerce 
and to the maximum extent permitted by law, a streamlined permitting 
approach for privately funded seismic data research and collection 
aimed at expeditiously determining the offshore energy resource 
potential of the United States.'' E.O. 13795 further states that ``The 
Secretary of the Interior and the Secretary of Commerce shall, to the 
maximum extent permitted by law, expedite all stages of consideration 
of Incidental Take Authorization requests, including Incidental 
Harassment Authorizations and Letters of Authorization, and Seismic 
Survey permit applications under the Outer Continental Shelf Lands Act, 
43 U.S.C. 1331 et seq., and the Marine Mammal Protection Act, 16 U.S.C. 
1361 et seq.'' To further implement this guidance, on May 1, 2017, 
Secretary of the Interior Zinke issued Secretarial Order 3350 entitled, 
``America-First Offshore Energy Strategy.''
    The directive in the Executive Order for a streamlined permitting 
approach is predicated on industry and other stakeholder complaints of 
ramifications from exceedingly long, unpredictable and inconsistent 
processes for agencies to reach permitting decisions, mainly under the 
Marine Mammal Protection Act (MMPA) but also to a lesser degree under 
the Endangered Species Act (ESA).
    In an effort to implement this direction, a streamlining team led 
by BOEM and consisting of Department of the Interior solicitors and 
BOEM and Bureau of Safety and Environmental Enforcement (BSEE) staff, 
was created to address and establish ways in which to build greater 
efficiencies, predictability and consistency in implementation of the 
ESA and MMPA for BOEM and BSEE activities through a combination of 
process oriented solutions, enhanced research, and possible statutory/
regulatory approaches. Specifically, the streamlining team developed a 
set of recommendations aimed at reducing undue burdens and increasing 
decision timeline predictability, while still ensuring needed 
environmental protections are set in place. While these recommendations 
are focused on permitting for oil and gas activities, most of them also 
benefit other ocean activities, such as construction, offshore wind 
facilities, sand mining, and naval operations.
    Over the past 6 months, BOEM and the National Marine Fisheries 
Service (NMFS) leadership and staff have met to discuss possible 
procedural and statutory/regulatory approaches for streamlining. BOEM 
has shared specific options with NMFS for their review and input. BOEM, 
BSEE, and NMFS are committed to creating a streamlining framework that 
could lead to the implementation of process-oriented solutions and 
guidance for administering and implementing the ESA and MMPA for oil 
and gas activities and G&G permitting specifically. BOEM is committed 
to continue the streamlining efforts with NMFS and the U.S. Fish and 
Wildlife Service and to continue to communicate and coordinate with 
other stakeholders, such as the Navy and industry, on this issue as the 
process moves forward.
                     g&g permitting in the atlantic
    S.O. 3350 included a directive for the expedited consideration of 
appealed, new, or resubmitted seismic permitting applications for the 
Atlantic; BOEM has resumed the evaluation of the Atlantic G&G permit 
applications. Five NMFS Draft Proposed Incidental Harassment 
Authorizations (IHAs) were published in the Federal Register on June 6, 
2017, starting a 30-day public comment period that was further extended 
and closed on July 21, 2017. NMFS is currently processing the Atlantic 
IHAs. In addition, BOEM is also working with NMFS to finalize the 
associated ESA Section 7 consultation covering both BOEM seismic 
permits and NMFS MMPA IHAs. This ESA Section 7 consultation is being 
treated by NMFS as a subset of the existing programmatic G&G 
Consultation initially completed in July 2013 and re-initiated by BOEM 
in October 2015. Once this smaller consultation is complete, it is 
BOEM's understanding that NMFS will complete the re-initiated 
Programmatic consultation.
                  g&g permitting in the gulf of mexico
    In the Gulf Of Mexico Region (GOMR), from 2011-2016, BOEM issued 
251 G&G permits (approximately 42 annually); the majority related to 
oil and gas. BOEM's overall permitting approval process takes 
approximately 60 days to complete once an application is deemed 
``complete.'' This includes conducting a NEPA analysis, associated 
environmental reviews, and consultations for ESA, Coastal Zone 
Management Act (CZMA), Essential Fish Habitat (EFH) and National Marine 
Sanctuaries Act (NMSA). A seismic survey permit covers a 1-year period.
    In addition to the above required permits and associated 
environmental reviews for seismic surveys, MMPA authorization of 
industry activity may be needed as well. Under the MMPA, ``take'' from 
harassment of marine mammals is permitted only if either an Incidental 
Harassment Authorization (IHA) or Incidental Take Regulations (ITRs) 
are in place. IHAs are usually applied for individual, one-time 
activities. IHAs are valid for 1 year. NMFS has 120 days (by statute) 
to issue an IHA, which includes a 30-day public comment period. ITRs 
can be issued to accommodate similar or multiple activities taking 
place over time, which is the case in the GOMR where multiple surveys 
occur year-in and year-out. In the GOMR, an ITR, if issued, would cover 
multiple oil and gas related G&G activities for a 5-year period. (ITRs 
are valid for 5 years only and then must be re-issued). Under an ITR, 
applicants (industry) seek annual Letters of Authorization (LOAs) 
pursuant to the rule. The ITR timelines are not prescribed by statute, 
but NMFS estimates a 12-18 month time frame. The ITR process includes 
two comment periods for the public, which are usually 30 and 60 days. 
There is no comment period associated with LOA issuance.
    In the GOMR, even though G&G permits have been issued, the process 
to issue ITRs for oil and gas related G&G activities has gone through 
multiple starts and stops to address evolving issues since the first 
petition was submitted in 2002. Following a BOEM/NMFS restart in 2013, 
in October 2016, BOEM petitioned on behalf of industry, and at the 
request of NMFS, to create a more efficient process for addressing 
exposures and takes to marine mammals from cumulative oil and gas 
related seismic activity in the GOM. Having a rule in place would allow 
NMFS to address impacts to marine mammals from seismic surveys 
programmatically versus survey-by-survey, which in theory, would reduce 
the workload for NMFS, allowing industry operators to receive their 
MMPA authorizations in a timely manner.
    Based on the October 2016 petition, NMFS submitted a draft proposed 
ITR to OMB for review on October 2, 2017. OMB is still reviewing the 
proposed ITR.
    In a June 2010 lawsuit, NRDC v. Jewell, filed against DOI and oil 
and gas industry representatives, several environmental conservation 
groups claimed DOI failed to prepare an environmental impact statement.
    The settlement of NRDC v. Jewell, filed in the U.S. District Court 
for the Eastern District of Louisiana, allows permits to be issued in 
the GOM pursuant to the NRDC settlement. Under the settlement, Industry 
Intervenors agreed to abide by the mitigation measures described in the 
settlement agreement, which include measures such as passive acoustic 
monitoring, time area closures, and minimum separation distances 
between surveys, among others. During the stay, Plaintiffs agreed not 
to challenge the permitted surveys that abide by the above mitigation 
measures. Under the settlement agreement and stay, permits in the GOM 
are not conditioned on the applicant processing/obtaining an IHA.
    Outside of the NRDC Settlement Agreement, BOEM includes (and has 
included in the past) a suite of mitigation measures for G&G permits as 
they relate to marine mammals. These measures provide protection to 
marine mammals by requiring G&G operations to avoid and minimize 
impacts to and take of marine mammals.
                       gao seismic survey report
    Last, the Government Accountability Office recently published a 
Report titled: OFFSHORE SEISMIC SURVEYS: Additional Guidance Needed to 
Help Ensure Timely Reviews (GAO-18-60: Published: Dec 11, 2017. 
Publicly Released: Jan 4, 2018). BOEM worked closely with the GAO 
investigators and authors to provide accurate and up-to-date 
information for this report. The report did not implicate BOEM nor did 
it make any recommendations for BOEM action.
                               conclusion
    Mr. Chairman, thank you again for the opportunity to be here today 
to discuss the Bureau's effort to execute its missions to safely and 
responsibly reduce our dependence on foreign oil and create jobs 
through the development of important energy resources. I am happy to 
answer any questions that you or members of the Subcommittee may have.

                                 ______
                                 

 Questions Submitted for the Record to Dr. Walter Cruickshank, Acting 
              Director, Bureau of Ocean Energy Management

Dr. Cruickshank did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

                  Questions Submitted by Rep. Barragan
    Question 1. Early last week, Associate Deputy Secretary James Cason 
briefed our staff about Secretary Zinke's reorganization plan for DOI 
and mentioned recombining BOEM and BSEE. He stated that the staff of 
the two agencies were currently analyzing the pros and cons of 
recombination.

    1a. Is that correct, and if so, what is the status of that 
analysis?

    1b. When do you expect to have that analysis completed, or when 
have you been instructed to have that analysis completed by?

    1c. Has the Department estimated the amount of time and money 
required to recombine them?

    Question 2. Late last month, William K. Reilly, co-chairman of the 
national Oil Spill Commission formed after the Deepwater Horizon 
disaster and EPA administrator during the term of President George H.W. 
Bush, weighed in with his thoughts on the proposed recombination. He 
said, ``If you have one part of your operation bringing in $18 billion 
dollars a year and another part that does inspections, what part would 
you pay attention to? It is very unwise to mix those two under one 
head.'' \1\
---------------------------------------------------------------------------
    \1\ http://www.nola.com/environment/index.ssf/2017/12/
feds_say_offshore_oil_rule_cha.html.

    2a. Considering that even the spokeswoman for the National Ocean 
Industries Association admitted that, ``we did not ask for it"--
referencing the recombination--and that industry lobbyists are 
concerned that it will ultimately distract agency staff, who was 
responsible for calling for this review in the first place? \2\
---------------------------------------------------------------------------
    \2\ https://www.politico.com/story/2017/08/25/oil-and-gas-allies-
want-trump-to-slow-down-242008.

    Question 3. You have been a career Interior Department employee for 
many years, and you worked at the agency both before and after the 
---------------------------------------------------------------------------
Deepwater Horizon disaster.

    3a. Do you believe that recombining BOEM and BSEE is the most 
efficient use of taxpayer dollars and--more importantly--will doing so 
increase the human and environmental safety of offshore oil and gas 
operations?

    Question 4. Can you briefly mention why the Minerals Management 
Service was reorganized in 2010 and 2011, how the split was made, and 
the amount of time and money that was required to fully separate the 
Bureau of Ocean Energy Management and the Bureau of Safety and 
Environmental Enforcement? Was it a simple process that occurred 
quickly?

                 Questions Submitted by Rep. Lowenthal

    Question 1. Dr. Cruickshank, during the Subcommittee hearing, you 
agreed to provide a variety of documents relating to the development of 
the Draft Proposed Program CDPP) and the subsequent decision of the 
Secretary to announce that he was removing Florida from the DPP. As 
such, please provide:

    1a. Copies of any correspondence that exists between employees of 
the Department of the Interior and anyone in the Florida Governor's 
Office regarding the potential inclusion of waters around Florida in 
the Draft Proposed Plan.

    1b. Copies of any correspondence that exists between the Bureau of 
Ocean Energy Management and the Florida Governor's Office after 
publication of the Draft Proposed Program and before the Secretary's 
meeting with the Governor on January 9.

    1c. Copies of any correspondence that exists between the 
Secretary's Office, Deputy Secretary's Office, or Office of the 
Assistant Secretary for Land and Minerals Management and the Florida 
Governor's Office after publication of the Draft Proposed Program and 
before the Secretary's meeting with the Governor on January 9.

    1d. Copies of any correspondence that exists related to discussions 
between the Bureau of Ocean Energy Management and the Secretary, the 
Deputy Secretary, the Assistant Secretary for Land and Minerals 
Management, or anyone in their offices, regarding the Secretary's 
decision to tweet on January 9 that Florida would be removed from 
consideration for offshore oil and gas leasing.

    1e. Copies of any instructions sent to the Bureau of Ocean Energy 
Management from any other officials in the Department of the Interior 
regarding how they should treat the waters around Florida in developing 
the next step of the offshore leasing program.

    Question 2. Mr. Cruickshank, the Marine Mammal Protection Act 
creates a mechanism for the incidental take of ``small numbers'' of 
marine mammals. Can you explain why the ``small numbers'' requirement 
is a constraint on the ability to issue seismic permits?

    Question 3. As noted by Mr. Steen in his testimony, the seismic 
permits for the Atlantic Ocean were initially submitted in 2014. 
Following removal of the Atlantic from the 2017-2022 Five-Year Program 
and due to the significant concern for negative impacts on marine life, 
the seismic permits were denied in January 2017. In fact, the prior 
Director of BOEM stated: ``In the present circumstances and guided by 
an abundance of caution, we believe that the value of obtaining the 
geophysical and geological information from new airgun seismic surveys 
in the Atlantic does not outweigh the potential risks of those surveys' 
acoustic pulse impacts on marine life.''

    3a. Is it not unusual to simply pick up review of these seismic 
permits where things left off in the review process?

    3b. Shouldn't both BOEM and the Fisheries Services have required 
applicants to resubmit new applications incorporating the best 
scientific information available when this issue was reopened 5 months 
later in May 2017 (i.e., 3 years after the applications were originally 
submitted)?

    Question 4. Mr. Cruickshank, scientific studies in the last few 
years have found that seismic airgun surveys can cause undue harm to 
marine life. Research shows that seismic airguns negatively impact many 
marine species, including whales, fish, lobsters, scallops, oysters and 
even zooplankton--the very foundation of the marine food-chain.

    4a. Are you aware of these scientific studies?

    4b. Are you willing to allow undue harm to these marine species for 
the sake of oil and gas exploration and drilling in the Atlantic--an 
area where the coastal states and their constituents are clearly 
opposed to it?

    Question 5. The state of North Carolina recently requested a 
supplemental consistency certification under the Federal Coastal Zone 
Management Act for all companies proposing to conduct seismic blasting 
off the state's coast. Their request was based on significant new 
information regarding the detrimental impact of seismic blasting on 
fish, zooplankton, and other marine life. The commercial and 
recreational fishing industries support 22,500 jobs, $787 million in 
income, and contribute almost $2 billion in business sales annually to 
the state's economy.

    5a. Can you assure me that BOEM will consider this objection and 
adequately respond to it before granting permits for seismic blasting?

    5b. Can you assure me that BOEM will support the state's request, 
and to await the conclusion of any consistency review, including 
resolution of any state objections to consistency, before granting 
permits for seismic blasting?

                                 ______
                                 

    Dr. Gosar. Thank you, Dr. Cruickshank.
    I now acknowledge Mr. Ludwigson for his testimony.

    STATEMENT OF JON LUDWIGSON, ACTING DIRECTOR, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Ludwigson. Thank you.
    Thank you, Chairman Gosar, Ranking Member Lowenthal, and 
members of the Subcommittee. I am pleased to be here today to 
discuss Federal oversight of offshore seismic surveys.
    Earlier this month, as was mentioned, we released a report 
on offshore seismic surveys based on work requested by the Full 
Committee. I will summarize that report, but I ask that the 
report be entered into the record.
    My statement today will provide information on three 
topics. First, the review process and time frames for seismic 
survey applications in the Gulf of Mexico, Alaska, and the 
Atlantic regions from 2011 through 2016. Second, the review 
process and time frames for incidental take applications over 
the same period. And finally, basic information about six 
applications in the Atlantic region.
    By way of background, offshore oil and natural gas are 
important sources of energy and revenue in the United States, 
comprising about 18 percent of national oil production and 
about 4 percent of natural gas production. They also provided 
$2.8 billion in revenue to the Federal Government in Fiscal 
Year 2016.
    Development of these offshore oil and gas resources is 
complex, relying on private companies to understand the geology 
through use of tools, such as seismic surveys, under 
authorizations obtained from Federal agencies. Entities seeking 
to conduct seismic surveys in the Outer Continental Shelf must 
generally obtain a permit from Interior's Bureau of Ocean 
Energy Management, which I will refer to in my statement as 
BOEM.
    Because seismic surveys may disturb or injure marine 
mammals, referred to as a taking, entities seeking to conduct 
them may also need to obtain an incidental take authorization 
under the Marine Mammal Protection Act from Commerce's National 
Marine Fisheries Service or Interior's Fish and Wildlife 
Service.
    Regarding BOEM's process and time frames for reviewing 
seismic survey applications, we found key differences. In terms 
of process, BOEM is not required to issue permits within a 
specific time frame, and the agency reviews, once it determines 
the application is complete. We found that BOEM reviewed 297 
applications and issued 264 permits between 2011 and 2016, and 
the time frames varied.
    For example, BOEM issued 250 permits for the Gulf of 
Mexico, about 95 percent of its total, in a time frame ranging 
from the same day the application was deemed complete to 287 
days after that date. Of the 250 permits in the Gulf, 218 were 
issued within 100 days.
    Regarding review of incidental take applications, we found 
the agencies did not have accurate information, and as a 
result, we could not document how long these reviews took. 
Marine Fisheries and Fish and Wildlife follow a similar process 
requiring complete applications before beginning formal 
processing. In the Gulf of Mexico region, BOEM has generally 
issued seismic survey permits without requiring incidental take 
authorizations.

    In total, Marine Fisheries and Fish and Wildlife reviewed 
35 applications and approved 28 between 2011 and 2016. We found 
that Fish and Wildlife did not record the date the application 
was complete, and Marine Fisheries could not provide accurate 
dates because it lacked guidance on documenting the date. By 
law, the agencies are to review one type of incidental take 
authorization application, referred to as an Incidental 
Harassment Authorization, within 120 days.

    Without knowing when these applications were complete, 
Marine Fisheries and Fish and Wildlife cannot determine how 
long the reviews take and whether they are completed within the 
statutory time frame. In addition, it is not clear how much 
time private companies should build into their exploration 
plans.

    During the course of our work, we also identified six 
pending applications to conduct seismic surveys in the Atlantic 
region. We have detailed the specific circumstances of these 
applications in our report, but in summary, these applications 
were filed in 2014, denied in January 2016, and are now being 
reconsidered.

    In conclusion, offshore seismic surveys provide Federal 
agencies and private companies with a wide range of useful 
information. We found that BOEM has information on applications 
it reviews, but Marine Fisheries and Fish and Wildlife lack key 
information. Without this information, the agencies cannot 
accurately evaluate the timeliness of their reviews. In our 
report, we made four recommendations to those agencies for 
improving this process and examining whether they are meeting 
their statutory review time frames.

    Chairman Gosar, Ranking Member Lowenthal, this concludes my 
statement. I would be happy to answer any questions you may 
have.

    [The prepared statement of Mr. Ludwigson follows:]

Prepared Statement of Jon Ludwigson, Acting Director, Natural Resources 
         and Environment, U.S. Government Accountability Office

    Chairman Gosar, Ranking Member Lowenthal, and members of the 
Subcommittee: I am pleased to be here today to discuss our recent 
report on the Federal offshore seismic permitting process.\1\ As you 
know, offshore oil and natural gas are important sources of energy and 
revenue for the United States--constituting about 18 percent of our 
Nation's total oil production and about 4 percent of our total gas 
production, and providing the Federal Government with about $2.8 
billion in revenue in Fiscal Year 2016.
---------------------------------------------------------------------------
    \1\ GAO, Offshore Seismic Surveys: Additional Guidance Needed to 
Help Ensure Timely Reviews, GAO-18-60 (Washington, D.C.: Dec. 11, 
2017).


  Federal agencies and private companies use information about 
potential oil, gas, and other resources in the Outer Continental Shelf 
(OCS) to make regulatory, funding, and development decisions, 
respectively.\2\ Oil and gas companies conduct offshore seismic surveys 
in the OCS to collect data on the geology that may indicate the 
presence of hydrocarbons--such as oil and gas. Seismic surveys--which 
can be conducted onshore and offshore--use mechanically generated sound 
waves from an acoustic source to transmit energy into the subsurface of 
the ocean floor. Various other entities, including the National Science 
Foundation, use offshore seismic surveys for other purposes, such as to 
---------------------------------------------------------------------------
identify possible earthquake fault zones.

    \2\ The Outer Continental Shelf (OCS) is outside the territorial 
jurisdiction of all 50 states but within the jurisdiction and control 
of the U.S. Federal Government, and consists of submerged Federal 
lands, generally extending seaward between 3 geographical miles and 200 
nautical miles off the U.S. coastline. The Department of the Interior 
has oversight over 1.7 billion acres of submerged lands in the OCS. 
There are four OCS regions in the United States: the Alaska, Atlantic, 
Gulf of Mexico, and Pacific regions. Companies that develop and produce 
oil and gas from Federal waters do so over a specified period of time 
under leases obtained from and administered by the Bureau of Ocean 
Energy Management.

    Entities seeking to conduct geological and geophysical surveys, 
including seismic surveys, to identify oil, gas, and other mineral 
resources in the OCS must obtain a permit from the Department of the 
Interior's Bureau of Ocean Energy Management (BOEM)--the Federal agency 
responsible for the oversight of most offshore oil and gas leasing and 
exploration activities. Given the possibility that seismic surveys may 
disturb or injure marine mammals, referred to as ``taking'' marine 
mammals, entities may obtain an incidental take authorization to avoid 
potential liability for takes of a marine mammal. Incidental take 
authorizations are issued under the Marine Mammal Protection Act by the 
Department of Commerce's National Marine Fisheries Service (NMFS) or 
Interior's Fish and Wildlife Service (FWS), depending on the species 
that might be affected.\3\ To authorize the taking of small numbers of 
marine mammals, NMFS and FWS must make certain findings as to the 
impacts of the activities, based on the best scientific evidence 
available. Several industry stakeholders and a research organization 
that applied for incidental take authorizations have raised questions 
about the timeliness of the Federal seismic survey permitting process 
and incidental take authorization application reviews.
---------------------------------------------------------------------------
    \3\ Pub. L. No. 92-522, Sec. 101, 86 Stat. 1027, 1029 (1972) 
(codified as amended at 16 U.S.C. Sec. 1371).

    My testimony today discusses the key findings from our December 
2017 report on the Federal offshore seismic permitting process. 
Accordingly, this testimony examines (1) BOEM's review process, the 
number of permit applications reviewed from 2011 through 2016, and its 
review time frames; (2) NMFS's and FWS's review process, the number of 
incidental take authorization applications reviewed from 2011 through 
2016, and their review time frames; and (3) the status of pending 
seismic survey permit applications and related incidental take 
authorization applications in the Atlantic OCS region. In addition, I 
will highlight several key actions that we recommended in our report 
that NMFS and FWS can take to address challenges associated with their 
---------------------------------------------------------------------------
review processes.

    To conduct the work for our December 2017 report, among other 
things, we analyzed relevant laws and regulations that govern the 
review processes, reviewed and analyzed agency guidance, and 
interviewed BOEM, NMFS, and FWS agency officials. In addition, we 
identified and interviewed knowledgeable stakeholders selected to 
reflect a range of industry groups, a research institution, and 
environmental organizations to obtain their views on the seismic survey 
permitting and incidental take authorization application processes.\4\ 
In our preliminary work on all four OCS regions, we determined there 
had been no new oil and gas related seismic activity in the Pacific OCS 
region in the last two decades; as a result, we excluded the Pacific 
OCS from our review. We also obtained data from BOEM, NMFS, and FWS on 
the number of permit and incidental take authorization applications 
each agency reviewed and the number of permits and authorizations the 
agencies issued in each of the three selected OCS regions.\5\ We 
focused our review of pending applications on the Atlantic region 
because it was the only region that had applications pending at the 
time of our review. Our December 2017 report includes a detailed 
explanation of the methods used in our work. We conducted the work on 
which this testimony is based in accordance with generally accepted 
government auditing standards.
---------------------------------------------------------------------------
    \4\ Because this was a nonprobability sample of stakeholders, their 
views are not generalizable beyond those groups but provide 
illustrative examples of the views of such stakeholders.
    \5\ To assess the reliability of the data, we used publicly 
available information on the number of permit and authorization 
applications to check the data provided by BOEM, NMFS, and FWS. We 
found the data on the number of permits and authorizations to be 
sufficiently reliable for our purposes.
---------------------------------------------------------------------------

              BOEM's Review Process Differs by OCS Region

    As we stated in our December 2017 report,\6\ BOEM has a documented 
process for reviewing seismic survey applications in each of the three 
selected OCS regions that differs in one part depending on the region. 
In the Atlantic region, prior to issuing a permit, BOEM intends to 
require incidental take authorizations related to the seismic survey 
activities proposed in the permit application to be in place before 
issuing permits, but in the Alaska region, BOEM issues conditional 
permits while waiting for incidental take authorizations. In the Gulf 
of Mexico region, BOEM has generally issued permits without requiring 
incidental take authorizations to be in place, although it is working 
to address some aspects of its process in response to a recent 
settlement agreement.\7\
---------------------------------------------------------------------------
    \6\ GAO-18-60.
    \7\ Specifically, in response to the settlement agreement, BOEM 
agreed to consider prescribing additional mitigation measures as 
conditions of approval for seismic survey permits during the stay and 
issued a final programmatic environmental impact statement in August 
2017. BOEM also submitted a revised request to NMFS for incidental take 
regulations governing geophysical surveys in the Gulf of Mexico, which 
is pending as of January 2018.
---------------------------------------------------------------------------
    Based on our review of agency data, from 2011 through 2016, BOEM 
reviewed 297 applications for seismic survey permits. Of the 297 
seismic survey permit applications reviewed, BOEM issued 264 permits 
during this period, and the number of applications reviewed and permits 
issued varied by OCS region (see Table 1).

TABLE 1: BUREAU OF OCEAN ENERGY MANAGEMENT'S SEISMIC SURVEY PERMIT 
                    APPLICATIONS REVIEWED AND ISSUED BY THREE OUTER 
                    CONTINENTAL SHELF REGIONS, 2011-2016
                    
                    
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
                    
                    

    Source: GAO analysis of Bureau of Ocean Energy Management data. 
GAO-18-342T

    Note: This table includes seismic survey permits for high-
resolution seismic surveys, deep-penetration seismic surveys, and 
vertical seismic profile surveys. The six permits issued in the 
Atlantic region were for high-resolution seismic surveys for non-oil 
and gas mineral resources and, according to Bureau of Ocean Energy 
Management officials, did not include the use of airguns. This table 
does not include the Pacific Outer Continental Shelf region because, 
from 2011 through 2016, the Bureau of Ocean Energy Management did not 
receive applications for or issue any seismic survey permits in that 
region. BOEM issued a permit for the pending application in the Gulf of 
Mexico region in April 2017. This table does not include Notices of 
Scientific Research, of which there were 2 in the Atlantic region, 13 
in the Gulf of Mexico, and none in Alaska during this period. The 
Notices of Scientific Research do not result in a permit.

    BOEM does not have statutory review time frame requirements for 
issuing geological and geophysical seismic survey permits. The range of 
BOEM's review time frames--from the date the agency determined that an 
application was complete to when BOEM issued a seismic survey permit--
varied by OCS region (see Fig. 1).

FIGURE 1: NUMBER OF SEISMIC SURVEY PERMITS ISSUED BY BUREAU OF OCEAN 
                    ENERGY MANAGEMENT REGIONS AND ASSOCIATED TIME 
                    FRAMES, 2011-2016
                    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                   
                    
 Source: GAO analysis of Bureau of Ocean Energy Management data. 
GAO-18-342T

    Note: The Bureau of Ocean Energy Management records the date it 
determines an application is complete, or ``accepted,'' following the 
resolution of any missing information from the applicant in the initial 
application, and the date it issues or denies the permit. This figure 
does not include the Pacific Outer Continental Shelf region because the 
Bureau of Ocean Energy Management did not issue any seismic survey 
permits there from 2011 through 2016. The six permits issued in the 
Atlantic region were for high-resolution seismic surveys for non-oil 
and gas mineral resources.

  Neither NMFS nor FWS Guidance Sufficiently Describes How to Record 
                          Certain Review Dates

    As we stated in our report,\8\ NMFS and FWS follow a similar 
process for reviewing incidental take authorization applications 
related to seismic survey activities. From 2011 through 2016, NMFS and 
FWS reviewed 35 and approved 28 such applications across the three OCS 
regions we reviewed, including some authorizations related to BOEM 
permits as well as research seismic surveys not associated with BOEM 
permits.
---------------------------------------------------------------------------
    \8\ GAO-18-60.

    However, neither NMFS nor FWS guidance sufficiently describes how 
to record certain review dates. As a result, NMFS was unable to provide 
accurate dates for when the agency determined an application was 
adequate and complete--and FWS does not record this date.\9\ For 
example, based on our review of NMFS data, in at least two cases, the 
date NMFS recorded the application had been determined adequate and 
complete was after the date the proposed authorization was published in 
the Federal Register.
---------------------------------------------------------------------------
    \9\ NMFS and FWS begin formal processing of an incidental 
harassment authorization application--one type of incidental take 
authorization application--once it is deemed adequate and complete. See 
50 CFR Sec. Sec. 18.27(d), 216.104. See also U.S. Fish and Wildlife 
Service, ``Marine Mammal Protection Act Incidental Harassment 
Authorizations,'' chap. 036 FW 2 in U.S. Fish and Wildlife Service 
Manual (June 6, 2016), accessed January 11, 2018, https://www.fws.gov/
policy/036fw2.html; National Marine Fisheries Service, ``Incidental 
Take Authorizations Under the MMPA,'' accessed January 11, 2018, http:/
/www.nmfs.noaa.gov/pr/permits/incidental/.

    Because the agencies either do not record the date the application 
is deemed adequate and complete or do not record the date consistently, 
the agencies are not able to determine how long their formal processing 
takes. As a result, in our December 2017 report, we recommended that 
the agencies should develop guidance that clarifies how and when staff 
should record the date on which the agency determines the ``adequacy 
and completeness'' of an incidental take authorization application.\10\ 
NMFS agreed with our recommendation. FWS partially concurred with the 
recommendation, noting that it plans to develop guidance for recording 
the ``adequate and complete'' date of incidental harassment 
authorization applications; however, it did not indicate that it would 
develop such guidance for the other type of incidental take 
authorization--the incidental take regulations. As we stated in the 
report, we believe that FWS should develop guidance for both. Such 
guidance is necessary to maintain consistency with Federal internal 
control standards, which call for management to use quality information 
to achieve agency objectives and design control activities, such as 
accurate and timely recording of transactions, to achieve objectives 
and respond to risk.
---------------------------------------------------------------------------
    \10\ GAO-18-60.

    Further, under the Marine Mammal Protection Act, the agencies are 
to issue one type of incidental take authorization--incidental 
harassment authorizations--within 120 days of receiving an application. 
NMFS and FWS have not conducted an analysis of their review time 
frames. As a result, in our December 2017 report, we recommended that 
both agencies should analyze their time frames for reviewing incidental 
harassment authorization applications--from the date the agency 
determines that an application is adequate and complete until the date 
an application is approved or denied--and compare the agency's review 
time frames to the statutory review time frame.\11\ Both NMFS and FWS 
agreed with our recommendation.
---------------------------------------------------------------------------
    \11\ GAO-18-60.
---------------------------------------------------------------------------

  BOEM and NMFS Have Been Reviewing Certain Seismic Survey Permit and 
  Incidental Take Authorization Applications in the Atlantic OCS for 
                             Several Years

    As we stated in our December 2017 report,\12\ as of October 2017, 
in addition to the six permits BOEM issued in the Atlantic OCS from 
2011 through 2016, another seven permits were pending a decision. Of 
these seven, BOEM received six applications for deep penetration 
seismic survey permits in the Atlantic region from March to May 2014 
(see Fig. 2).
---------------------------------------------------------------------------
    \12\ GAO-18-60.

FIGURE 2: BUREAU OF OCEAN ENERGY MANAGEMENT (BOEM) REVIEW TIMELINE OF 
                    SIX PENDING SEISMIC SURVEY PERMIT APPLICATIONS IN 
                    THE ATLANTIC OUTER CONTINENTAL SHELF REGION, 2014-
                    2017


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   
       Source: GAO analysis of BOEM data and interviews with BOEM 
officials. GAO-18-342T

    Note: Five of the six applicants submitted their related 
incidental-harassment applications to the Department of Commerce's 
National Marine Fisheries Service (NMFS) from August 2014 through 
January 2016. According to BOEM officials, the agency was awaiting 
NMFS's issuance of incidental harassment authorizations before issuing 
seismic survey permits. Before such authorizations were issued, in 
January 2017, BOEM denied these applications, citing, among other 
things, the 5-year leasing plan, which removed the area from all 
leasing during the period from 2017 through 2022.

    Of the six applicants that applied to BOEM during that time, five 
also applied to NMFS for incidental harassment authorizations related 
to their seismic survey permit applications, from August 2014 to 
January 2016 (see Fig. 3). The sixth applicant that applied to BOEM for 
a seismic survey permit in the Atlantic OCS region did not apply for an 
incidental harassment authorization with NMFS, according to NMFS 
officials. These five incidental harassment authorizations were pending 
a decision by NMFS, as of October 2017, and NMFS did not have an 
estimate as to when it would issue a decision.

FIGURE 3: NATIONAL MARINE FISHERIES SERVICE (NMFS) REVIEW TIMELINE OF 
                    FIVE PENDING INCIDENTAL HARASSMENT AUTHORIZATION 
                    APPLICATIONS RELATED TO SEISMIC SURVEY PERMIT 
                    APPLICATIONS IN THE ATLANTIC OUTER CONTINENTAL 
                    SHELF REGION, 2014-2017
                    
                    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                
                    
                    
                     

    Source: GAO analysis of NMFS data and interviews with NMFS 
officials. GAO-18-342T

    Chairman Gosar, Ranking Member Lowenthal, and members of the 
Subcommittee, this concludes my prepared statement. I would be pleased 
to answer any questions that you may have at this time.

                                 ______
                                 

    Dr. Gosar. Thank you, Mr. Ludwigson.
    I now recognize Senator Davis for his testimony.

   STATEMENT OF STATE SENATOR TOM DAVIS, DISTRICT 46, SOUTH 
                      CAROLINA LEGISLATURE

    Mr. Davis. Good morning, Chairman Gosar, Ranking Member 
Lowenthal, and honorable Committee members. I greatly 
appreciate the opportunity to testify before you today about 
the importance of protecting the Atlantic Coast from offshore 
drilling and seismic airgun blasting.
    My testimony today will cover the impacts of seismic 
testing and offshore drilling, the lack of jurisdiction for 
changing the permitting process, the legal and transparency 
problems associated with seismic airgun blasting, the 
significant economic impacts offshore drilling and seismic 
testing would bring to our coast, and the large bipartisan 
opposition to offshore drilling and seismic airgun blasting.
    Seismic testing involves firing loud sonic guns into the 
ocean floor every 16 seconds to read echoes from the bottom 
geology, with a test taking place over miles of ocean for 
months at a time. Scientists agree that seismic airgun blasts 
could alter the marine animals' behavior, affecting their 
migration patterns, mating habits, and how they communicate 
with each other. Most animals in the ocean use sound the way 
animals on land use eyesight. Saturating their environment with 
noise will have an impact.
    NOAA estimates that 138,000 marine animals could be injured 
and 13.6 million could have their migration, feeding, or other 
behavioral patterns disrupted. I have cited numerous scientific 
studies, which are footnoted in my testimony, as substance for 
those particular effects on marine animals.
    Accidents occur in a world where human error or mechanical 
imperfections and coastal hurricanes all play unexpected roles. 
When you drill, you spill. It is inevitable. The oil industry 
touts a 99 percent safety record, but that 1 percent is pretty 
horrific for people living in the vicinity of a spill when it 
occurs.
    The Federal Government predicts at least one spill a year 
for every 1,000 barrels in the Gulf of Mexico over the next 40 
years, a spill of 10,000 barrels or more every 3 or 4 years. We 
saw what happened in the Gulf of Mexico in 2010 when the BP 
Deepwater Horizon rig spilled millions of barrels of oil into 
the Gulf. It was a disaster. But thankfully, the Gulf's bowl-
like shape contained the spill in that region.
    A similar spill off the Atlantic Coast would be a disaster 
of epic proportions. If oil entered into the Gulf stream, it 
would be forced into the Chesapeake Bay, the Hudson River 
Valley, the Gulf of Maine, and the Grand Banks, some of the 
richest fishing grounds in the world.
    The Gulf of Mexico BP Deepwater Horizon blowout also showed 
that oil cannot be removed from salt marshes and other wetland 
systems. Coastal salt marshes in South Carolina are among the 
most productive ecosystems in the world and nursery grounds for 
many estuarine and marine species. Toxic substances from oil 
spills, both chronic and acute, will put all these organisms at 
risk.
    Even if a spill never occurs, and both the oil industry and 
the Federal Government admit that spills are inevitable, there 
is still an adverse impact to South Carolina's coast in that 
the land-based infrastructure necessary to support offshore 
drilling is dirty and highly industrial. Moreover, even the 
most lucrative oil and gas scenario generates less than 1 
percent of the economic impact of what tourism has in South 
Carolina, $2.7 billion accrue in South Carolina over a two-
decade period. We realized $20 billion in tourism in the year 
2015 alone.
    I also want to point this out: along the Gulf Coast, 
beachgoers are provided with wipes to clean the oil and tar 
balls from their feet after walking on the beach. To the 
residents of South Carolina, that scenario is unacceptable, as 
our beaches are major revenue generators and part of our way of 
life.
    Also, the DoD has admitted, or has stated, that there are 
mission compatibility inconsistencies with offshore leasing. We 
have considerable military installations in South Carolina, and 
the Department of Defense concerns in this regard must be 
noted.
    It was pointed out earlier that Secretary Zinke has already 
exempted Florida from the exploration and drilling. That raises 
serious due process, equal protection concerns, and arbitrary 
and capricious standards, which I will be happy to talk about 
in follow-up questions.
    In closing, I would say the opposition is bipartisan and 
wide-ranging. More than 160 municipalities along the East Coast 
have passed resolutions opposing offshore oil and gas drilling 
and exploration. In addition, the New England, Mid-Atlantic, 
and South Atlantic Fishery Management Councils for the 
Department of Defense, Air Force, and NASA have all weighed in 
to express concerns. More than 42,000 businesses and 500,000 
fishing families have also joined this overwhelming chorus of 
voices that have said no to testing or drilling.
    Seismic testing and oil drilling pose unknown threats to 
our coast and could include devastating damage to our beach 
communities and the water quality we enjoy. Oil and water 
should not mix, and now is the time of choosing. We must pick 
one or the other. Coastal communities and local voices have 
already voiced their choice. We want to protect our water, our 
coast, and our way of life from the unacceptable and 
devastating impacts of seismic testing and offshore drilling. 
Washington, please, needs to listen.
    I thank you for the opportunity to testify today, and I 
look forward to answering your questions.

    [The prepared statement of Mr. Davis follows:]
   Prepared Statement of the Hon. Tom Davis, State Senator of South 
                                Carolina
    Good morning, Chairman Gosar, Ranking Member Lowenthal, and 
honorable Committee members. My name is Tom Davis, and I am a 
Republican State Senator from Beaufort, South Carolina. I greatly 
appreciate the opportunity to testify before you today about the 
importance of protecting the Atlantic Coast from offshore drilling and 
seismic airgun blasting. My testimony today will cover the impacts of 
seismic testing and offshore drilling, the lack of justification for 
changing the permitting process, the legal and transparency problems 
associated with seismic airgun blasting, the significant economic 
impacts offshore drilling and seismic testing would bring to our coast, 
and the large, bipartisan opposition to offshore drilling and seismic 
airgun blasting.
                       impact of seismic testing
    Seismic testing involves firing loud sonic guns into the ocean 
floor every 16 seconds to read echoes from the bottom geology, with the 
tests taking place over miles of ocean for months at a time. The 
National Oceanic and Atmospheric Administration (NOAA) confirms that 
the sound from the seismic airguns can be recorded from sites more than 
1,860 miles away, equivalent to the distance from Washington, DC to Las 
Vegas.
    Scientists agree that seismic airgun blasts could alter marine 
mammals' behavior, affecting their migration patterns, mating habits 
and how they communicate with each other. Most animals in the ocean use 
sound the way animals on land use eyesight; saturating their 
environment with noise will have an impact. NOAA estimates that 138,000 
marine animals could be injured, and 13.6 million could have their 
migration, feeding, or other behavioral patterns disrupted.
    Proponents of seismic airgun blasting often mischaracterize an old 
quote from Dr. Bill Brown of BOEM, claiming that seismic airgun 
blasting has no impact on marine mammal populations--populations being 
the key qualifier. However, there is a substantial body of peer-
reviewed science showing that seismic airgun blasting negatively 
affects marine mammals, potentially even at the population level. For 
example, whales exposed to seismic airgun noise stop producing 
vocalizations that are essential to feeding, avoiding predators, 
breeding, and raising their young. In the baleen whales, these impacts 
can occur across vast distances, as much as 100,000 square kilometers 
or more around a single seismic array. Recent science shows that there 
are population level impacts.\1\
---------------------------------------------------------------------------
    \1\ E.g., Castellote, M., Clark, C.W., and Lammers, M.O., Acoustic 
and behavioural changes by fin whales (Balaenoptera physalus) in 
response to shipping and airgun noise, Biological Conservation 147:115-
122 (2012); Cerchio, S., Strindberg, S., et al., Seismic surveys 
negatively affect humpback whale singing activity off Northern Angola, 
PLoS ONE 9(3):e86464 (2014); Blackwell, S.B., Nations, C.S., et al., 
Effects of airgun sounds on bowhead whale calling rates: Evidence for 
two behavioral thresholds, PLoS ONE 10(6):e0125720 (2015).
---------------------------------------------------------------------------
    Furthermore, scientific studies show behavioral and physiological 
impacts to marine life. These include a 2017 study documenting seismic 
airgun blasting killing zooplankton up to three-quarters of a mile 
away; \2\ a 2017 study documenting seismic airgun blasting causing mass 
mortality in scallops and severely impacting the remaining scallops' 
immune systems; \3\ a 2017 study documenting that seismic airgun 
blasting increases stress levels, which according to the study, causes 
the oysters to stop feeding and breathing; \4\ a 2017 study documenting 
seismic airgun blasting decreasing the white blood cell counts in spiny 
lobsters, leading to higher rates of immune infections; \5\ a study 
documenting seismic airgun blasting depressing longline cod and haddock 
catch by 70-80 percent; \6\ and a 2017 study documenting a 78 percent 
decline in reef-fish abundance after seismic airgun blasting was 
conducted in the area.\7\
---------------------------------------------------------------------------
    \2\ McCauley R, et al. (2017) Widely used marine seismic survey air 
gun operations negatively impact zooplankton. Nature Ecology & 
Evolution. Article number: 0195. doi:10.1038/s41559-017-0195.
    \3\ Day R, et al. (2017) Exposure to seismic air gun signals causes 
physiological harm and alters behavior in the scallop Pecten fumatus. 
Proceedings of the National Academy of Sciences of the United States 
114(40): E8537-E8546, doi: 10.1073/pnas.1700564114.
    \4\ Charifi M, et al. (2017) The sense of hearing in the Pacific 
oyster, Magallana gigas. PLoS ONE 12(10): e0185353. https://doi.org/
10.1371/journal.pone.0185353.
    \5\ Fitzgibbon Q, et al. (2017) The impact of seismic air gun 
exposure on the haemolymph physiology and nutritional condition of 
spiny lobster, Jacus edwardsii. Marine Pollution Bulletin. 125:146-156.
    \6\ Engas A, et al. (1996) Effects of seismic shooting on local 
abundance and catch rates of cod (Gadus morhua) and haddock 
(Melanogrammus aeglefinus). Canadian Journal of Fisheries and Aquatic 
Sciences, 53:2238-2249. doi: 10.1139/cjfas-53-10-2238.
    \7\ Paxton A, et al. (2017) Seismic survey noise disrupted fish use 
of a temperate reef. Marine Policy. 78:68-73. doi: 10.1016/
j.marpol.2016.12.017.
---------------------------------------------------------------------------
                    gao study of seismic permitting
    The new study by the Government Accountability Office (GAO) that is 
the topic of this hearing does not, in fact, identify any significant 
deficiencies in the permitting process for offshore seismic surveys. 
The GAO conducted an extensive review, and its expert reviewers do not 
propose any of the drastic changes that were included in H.R. 3133, 
legislation that recently passed this Committee. H.R. 3133 would 
eviscerate the balanced process for issuing Incidental Harassment 
Authorizations (IHAs) in order to fast-track seismic airgun surveys and 
other industrial actions in the ocean that can harm whales, dolphins, 
and other marine mammals.
    The GAO reviewers' recommendations are minor. They recommend that 
the two agencies that issue Incidental Harassment Authorizations, the 
National Marine Fisheries Service and the Fish and Wildlife Service, 
develop guidance on when and how staff should record the date on which 
the agency determines the ``adequacy and completeness'' of the 
application. Then the agencies should analyze their time frames for 
reviewing IHAs and compare them to the statutory time frames. These are 
trivial process recommendations and do not provide justification for 
wholesale changes that undermine important and necessary protections 
for marine mammals.
    Furthermore, since 2006, the Fisheries Service issued 25 out of 26 
IHAs for offshore oil and gas activities involving seismic surveys 
within its own 6- to 9-month target time frame.\8\ While four IHAs 
exceeded the time frame from the original submission date, only one 
exceeded the time frame from the date of final revisions to the 
application. In these four cases, the additional time was minimal--1 to 
3 months.\9\ For the four Letters of Authorizations, two were issued in 
the 12- to 18-month time frame, one took 24 months, and the time frame 
for one is unclear.\10\ The applicants are often the source of delay. 
If the applicants do not provide enough information, the Fisheries 
Service must return the application for revisions and addendums.\11\ 
The MMPA statutory standards are neither ambiguous nor the source of 
the alleged delay.
---------------------------------------------------------------------------
    \8\ NOAA Fisheries, Oil & Gas: Incidental Take Authorizations, 
http://www.nmfs.noaa.gov/pr/permits/incidental/oilgas.htm (last visited 
Jan. 8, 2018); see also Attachment 2--Timeframe for Incidental Take 
Authorizations for Oil and Gas Activities Involving Seismic Surveys 
(1998-Present). The time frames are not mandatory, but estimates of how 
long it will take for the Fisheries Service to process the 
applications.
    \9\ See Attachment 2--Timeframe for Incidental Take Authorizations 
for Oil and Gas Activities Involving Seismic Surveys (1998-Present).
    \10\ See id.
    \11\ As the Fisheries Service notes: ``If your application is 
incomplete, it will be returned to you with an explanation. The formal 
processing of the request does not begin until the application is 
deemed adequate and complete (with enough information for us to analyze 
the potential impacts on marine mammals, their habitats, and on the 
availability of marine mammals for subsistence uses).'' NOAA Fisheries, 
Apply for an Incidental Take Authorization, http://www.nmfs.noaa.gov/
pr/permits/incidental/instructions.htm (last visited Jan. 8, 2018).
---------------------------------------------------------------------------
   results of seismic tests would be proprietary to private companies
    Proponents for testing and drilling often argue that seismic tests 
are necessary in order to provide coastal communities with data about 
oil and gas deposits off their shores to assess whether it makes 
economic sense to move forward with drilling for those resources. But 
that information is considered proprietary by the private companies 
conducting them. Local decision makers won't have access to it, nor 
will the public. Not even Members of Congress can get their hands on 
it.
    Currently, there are five companies awaiting final permits from the 
Bureau of Ocean Energy Management (BOEM) to conduct seismic testing 
along the Atlantic Coast. Most of these companies are European and will 
not be investing in our communities. In fact, Reuters reported that a 
French-based company, CGG, is dependent on the Atlantic contract to 
avoid bankruptcy.\12\ Therefore, BOEM is literally putting French 
business interests ahead of hard-working American workers who are 
dependent on healthy ocean ecosystems for survival.
---------------------------------------------------------------------------
    \12\ French oil services firm CGI files for bankruptcy. Reuters 
(2017). Available: https://www.reuters.com/article/france-cgg/french-
oil-services-firm-cgg-files-for-bankruptcy-idUSL8N1JB6H8. Accessed 
January 17, 2018.
---------------------------------------------------------------------------
                    damages associated with drilling
    Accidents happen in a world where human error, mechanical 
imperfections and coastal hurricanes all play unexpected roles. When 
you drill, you spill. It is inevitable. The oil industry touts a 99 
percent safety record, but that 1 percent is pretty horrific for people 
living in the vicinity of a spill when it occurs. The Federal 
Government predicts at least one oil spill a year for every 1,000 
barrels in the Gulf of Mexico over the next 40 years--a spill of 10,000 
barrels or more every 3 to 4 years.
    We saw what happened in the Gulf of Mexico in 2010 when the BP 
Deepwater Horizon rig spilled millions of barrels of oil into the Gulf. 
It was a disaster, but thankfully the Gulf's bowl-like shape contained 
the spill in that region. A similar spill off the Atlantic Coast would 
be a disaster of epic proportions. If oil entered the Gulf Stream it 
could be forced up into the Chesapeake Bay, the Hudson River Valley, 
the Gulf of Maine, and the Grand Banks, which are some of the richest 
fishing grounds in the world.
    The Gulf of Mexico BP Deepwater Horizon blowout showed that oil 
cannot be removed from salt marshes and other wetland systems. It can 
remain in the sediments for decades, as was seen in marshes in 
Massachusetts. Coastal salt marshes in South Carolina are among the 
most productive ecosystems in the world and are nursery grounds for 
many estuarine and marine species. Toxic substances from oil spills, 
both chronic and acute, will put all of these organisms at risk.
    Even if a spill never occurs--and both the oil industry and the 
Federal Government admit that spills are inevitable--there's still an 
adverse impact to South Carolina's coast in that the land-based 
infrastructure necessary to support offshore drilling is dirty and 
highly industrial. Also, the infrastructure required to transport 
offshore oil is devastating. For example, a series of canals built 
across Louisiana wetlands to transport oil has led to vast destruction 
of marshlands. Healthy marshlands are a critical component of our 
ecosystem.
    Sometimes we hear elected officials claim that they want to explore 
and drill for natural gas only, while leaving the oil in the ground. 
One doesn't explore for just gas. By law, they must first produce the 
oil before they produce the gas in order to ``maximize ultimate 
recovery . . .'' \13\ This is because when oil and gas occur together 
in a reservoir, as the oil is produced, the gas cap expands helping to 
remove the oil, essentially pushing it out of the pore spaces in the 
rocks. When exploration wells are drilled, one finds oil and/or gas 
and/or water and/or nothing. Then the oil company determines if it's 
economical to produce the reserves they found, and if so, submits a 
plan to BOEM about how they will produce the well.
---------------------------------------------------------------------------
    \13\ 30 CFR Sec. 250.1150. Available: https://www.gpo.gov/fdsys/
pkg/CFR-2013-title30-vol2/pdf/CFR-2013-title30-vol2-sec250-1150.pdf.
---------------------------------------------------------------------------
                               economics
    Hydraulic fracking has increased domestic petroleum production by 
64 percent. The Federal Energy Information Administration now predicts 
the Nation will be a net energy exporter within a decade--for the first 
time since the 1970s. There's no need for offshore oil production off 
South Carolina's coast, especially in light of the costs noted above.
    The American Petroleum Institute says oil and gas drilling could 
result in $2.7 billion to South Carolina over a two-decade period. That 
sounds like a fairly big number, but according to the South Carolina 
Department of Parks, Recreation, and Tourism, tourists in South 
Carolina spent nearly 10 times that amount--more than $20 billion--in 
2015 alone, with about 60 percent of that resulting from tourism to 
coastal areas. Even the most lucrative oil and gas scenario would 
generate less than 1 percent of the economic impact tourism has on the 
state. Further, these industries do not live harmoniously. Along the 
Gulf Coast, beachgoers are provided with wipes to clean the oil and tar 
balls from their feet after walking the beach. To the residents of 
South Carolina, that scenario is unacceptable, as our beaches are major 
revenue generators, and part of our way of life. Moreover, tourism 
revenue increases every year with no signs of that trend slowing; the 
same cannot be said of the demand for oil.
    This new National OCS Program proposes to offer leases in areas 
that have extensive military operations, thus risking our national 
security training and readiness. The draft plan deviates from the long-
standing tradition of deference to the Department of Defense (DoD) when 
offering offshore drilling leases in Federal waters. The Atlantic and 
Eastern Gulf of Mexico are home to critical coastal military 
facilities, including Norfolk Naval Station--the largest naval station 
in the world. In the Atlantic Ocean, DoD conducts extensive readiness 
operations including live fire tests, air-to-surface bombing exercises, 
homing torpedo testing, supersonic test flights, laser targeting 
operations, and both Naval Air and Sea Systems Command. DoD's 2015 
report on mission compatibility with offshore leasing indicated that 
significant restrictions on oil and gas activity in the Mid-Atlantic 
and South Atlantic planning regions would be necessary to ensure that 
DoD activities would not be impaired.
    Furthermore, DoD has made it clear that the continuation of the 
moratorium on oil and gas leasing in the Eastern Gulf of Mexico is 
essential to vital military readiness activities. An April 2017 letter 
from the Office of the Under Secretary of Defense states, ``The 
Department of Defense (DoD) cannot overstate the vital importance of 
maintaining this moratorium.'' The letter continues, ``The moratorium 
on oil and gas `leasing, pre-leasing, and other related activities' 
ensures that these vital military readiness activities may be conducted 
without interference and is critical to their continuation. Emerging 
technologies . . . will require enlarged testing and training 
footprints, and increased DoD reliance of the Gulf of Mexico Energy 
Security Act's moratorium beyond 2022.'' A separate June 2017 letter 
from the Air Force states, ``The moratorium is essential for developing 
and sustaining the Air Force's future combat capabilities.''
    That total amount of energy resources, according to Department of 
the Interior estimates, would keep the United States in oil for 61 
days. And there's no guarantee that the drilling will pan out at all. 
Five wells have been drilled in this section of the Atlantic in the 
past, the last being in 1962. All were abandoned. Cuba has put down 
four wells as recently as 2012, and all were found to be uneconomical, 
and have been capped. These numbers are peanuts compared to what South 
Carolina produced annually in GDP and jobs generated by healthy ocean 
ecosystems including fishing, recreation and tourism. In 2014 alone, 
these industries generated over $4.4 billion in GDP and nearly 79,000 
jobs.\14\ Industrializing our coast and risking our ocean and way of 
life is not worth the economic trade-off.
---------------------------------------------------------------------------
    \14\ Offshore Energy by the Numbers: An Economic Analysis of 
Offshore Drilling and Wind Energy in the Atlantic, by Andrew Menaquale, 
Oceana, January 2015.
---------------------------------------------------------------------------
                           alternative energy
    We must wean ourselves from dirty, nonrenewable fossil fuels and 
invest more in renewable sources such as wind, solar, and geothermal. 
External costs, or externalities, are never fully allocated to 
companies that drill for oil--and that gives such companies an unfair 
advantage over companies developing alternative sources of energy--
sources that tend to be, by design, cleaner and more sustainable.
      forms of opposition to offshore seismic testing and drilling
    Legal: When the prior administration removed the Atlantic coast 
from the Five-Year Plan for 2017-2022, they also rejected six permits 
pending to begin seismic testing for oil and gas. Instead of requiring 
new seismic survey applications, the Secretary of Interior remanded the 
applications. These now outdated applications are currently in the 
process of being reviewed by the Bureau of Ocean Energy Management 
(BOEM) and associated Federal agencies, including the National Marine 
Fisheries Service (NMFS). In order for the seismic permits to move 
forward, NMFS must first issue ``Incidental Harassment Authorizations'' 
to allow the ``taking'' of marine mammals. There is no new significant 
science that counters the logic used by the previous administration's 
reasoning for denying these permits. If anything, the science has 
increasingly shown harm to marine life from seismic airgun blasting. 
Worse, if the seismic permits are issued, paving the way for oil and 
gas exploration and drilling the Administration should expect immediate 
litigation from state and local governments, constituents and NGOs 
across the Atlantic coast.

    Political: Recently, Secretary Zinke met with Florida Governor Rick 
Scott on the tarmac of the Tallahassee Airport, where in front of 
several TV cameras, the Secretary announced that due to the Governor's 
opposition to Florida being included in the 5-year plan, and Florida's 
unique coastal environment and tourism, the state will now be removed 
from the 5-year plan. While that is great that the Governor and 
Secretary are listening to local leaders, businesses and constituents, 
nearly every other state along the Atlantic Coast has requested the 
same meeting and treatment Governor Scott received. In fact, on the 
East Coast, governors from Florida, South Carolina, North Carolina, 
Virginia, Maryland, Delaware, New Jersey, New York, Rhode Island, New 
Hampshire, Connecticut, and Massachusetts all oppose the newly released 
draft 5-year plan. It should be noted that the governors of Georgia and 
Maine have recently shifted their position from supporting more 
offshore drilling off their coast to expressing concerns with this new 
National OCS program. Additionally, it's not entirely clear that 
Florida is removed, formally, until the Proposed Program is released.
                   bottom line: who do we want to be?
    The opposition is bipartisan and wide-ranging. More than 160 
municipalities along the East Coast have passed resolutions opposing 
offshore oil and gas drilling and exploration. In addition, the New 
England, Mid-Atlantic, and South Atlantic Fishery Management Councils; 
the Department of Defense; Air Force; Florida Defense Support Task 
Force and NASA have all weighed in to express serious concerns or 
opposition to these activities. More than 42,000 businesses and 500,000 
fishing families have also joined this overwhelming chorus of voices 
and officially said ``no'' to testing and/or drilling.
    Some politicians try to straddle the fence, saying they want the 
jobs the oil industry would bring, but they don't want to do anything 
to harm our beaches and tourism. But you can't have both. You cannot 
wholeheartedly protect the environment South Carolina is fortunate to 
enjoy, yet be willing to risk it for the unknown.
    Seismic testing and oil drilling pose unknown threats to our coast 
that could include devastating damage to our beach communities and the 
water quality we enjoy. Oil and water should not mix, and now is a time 
of choosing. We must pick one or the other. Coastal communities and 
local voices have already voiced their choice. We want to protect our 
water, our coast, and way of life from unacceptable and devastating 
impacts of seismic testing and offshore drilling. Washington needs to 
listen.
    I thank you for the opportunity to testify here today and I look 
forward to answering your questions.

                                 ______
                                 

    Dr. Gosar. Thank you, Senator Davis.
    Mr. Steen, you are recognized for 5 minutes.

       STATEMENT OF RYAN STEEN, PARTNER, STOEL RIVES, LLP

    Mr. Steen. Thank you, Chairman Gosar, Ranking Member 
Lowenthal, and members of the Subcommittee. My name is Ryan 
Steen, and I am a partner in the law firm of Stoel Rives. I 
present this testimony on behalf of my client, the 
International Association of Geophysical Contractors. I 
appreciate the Subcommittee's invitation to testify regarding 
the significant need for and support for modernizing the Marine 
Mammal Protection Act, known as the MMPA. My testimony is based 
upon my experience representing a variety of clients in Federal 
regulatory and litigation matters involving many aspects of the 
MMPA and related environmental statutes.
    Although well intended at the time it was enacted, the MMPA 
has proven unworkable in many contexts, particularly its 
provisions for the authorization of incidental take. In a 
nutshell, those provisions are hopelessly ambiguous and give no 
clear direction to agencies or to the regulated community. 
Additionally, Incidental Harassment Authorizations involving 
offshore oil and gas activities are rarely, if ever, issued 
within the required time frames.
    Unfortunately, the MMPA provides no consequence or remedy 
for such delay. In the past decade, these problems have 
manifested in the form of routinely delayed permitting 
processes, inaccurate analyses of potential impacts, and 
opportunistic advocacy litigation intended to impede offshore 
development.
    None of this is faithful to Congress' mandate that the 
Federal Government pursue the ``expeditious and orderly'' 
development of the Outer Continental Shelf. These serious 
problems have most recently been on display in the Federal 
Government's processing of applications to conduct seismic 
surveys in the Atlantic. The permitting process for these 
applications is a bureaucratic maze, as depicted by the figure 
on the screen.
    After extensive environmental review at the programmatic 
level, the Bureau of Ocean Energy Management published a record 
of decision in July 2014 authorizing the consideration of 
permits for seismic surveys in the Atlantic. Since then, the 
pending permit applications have been subjected to a regulatory 
process plagued with delays and uncertainty, capped by the 
Obama administration's abrupt political decision on the eve of 
a new Presidency to summarily deny all permit applications.
    BOEM has since correctly reinstated the permit applications 
which remain under agency review. While there have been many 
unprecedented and extra statutory comment periods added to this 
process, the Atlantic delays are due in large part to the 
National Marine Fisheries Service's extreme delay in its 
processing of applications for marine mammal incidental take 
authorization.
    To date, NMFS is delinquent in meeting the statutory 
timeline by well over 2 years. NMFS has largely blamed this 
delay on the supposed need to continue to evaluate various 
forms of purported new information; however, as the courts have 
routinely held, an agency cannot ``revise its action every time 
new data or a new model is announced because doing so would 
lead to significant costs and potentially endless delays in the 
approval processes.''
    As another example, over the past decade, almost every MMPA 
incidental take regulation issued for offshore oil and gas 
activities in the Arctic has been challenged in court by 
advocacy organizations attempting to exploit many of the MMPA's 
ambiguous provisions and related duplicative processes. In 
every instance and on all counts, the regulations have been 
upheld by the Federal, district, and appellate courts. However, 
as intended by advocacy groups, these lawsuits have cost the 
courts, agencies, and applicants substantial time and money.
    As environmental advocacy groups increasingly view offshore 
issues, specifically opposition to seismic surveys as a 
lucrative source of fundraising, MMPA incidental take 
authorizations for those activities will become increasingly 
contentious. Without changes to the MMPA to create 
accountability and clear standards, NMFS will continue to be 
frozen by controversy and ambiguous statutory direction, which 
in turn will breed more litigation.
    The Secure American Energy Act would establish firm 
deadlines for each stage of the MMPA authorization process, 
including consequences for the failure to meet those deadlines. 
The bill would also eliminate duplicative and unnecessary 
standards and processes. The bill would retain all existing 
opportunities for public involvement. The bill would not, as 
has been suggested, eliminate mitigation requirements or reduce 
substantive protections for marine mammals. Rather, the bill 
helps to accomplish what any reasonable person would expect of 
a Federal regulatory program: transparent standards, firm 
timelines, efficient process, and elimination of redundancy.
    Indeed, the only basis for opposing this bill would be an 
antagonism to efficient Federal processes and a desire for the 
ambiguities and inefficiencies that create opportunities for 
delay and litigation.
    On behalf of IAGC, I urge the Committee on Natural 
Resources to support House passage of legislation to modernize 
the MMPA. This would, in my view and experience, significantly 
and objectively improve the administration of the MMPA.
    Thank you for the opportunity to testify today.

    [The prepared statement of Mr. Steen follows:]
  Prepared Statement of Ryan P. Steen, on Behalf of the International 
                 Association of Geophysical Contractors
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Subcommittee, for the record, my name is Ryan Steen and I am a partner 
in the law firm of Stoel Rives, LLP. I have extensive experience in 
environmental regulation and litigation, particularly in matters 
involving the Marine Mammal Protection Act (MMPA), the Endangered 
Species Act (ESA), and the National Environmental Policy Act (NEPA). 
Over the past decade, I have assisted clients with obtaining regulatory 
authorizations for offshore activities in the Beaufort Sea, the Chukchi 
Sea, the Cook Inlet, the Gulf of Mexico, and the Atlantic Ocean. I have 
also represented clients in litigation involving challenges to some of 
those authorizations, including in multiple proceedings before the 
Alaska Federal District Court and the Ninth Circuit Court of Appeals. 
In addition to my law degree, I have a Bachelor of Science degree in 
fisheries. Prior to beginning my law career, I worked as a fisheries 
biologist for the University of Washington. My professional career has 
therefore had a strong focus on the management of ocean resources, both 
from the perspective of a scientist and from the perspective of a 
lawyer.
    I present this testimony on behalf of my client, the International 
Association of Geophysical Contractors (IAGC). The IAGC is the 
international trade association representing all segments of the 
geophysical industry, essential to discovering and delivering the 
world's energy resources. The IAGC member companies play an integral 
role in the successful exploration and development of hydrocarbon 
resources, onshore and offshore, through the acquisition and processing 
of geophysical data. For more than 45 years, IAGC has been the global 
voice of the geophysical industry and is the only trade organization 
solely dedicated to the industry. The IAGC represents more than 110-
member companies from all segments of the geophysical industry. These 
members help to shape industry priorities and positions through IAGC 
chapters, committees, and workgroups.
    I appreciate the opportunity to testify before the Subcommittee on 
Energy and Mineral Resources regarding the significant need and support 
for modernizing the MMPA. This need was recently accentuated by the 
December 2017 Report to the Chairman, Committee on Natural Resources, 
House of Representatives from the U.S. Government Accountability Office 
entitled ``Offshore Seismic Surveys--Additional Guidance Needed to Help 
Ensure Timely Reviews,'' GAO-18-60 (GAO Report). Below, I first provide 
important background information regarding the key MMPA provisions, and 
related legal processes, at issue here. I then discuss the application 
of those provisions and processes in the context of two case studies. 
Following that discussion, I address the negligible impact of seismic 
survey activities, recommendations for improvements to the MMPA, and 
the related positive aspects of the Strengthening the Economy with 
Critical Untapped Resources to Expand American Energy Act (the ``SECURE 
American Energy Act'').
                            legal framework
    In the Outer Continental Shelf Lands Act (OCSLA), Congress 
expressly mandated the ``expeditious and orderly development'' of the 
Outer Continental Shelf (OCS) ``subject to environmental safeguards.'' 
43 U.S.C. Sec. 1332(3). Courts have since confirmed that ``the 
expeditious development of OCS resources'' is OCSLA's primary purpose. 
California v. Watt, 668 F.2d 1290, 1316 (D.C. Cir. 1981). Congress 
enacted OCSLA to ``achieve national economic and energy policy goals, 
assure national security, reduce dependence on foreign sources, and 
maintain a favorable balance of payments in world trade.'' 43 U.S.C. 
Sec. 1802(1). Congress expressly intended to ``make [OCS] resources 
available to meet the Nation's energy needs as rapidly as possible.'' 
Id. Sec. 1802(2)(A). Seismic surveying has been and continues to be 
essential to achieving OCSLA's requirements because it is the only 
feasible technology available to accurately image the subsurface of the 
OCS before a single well is drilled.
    Offshore seismic surveys require authorizations from the Bureau of 
Ocean Energy Management (BOEM), pursuant to OCSLA. See id. Sec. 1340. 
There is no requirement for an applicant for an offshore survey permit 
under OCSLA to obtain an incidental take authorization under the MMPA. 
However, unlawful ``takes'' of marine mammals incidental to lawful 
activities (such as a permitted offshore seismic survey) may 
nevertheless be subject to MMPA-based penalties. See 16 U.S.C. 
Sec. 1375. Accordingly, many applicants for offshore survey permits 
from BOEM also request incidental (i.e., unintentional) take 
authorization under the MMPA from the National Marine Fisheries Service 
(NMFS) and/or the U.S. Fish and Wildlife Service (FWS).\1\
---------------------------------------------------------------------------
    \1\ FWS has jurisdiction over polar bears, walrus, sea otters, 
dugongs, and manatees. NMFS has jurisdiction over all other marine 
mammals.
---------------------------------------------------------------------------
    In this context, it is important to recognize that the permit 
issued by BOEM authorizes the seismic survey and the MMPA authorization 
narrowly addresses the incidental take associated with the seismic 
survey. NMFS and FWS do not have jurisdiction over the survey; their 
authority under the MMPA extends only to the authorization of 
incidental take. Notwithstanding the limited role of FWS and NMFS, MMPA 
authorizations are often the primary cause of administrative delay in 
the offshore seismic survey permitting process.
    The MMPA establishes a prohibition on the ``taking'' of marine 
mammals in U.S. waters, unless the taking is authorized by NMFS or FWS. 
The MMPA provides mechanisms for authorizing the taking of marine 
mammals, including the taking of marine mammals incidental to lawful 
activities under Section 101(a)(5). See id. Sec. 1371(a)(5). ``Take'' 
means ``to harass, hunt, capture or kill'' a marine mammal, or attempt 
to do so. Id. Sec. 1362(13). ``Harassment'' is, in turn, defined as 
``any act of pursuit, torment, or annoyance'' that either:

  -- (i) ``has the potential to injure a marine mammal or marine mammal 
            stock in the wild'' (referred to as Level A harassment) 
            (id. Sec. 1362(18)(A)(i)); or

  -- (ii) ``has the potential to disturb a marine mammal or marine 
            mammal stock in the wild by causing disruption of 
            behavioral patterns, including, but not limited to, 
            migration, breathing, nursing, breeding, feeding, or 
            sheltering'' (referred to as Level B harassment) (id. 
            Sec. 1362(18)(A)(ii)).

    NMFS has established acoustic guidelines that it applies to 
determine whether sound at certain decibel levels may cause Level A or 
Level B harassment.

    For many years, NMFS and FWS have authorized the incidental taking 
of marine mammals for activities related to offshore oil and gas 
exploration, including seismic surveys. The vast majority of MMPA 
incidental take authorizations associated with offshore oil and gas 
activities has involved short-term, temporary behavioral harassment 
(Level B). These authorizations have been made through either (i) the 
issuance of ``incidental take regulations'' (ITRs) under Section 
101(a)(5)(A), which are effective for a period of up to 5 years, or 
(ii) the issuance of ``incidental harassment authorizations'' (IHAs) 
under Section 101(a)(5)(D), which are effective for a period of no more 
than 1 year.
    Because the issuance of an incidental take authorization under the 
MMPA is a ``Federal action,'' it triggers an informal or formal 
consultation under Section 7 of the ESA and review under the NEPA. 
Although current law requires ESA compliance for MMPA authorizations, 
that compliance provides no additional substantive protection to marine 
mammals because, as courts have confirmed, the ``negligible impact'' 
standard for issuing an incidental take authorization under the MMPA is 
more stringent than the standard applicable to a finding of ``no 
jeopardy'' under Section 7 of the ESA. See In re Polar Bear Endangered 
Species Act Listing & 4(d) Rule Litig., 818 F. Supp. 2d 214, 233 n.18 
(D.D.C. 2011).
    The MMPA establishes deadlines for the processing of IHA 
applications. Specifically, Section 101(a)(5)(D) states that the 
``Secretary shall publish a proposed authorization not later than 45 
days after receiving an [IHA] application'' and request public comment. 
16 U.S.C. Sec. 1371(a)(5)(D)(iii). After holding a 30-day comment 
period, the Secretary ``shall issue'' the IHA within 45 days of the 
close of the comment period, so long as the required MMPA findings are 
made. Id. These deadlines are particularly important because IHAs are 
issued for a period of only 1 year and planning for offshore surveys is 
complicated and very time-sensitive. Indeed, Congress specifically 
intended the issuance of IHAs to be an ``expedited process'' that was 
``needed to address the procedural problems that have arisen in seeking 
authorizations for harassment takes under existing section 101(a)(5) of 
the MMPA.'' H.R. Rep. No. 103-439, at 29 (1994). The MMPA does not 
contain timing requirements applicable to the issuance of ITRs under 
Section 101(a)(5)(A).

    Some observations regarding the regulatory processes described 
above warrant particular emphasis here:

    <bullet> IHAs involving offshore oil and gas-related activities are 
            rarely, if ever, issued within the timing requirements of 
            the MMPA. NMFS even states on its website that the IHA 
            permitting process takes at least 6 to 9 months to 
            complete. The process often takes much longer. The MMPA 
            provides no consequences for such delay, nor does it 
            provide any incentives to NMFS and FWS to avoid delay.

    <bullet> Because the MMPA contains no timing requirements 
            applicable to ITRs, the regulatory process for the issuance 
            of ITRs often takes years and, in my view, is de-
            prioritized by the agencies because other agency 
            obligations are subject to timing requirements and 
            consequences.

    <bullet> The ESA Section 7 consultation process is cumbersome and 
            time-consuming. The Section 7 process is also subject to 
            statutorily mandated deadlines, but those deadlines are 
            routinely ignored by NMFS and FWS without consequence. The 
            Section 7 consultation process is often a significant cause 
            of the delay in the issuance of an authorization under 
            Section 101(a)(5) of the MMPA, even though the substantive 
            standard governing the Section 7 process is less stringent 
            than the MMPA's ``negligible impact'' standard.

    <bullet> Another significant source of delay in the issuance of 
            MMPA incidental take authorizations involves the estimation 
            of the number of ``takes'' that are expected to occur. 
            Because the MMPA's definition of ``take'' is 
            extraordinarily broad and ambiguous (more so than the ESA's 
            definition of ``take''), FWS and NMFS struggle to determine 
            what activities actually cause take and, as a result, they 
            apply extremely conservative assumptions to ensure that 
            their take estimation modeling encapsulates all conceivable 
            take (and more). This process results in take estimates 
            that are inaccurate and vastly exaggerate the number of 
            takes that will actually occur.

    <bullet> The take estimation modeling exercises are considerably 
            more complicated and play an unduly important role in the 
            permitting process because the agencies are required to 
            demonstrate that the incidental take authorization will not 
            only have a ``negligible impact'' on the potentially 
            affected marine mammal stocks but also affect ``small 
            numbers'' of marine mammals. The term ``small numbers'' has 
            no biological significance whatsoever to the marine mammal 
            population and is a legal term of art that has notoriously 
            confused courts and regulators alike.

    <bullet> All of these regulatory problems and inefficiencies create 
            fertile ground for legal challenges by advocacy groups that 
            will readily file any and all available lawsuits for the 
            sole purpose of impeding and preventing the development of 
            the OCS.

          regulation of offshore activities--two case studies
Atlantic
    Approximately 30 years have passed since the potential hydrocarbon 
resource base of the U.S. Atlantic OCS has been assessed with seismic 
surveys. In the meantime, seismic surveys for ``scientific research'' 
have been conducted fairly regularly in the Atlantic OCS, in addition 
to other geophysical surveys used to characterize the seabed and 
subsurface for suitability of offshore wind energy facilities. Six IAGC 
member companies have applied to BOEM for permits to conduct seismic 
surveying in the Atlantic OCS--a process that started 7 years ago when 
the first permit application was filed. These proposed surveys are 
essential to the ``expeditious and orderly development'' of the OCS, as 
mandated by Congress.
    After extensive environmental review at the programmatic level, 
BOEM published a Record of Decision in July 2014, authorizing the 
consideration of permits for seismic surveys in the Atlantic OCS. Since 
then, the pending permit applications have been subjected to a 
regulatory process plagued with delays and uncertainty. This 
inexplicable process was capped by the Obama administration's abrupt 
political decision, on the eve of a new presidency, to summarily deny 
all permit applications. BOEM has since correctly reinstated the permit 
applications, which remain under agency review.
    Needless to say, obtaining a permit to conduct a seismic survey in 
the Atlantic OCS has been a seemingly unending process that has 
included many environmental impact analyses, multiple opportunities for 
public comment and review, including additional and unprecedented 
public comment periods that are not required by statute or regulation, 
and reviews by bordering states. See Attachment A. However, the most 
concerning and problematic delays primarily relate to the difficulties 
faced by the applicants in acquiring IHAs from NMFS for the incidental 
take of marine mammals pursuant to the MMPA. BOEM has indicated that it 
will not issue decisions on the pending seismic survey permits until 
NMFS has also authorized IHAs for the proposed activities.
    As part of the permitting process to move forward with data 
acquisition on the Atlantic OCS, IAGC members have applied to NMFS for 
the issuance of IHAs. The IHA applications were submitted in 2014 (with 
some of them updated in the summer of 2015). The proposed IHAs were not 
issued until June 6, 2017. Again, under the MMPA, the proposed IHAs 
were required to have been issued within 45 days of NMFS' receipt of 
the applications. This substantial delay was exacerbated by NMFS' 
decision to issue the IHA applications for public comment--an 
unprecedented procedure that is not required or contemplated by the 
MMPA. Under the MMPA, the final IHAs were required to have been issued 
within 45 days of the close of the 30-day comment period for the 
proposed IHAs. However, as of the date of this testimony, the final 
IHAs have still not been issued by NMFS. In sum, NMFS has exceeded the 
MMPA's timing mandates for the processing of the Atlantic IHAs by more 
than 2 years (and the applicants still await their authorizations). 
This has not been the ``expedited process'' Congress envisioned when it 
enacted the MMPA's IHA provisions. Unfortunately, the MMPA provides no 
remedy or consequence for this delay. This delay is specifically 
documented with detail in the GAO Report. See GAO Report at 31-36.
    Many reasons have been speculated for the delays in NMFS' issuance 
of decisions on the pending IHA applications. According to NMFS, some 
delay resulted from its receipt of an unpublished study from Duke 
University that, at that time, was unavailable to the public. At the 
request of environmental advocacy organizations, NMFS apparently 
stalled its processing of the pending applications to consider the 
unpublished study. Delay has also been attributed to uncertainty over 
the application of a series of drafts and final guidance addressing 
acoustic threshold levels for permanent and temporary auditory 
threshold shifts in marine mammals. In other words, NMFS has attributed 
significant portions of its delay to the agency's receipt and 
processing of ``new'' information. However, the MMPA contains no 
provisions allowing NMFS or FWS to toll the statutory timing 
requirements based upon the receipt of new information. To the 
contrary, NMFS is required to make its decisions within the statutorily 
mandated time frames based on the best information available during 
those time frames. Moreover, as the courts have held, ``an agency need 
not revise its action every time new data or a new model is announced 
because doing so would lead to significant costs and potentially 
endless delays in the approval processes.'' Dow AgroSciences LLC v. 
NMFS, 707 F.3d 462, 473 (4th Cir. 2013) (internal quotation marks 
omitted).
    In addition, much has been made by advocacy groups and the media of 
the estimate for as many as 138,000 Level A (potentially injurious) 
``takes'' in the BOEM's programmatic environmental impact statement 
(PEIS) addressing the potential effects of seismic activities in the 
Atlantic Ocean. However, this estimate--like the other estimates in the 
PEIS--is, as BOEM has acknowledged, a substantial overestimate because 
it is based on an unrealistic scenario in which seismic survey 
activities are projected to result in thousands of incidental takes of 
marine mammals. The modeling exercise relied upon by BOEM and NMFS uses 
a multiplicative series of conservatively biased assumptions for all 
uncertain parameter inputs. These assumptions lead to accumulating bias 
as the cumulative conservative assumptions add up to increasingly 
unlikely statistical probabilities that are not representative of real-
world conditions. Consequently, the results are improbable worst case 
scenarios, not accurate representations of likely effects.\2\ Using 
more realistic risk criteria and modeling assumptions, and taking into 
account standard monitoring and mitigation practices employed by the 
seismic industry, the more likely estimate of potential Level A takes 
is zero or a comparably small number. See Attachment B. This more 
likely estimate is corroborated by the best available information, 
which includes no observations of any harm to marine mammal populations 
(in any region) as a result of seismic exploration activities.
---------------------------------------------------------------------------
    \2\ A technical critique of the agencies' flawed, overly 
conservative approach, as reproduced in BOEM's ITR petition for Gulf of 
Mexico activities, is provided in Attachment B.
---------------------------------------------------------------------------
    The IHA provisions of the MMPA were added by Congress to create an 
``expedited process.'' H.R. Rep. No. 103-439, at 29. With over 2 years 
of delay, and a continuing lack of any final decisions by NMFS, the 
Atlantic IHAs have been anything but expeditious. This excessive delay 
undermines Congress' clear mandate in OCSLA to carry out the 
``expeditious and orderly'' development of the OCS ``subject to 
environmental safeguards.'' As environmental advocacy groups 
increasingly view offshore issues--specifically opposition to seismic 
surveys--as a lucrative source of fundraising, MMPA incidental take 
authorizations for those activities will become increasingly 
contentious. If the Atlantic IHA process is any indication, NMFS will 
continue to be frozen by controversy and fail to meet its statutory 
obligations for future authorization processes involving offshore 
activities. Without amendments to the MMPA, there will be no 
accountability for such failures and the regulated community will be 
unable to reasonably carry out the work necessary to help the Federal 
Government fulfill OCSLA's requirements.
Arctic
    The oil and gas industry has routinely applied for and received 
incidental take authorizations pursuant to the MMPA covering 
geophysical and other exploration activities in the Arctic OCS, by NMFS 
and FWS on a project-by-project basis (i.e., IHAs) or through the 
issuance of ITRs and related letters of authorization. In the past 
decade, almost every MMPA ITR issued for Arctic oil and gas activities 
has been challenged by environmental advocacy organizations, and in 
every instance and on all counts, the authorizations have been upheld 
by the courts. The Arctic MMPA experience demonstrates the 
susceptibility of the MMPA and related Federal approvals to litigation, 
as a result of ambiguous statutory language and unnecessary regulatory 
processes.
    Specifically, various advocacy organizations challenged the FWS's 
2006 Beaufort Sea ITRs, 2008 Chukchi Sea ITRs, and 2013 Chukchi Sea 
ITRs. Each of these lawsuits was litigated in the Alaska Federal 
District Court and appealed to the Ninth Circuit Court of Appeals. The 
plaintiffs asserted claims under the Administrative Procedure Act 
alleging violations of numerous provisions of the MMPA, including the 
``specified geographic area,'' ``specified activity,'' ``negligible 
impact,'' ``small numbers,'' and ``least practicable impact'' 
standards. The plaintiffs also challenged related Federal documents, 
such as biological opinions prepared pursuant to the ESA and 
environmental assessments prepared pursuant to NEPA. The most recent 
lawsuit challenging the 2013 Chukchi ITR was an expressly admitted 
attempt by advocacy organizations to block Shell's Chukchi Sea 
exploration program.
    In all three cases, neither the Alaska district court nor the Ninth 
Circuit found merit in any of the claims raised by the advocacy groups. 
This track record of repeated MMPA ITR litigation in the Arctic 
strongly supports the notion that advocacy groups have leveraged their 
ability to challenge MMPA ITRs, and related documents prepared under 
the ESA and NEPA, as a means to attempt to block or impede lawful 
offshore oil and gas operations. Although these lawsuits have cost the 
courts, agencies, and applicants substantial time and money, they have 
accomplished no substantive result (other than delay, as intended by 
the advocacy groups).
    When NMFS begins issuing MMPA authorizations for activities in the 
Atlantic OCS and the Gulf of Mexico OCS, it is reasonable to assume 
that a similar pattern of litigation will emerge. Certain environmental 
advocacy organizations have a well-established history of using the 
regulatory and litigation processes as means to attempt to impede and 
prevent any activities from occurring because they are fundamentally 
opposed to all offshore oil and gas activities (contrary to OCSLA's 
mandate). Indeed, the testimony of South Carolina State Senator Tom 
Davis states that ``[t]he South Carolina Environmental Law Project will 
file a lawsuit to stop implementation and a restraining order to 
postpone [seismic] testing [in the Atlantic OCS] until the case can be 
heard.'' Clear statutory terms and the elimination of unnecessary 
processes would reduce the opportunity for the inappropriate use of 
litigation as a means to impede or prevent the ``expeditious and 
orderly'' development of the OCS.
    In addition, the misguided intentions of environmental advocacy 
organizations in the Arctic have not only consistently failed in court, 
but the allegations upon which they are based have not borne out in the 
scientific record. For example, oil and gas seismic exploration 
activities have been conducted in the Beaufort and Chukchi Seas of the 
Arctic Ocean for decades, with regular monitoring and reporting to NMFS 
pursuant to MMPA authorizations. During this lengthy period of acoustic 
exposures, and despite annual lethal takes by Alaska Natives engaged in 
subsistence activities, bowhead whales have consistently increased in 
abundance to the point that they are believed to have reached carrying 
capacity. Similarly, no effects of offshore exploration activities of 
which I am aware have been observed in Arctic ice seal, walrus, or 
polar bear populations. After decades of oil and gas exploration 
activities in the Arctic, there is no information demonstrating that 
any of the activities have had anything more than a negligible impact 
on marine mammal species. This finding has been repeatedly made by 
Federal agency scientists in numerous public documents.
    Finally, notwithstanding the successful legal defense of ITRs 
issued for Arctic offshore activities, the underlying regulatory 
processes for the issuance of Arctic ITRs have been riddled with 
bureaucratic delay. Arctic ITRs are typically issued 1.5 to 3 years 
after an ITR petition has been submitted. That time period does not 
include the often substantial pre-application communications and 
processes involving the agency and the petitioner. Because there are no 
MMPA timing requirements applicable to ITRs, there are no consequences 
for the delay.
              the negligible impact of seismic activities
    For over 40 years, the Federal Government and academic scientists 
have studied the potential impacts of seismic survey activities on 
marine animal populations and commercial fishing, and have concluded 
that any such potential impacts are insignificant. This conclusion has 
been publicly reaffirmed on multiple occasions by BOEM:

        To date, there has been no documented scientific evidence of 
        noise from air guns used in geological and geophysical (G&G) 
        seismic activities adversely affecting marine animal 
        populations or coastal communities. This technology has been 
        used for more than 30 years around the world. It is still used 
        in U.S. waters off of the Gulf of Mexico with no known 
        detrimental impact to marine animal populations or to 
        commercial fishing.

BOEM, Science Notes (Aug. 22, 2014), http: // www.boem.gov/BOEM-
Science-Note-August-2014/; see also BOEM, Science Notes (Mar. 9, 2015), 
https://www.boem.gov/BOEM-Science-Note-March-2015/ (there has been ``no 
documented scientific evidence of noise from air guns used in 
geological and geophysical (G&G) seismic activities adversely affecting 
animal populations''). These statements accurately summarize the best 
available scientific information regarding the potential effects of 
offshore seismic activities on marine life, and there are no other data 
to the contrary.

    Indeed, the history of formal assessments of offshore seismic 
activities demonstrates that levels of actual incidental take are far 
smaller than even the most balanced pre-operation estimates of 
incidental take. More than five decades of worldwide seismic surveying 
and scientific research indicate that the risk of physical injury to 
marine life from seismic survey activities is extremely low. For 
example, as BOEM has concluded in a draft PEIS for Gulf of Mexico 
activities (DPEIS), ``within the GOM, there is a long-standing and 
well-developed OCS [oil and gas] Program (more than 50 years) and there 
are no data to suggest that activities from the previous OCS Program 
are significantly impacting marine mammal populations.'' DPEIS at 4-77.

    Finally, a 2016 report from the National Academy of Sciences, Ocean 
Studies Board (the ``NAS Report''),\3\ makes the following findings 
regarding marine sound from seismic acoustic sources:
---------------------------------------------------------------------------
    \3\ National Academies of Sciences, Engineering, and Medicine. 
2016. Approaches to Understanding the Cumulative Effects of Stressors 
on Marine Mammals. Washington, DC: The National Academies Press. doi: 
10.17226/23479. https://www.nap.edu/download/23479#.

    <bullet> ``The National Research Council report Marine Mammal 
            Populations and Ocean Noise (NRC, 2005) noted that: `No 
            scientific studies have conclusively demonstrated a link 
            between exposure to sound and adverse effects on a marine 
            mammal population.' That statement is still true'' (NAS 
---------------------------------------------------------------------------
            Report at 16);

    <bullet> ``Evidence of the effects of noise on marine mammal 
            populations is largely circumstantial or conjectural'' (NAS 
            Report at 28); and

    <bullet> ``The probability of marine mammals experiencing PTS 
            [injury] from anthropogenic activities will likely be 
            sufficiently low as to preclude any population-level 
            effects'' (NAS Report at 35).

    In sum, the claims, frequently made in the media by environmental 
advocacy organizations, that offshore seismic surveying has detrimental 
impacts on marine mammal populations, other marine species, and 
commercial fisheries are not supported by the best available 
information. Decisions regarding the implementation of the MMPA, and 
related Federal processes, must be made based upon the best available 
information, not speculation or unsupported, politically motivated 
allegations.
                recommendations for modernizing the mmpa
    When it was enacted in the early 1970s (and subsequently amended), 
the congressional intent behind the MMPA was cutting edge and forward-
thinking. However, as described above, decades of regulation and 
litigation have exposed some significant flaws in the MMPA. The primary 
flaws in the MMPA stem from (i) poorly written statutory language that 
creates ambiguity and uncertainty in the application of the MMPA's 
legal standards, and (ii) procedural duplication and inefficiency. 
These flaws result in agency delay, overly conservative and inaccurate 
impact analyses, confusion by agencies and courts, and exploitation by 
environmental advocacy groups. Fixing some of the obvious flaws in the 
MMPA could result in tangible regulatory improvements that increase 
efficiency, decrease uncertainty and risk, and ultimately benefit all 
stakeholders and the implementing agencies. The following addresses 
some of the key problematic areas, as well as potential solutions.
Substantive Recommendations
    To issue an incidental take authorization under Section 101(a)(5) 
of the MMPA, the agency must show that the authorization will have no 
more than a ``negligible impact'' on marine mammal populations and 
result in ``small numbers'' of incidentally taken animals.

    <bullet> Problems: (1) ``Negligible impact'' is not clearly 
            defined; (2) ``small numbers'' is not defined at all; (3) 
            there is significant overlap between these two ambiguous 
            standards; and (4) the ``small numbers'' standard has no 
            biological or otherwise scientific basis. These problems 
            have led to regulatory uncertainty, inconsistent 
            application by agencies, delay, and litigation.

    <bullet> Solution: Create a redefined unambiguous ``negligible 
            impact'' standard, and eliminate the ``small numbers'' 
            requirement. A single, clear standard for authorizations 
            would result in regulatory efficiency and predictability.

    To issue an incidental take authorization under Section 101(a)(5) 
of the MMPA, the agency must require ``other means of effecting the 
least practicable impact.'' These ``other means'' typically take the 
form of mitigation measures included as conditions of the 
authorization.

    <bullet> Problem: ``Least practicable impact'' is not defined in 
            the statute or in the implementing regulations. As a 
            result, it is not consistently applied by agencies, there 
            is very little guidance for the regulated community, and, 
            most recently, the phrase has been unreasonably and 
            ambiguously interpreted by the Ninth Circuit Court of 
            Appeals.

    <bullet> Solution: Create a new, clear definition for ``least 
            practicable impact.'' The definition should state that 
            operational concerns and economic feasibility are primary 
            factors in determining what mitigation is ``practicable.''

    The MMPA permits the authorization of incidental take by 
``harassment.''

    <bullet> Problem: The definition of ``harassment'' is overly broad 
            and ambiguous, and confusingly refers to ``potential'' 
            harassment rather than actual harassment. This results in 
            serious problems in the estimation of incidental take and 
            unrealistic assumptions made by the implementing agencies.

    <bullet> Solution: Redefine ``harassment'' to remove the word 
            ``potential'' and to establish a more specific standard 
            that provides better clarity for the agencies and the 
            regulated community.

Procedural Recommendations

    The process for issuing incidental take authorizations is routinely 
delayed by the implementing agencies. The current procedural 
requirements create little accountability for agencies because they are 
either ambiguous or establish no consequences or solutions for 
unreasonably delayed agency action.

    <bullet> Solution #1: Revise the procedural requirements to set 
            clear and firm deadlines for each stage of the permitting 
            process, and establish consequences for when agency 
            deadlines are not met (e.g., default approvals).

    <bullet> Solution #2: Create a streamlined authorization process 
            for certain low-effect, but common, activities (similar to 
            the nationwide permit process under the Clean Water Act).

    The MMPA creates a 5-year limit on ITRs that requires applicants to 
petition for a new set of regulations every 5 years. This results in 
unnecessary and burdensome administrative processes that create 
frequent opportunities for litigation.

    <bullet> Solution: Remove the 5-year limit or, alternatively, 
            create a simple and straightforward 5-year renewal process.
    Issues involving the overlap of the MMPA, the ESA, and NEPA have 
proven difficult for the agencies, the courts, and the regulated 
community. Because the MMPA sets the most rigorous conservation-
oriented standards of all these statutes, additional reviews and 
administrative processes under the ESA and NEPA are often unnecessary 
and redundant.

    <bullet> Solution: Make statutory revisions to minimize or 
            eliminate duplicative ESA and NEPA review processes for 
            certain MMPA authorizations. This would substantially 
            increase regulatory efficiency.

                       secure american energy act

    In an effort to begin to bring certainty and clarity to the MMPA 
and address some of the problems outlined in my testimony above, 
Representative Scalise (LA) has introduced the SECURE American Energy 
Act. By making smart changes to improve the efficiency and workability 
of the MMPA incidental take authorization process, the SECURE American 
Energy Act will help to facilitate the ``expeditious and orderly'' 
development of the U.S. OCS. The SECURE American Energy Act addresses 
many of the recommendations described above.

    <bullet> The bill would set clear and firm deadlines for each stage 
            of the MMPA authorization process. Failure to meet those 
            deadlines would result in the approval of the requested 
            authorization based upon the detailed information and 
            proposed mitigation measures included in the IHA 
            application. This would significantly reduce delays in the 
            processing of IHA applications. The bill retains all 
            existing opportunities for public involvement.

    <bullet> Because IHAs expire after 1 year, project proponents must 
            re-apply over multiple years, even if there is little or no 
            change in the best available science. The bill would allow 
            IHAs to be renewed without lengthy and needless agency 
            review so long as there have been no significant changes to 
            the underlying activity or the status of the relevant 
            marine mammal stocks.

    <bullet> The bill would remove duplicative Federal agency processes 
            involving the ESA. Again, this would result in no 
            substantive change in the level of protection afforded to 
            marine mammals because the MMPA's standards are more 
            stringent and protective than the ESA's standards. This 
            would greatly improve the efficiency of the regulatory 
            process for issuing MMPA authorizations.

    <bullet> The bill would eliminate the redundant, non-scientific 
            ``small numbers'' requirement while retaining the 
            ``negligible impact'' standard. This would provide clarity 
            to NMFS and ensure that the applicable standard for MMPA 
            authorizations is scientifically based upon potential 
            impacts to marine mammal species or stocks.

    <bullet> The bill would ensure that NMFS appropriately considers 
            the feasibility of mitigation measures required for IHA 
            applicants and that such measures meet the same standard 
            applicable to ``reasonable and prudent measures'' imposed 
            under the ESA.

                               conclusion

    Although well-intended at the time it was enacted many years ago, 
the MMPA's ambiguous, outdated, and unclear language has proven 
unworkable for the issuance of incidental take authorizations for 
offshore activities. Changes to the statute, such as those described 
above, will significantly improve the regulatory process for both 
Federal regulators and the regulated community. Contrary to statements 
made in the media, these changes will not substantively reduce the 
protections afforded to marine mammals and will retain all existing 
opportunities for public involvement in the regulatory process. Indeed, 
the only basis for opposing this bill would be an antagonism to 
efficient Federal processes because inefficient processes and unclear 
standards create the opportunity to delay and block the development of 
the OCS. The basis for such opposition is, of course, directly contrary 
to OCSLA's clear mandates.

    IAGC believes it is unacceptable for seismic permit applicants to 
have to wait over 2 years for issuance of a simple IHA, when all the 
requisite environmental analyses, based on the best available science, 
have long since been completed. IAGC urges the Committee on Natural 
Resources to support and pass legislation to modernize the MMPA, 
including passage of the SECURE American Energy Act without delay.

    Thank you for the opportunity to testify today.

                                 *****

                              ATTACHMENT A
                              
                              
          [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                    
                                    ***

                              ATTACHMENT B

SYNOPSIS OF PRECAUTIONARY ASSUMPTIONS
GULF OF MEXICO DPEIS
Bob Gisiner, IAGC
                               background
    The BOEM Gulf of Mexico DPEIS is structurally very similar to most 
recent NEPA analyses for environmental risk from manmade sound in the 
marine environment. The interaction of the source, the propagation of 
the sound from source to animals, and the resulting sound exposures 
interact to produce a calculated estimate of effect, usually stated as 
MMPA Level A and Level B ``takes'', since the MMPA requires that the 
impact of an activity be quantified in those terms (NEPA and ESA do not 
have such strictly numerical requirements for estimating impact).
    Historically and in this EIS, each element of the model is assessed 
relative to the available information and a value is selected that is 
considered sufficiently conservative or precautionary, given 
uncertainties about the scientific data or about natural variability in 
factors such as animal distribution, location and movement of the sound 
source or the sound propagating properties of the water column. 
Selection of conservative values in multiple steps of the model leads 
to an outcome that is not an average of the precautionary assumptions, 
or even an addition of uncertainty, but multiplication of each 
uncertainty by the uncertainty in the other steps. Simply put, doubling 
the expected value for four different parts of the model does not 
double the outcome, nor does it result in a 2+2+2+2 = 8-fold increase 
in the predicted outcome. Instead the effect of multiple precautions is 
multiplicative, and the outcome is 2x2x2x2 = 16-fold more than if the 
model was run with `most likely' values like averages. Doubling all 
values out of precaution therefore does not predict an outcome of 200 
takes when 100 was the most likely expected outcome, but instead 
produces an outcome of 1,600 takes.
    As we will see from the following quick-look at the GOM DPEIS, 
there are many more variables in the model than the simple four 
variable example described above. And the levels of precaution are not 
simple doubling of expected values, but multiples that may range from 
addition of some percentage (less than doubling) to increases that are 
orders of magnitude greater than the ``most reasonable'' value (orders 
of magnitude are multiples of ten, such as 10, 100, 1000, etc.). The 
downstream consequences are also more complicated than the simple two 
times two example above, with some variables interacting in other than 
simple multiplicative ways.
    For example, use of an 8000 cubic inch sound source rather than the 
mean or median of sizes actually used (5,600-5,100 cubic inches) would 
appear to only create a difference of about 30-37%, but that difference 
in size produces a difference in source sound level of 3-6 decibels, 
depending also on the number of elements in the source array. The 
difference in source level needs to get translated into a difference in 
the area covered by the sound from the two different sources, because 
that will change how many animals are within the two respective areas, 
all other factors being equal. The 33-37% difference in the size of the 
two arrays translates into an increase of some 45-50% (roughly) in the 
area exposed and therefore the number of animals taken. That is, if one 
uses an 8000 cubic inch array as the precautionary standard and that 
results in a take estimate of 150 individuals, then use of the more 
likely mean value of 5,600 cubic inches will result in a take of 100 
individuals. Needless to say, this is a pretty large downstream 
consequence from alteration of a single value by what might 
superficially look like a pretty small amount. As we will see, 
factoring in the other parts of the model where similar conservative 
assumptions are exercised results in a prediction of takes that is 
millions, possibly billions, of times greater than the outcome 
predicted by using most likely outcomes only.
         summary of precautionary assumptions in the boem dpeis
    This list includes only the most obvious and clearly unsupported 
precautionary assumptions of the model:

    <bullet> Source

          o  Extreme array size and number of elements increases 
        exposures by 1.5 to 2 times.

          o  Six additional precautionary assumptions were not 
        analyzed.

    <bullet> Propagation

          o  Conservative or simplifying assumptions about the 
        propagating environment add 10-16 dB minimum to the propagated 
        sound.

          o  Combined with the precautionary source assumptions, this 
        results in a 90-120 time increase in estimated takes, all other 
        variables being equal.

          o  Six additional precautionary assumptions were not 
        analyzed.

    <bullet> Animal Abundance, Density and Movements

          o  NMFS's Stock Assessment Reports (``SARs'') and Duke Model 
        differ on average by a factor of 2. A minimum compromise for 
        uncertainty would be to reduce abundance and density estimates 
        by 25% to 1.5 times SAR.

          o  Three specific groups showed even more extreme 
        differences, but were not separated in this simple analysis: 
        expansion of Bryde's whale habitat leading to more takes; large 
        increases in numbers of deep divers (beaked whales, sperm 
        whales, Kogia); extremely large increases in pelagic dolphin 
        numbers (over 80 times for two species)

          o  Five additional precautionary assumptions were not 
        analyzed.

    <bullet> Threshold Criteria

          o  Level A calculations from SPLrms and SEL used 
        precautionary assumptions that overestimated take by 10-1,000 
        times. SPLpeak takes were overestimated at least twofold by 
        using 6 dB instead of 15 dB to derive PTS from TTS.

          o  Level B calculations make generous assumptions about the 
        likelihood of response and assume all exposures that exceed 
        threshold are biologically significant, over-estimated 
        biological consequence by at least 1,000 to more than 100,000 
        times.

          o  No allowance for reduced Level A due to behavioral 
        avoidance of the source (reductions of Level A up to 85%).

          o  No allowance for hearing recovery between pulses (likely 
        reduction of cumulative SEL from a continuous pulse train of 
        50% or more); no allowance for hearing recovery between passes 
        separated by hours or days (fewer than 1% of successive passes, 
        those within 8 hours or less, will accumulate and trigger Level 
        A criteria).

          o  Four additional contributors to precautionary over-
        estimation were not analyzed, including application of 
        weighting functions to impulse SPL metrics.

    <bullet> Mitigation

          o  No reduction in take was allocated for mitigation. While 
        setting a specific value for mitigation may be difficult, it 
        clearly is not zero and therefore some reduction of takes due 
        to mitigation should be factored into the model.

          o  Reductions from multiple proposed mitigations were not 
        estimated.

                  --  Vessel separation and dolphin shutdowns modeled, 
                with questionable effectiveness

                  --  Increased time/area closures and 10-25% effort 
                reductions were not estimated.

    <bullet> Total Multiplicative Precautions (short list)

          o  [Source+Propagation (90-120x)] x [abundance (2x)] x 
        [conservative threshold criteria (100-10,000x)]x [no recovery 
        factor (10-100x)] x [no allowance for aversion (6.7 x Level A)] 
        x [no mitigation (1.1 - 2x)] =

          o  1.3 million to 3.2 billion more takes than the number that 
        would be produced by using average or most likely values for 
        all variables.
                             recommendation
    Re-calculate takes using average or most-likely values, quantify 
and report the overall level of uncertainty in the modeling results, 
and add an agreeable level of precaution to the final results, not the 
individual elements.

    <bullet> Maybe double is reasonable?

    <bullet> A statistical measure of extreme confidence like 3 sigma 
            still covers 99.7% of all possible outcomes (370 times the 
            central value) and is not nearly so unreasonable as the 
            present model

    <bullet> It seems unlikely that 1 million to 3 billion times the 
            most likely outcome, which covers 99.9999% or more of all 
            possible outcomes, is a reasonable level of `precaution'.

                       precautionary assumptions
The Sound Source
    As discussed above, BOEM treats all geophysical surveys as if they 
were all conducted with the largest arrays in use. The nominal value of 
8000 cubic inches is an approximation of the maximum array size 
currently used in the Gulf, typically 7900 to 8500 cubic inches. Based 
on a quick survey of IAGC members over the past decade, a little less 
than one third of all surveys use arrays of that size. The other two-
thirds of surveys in the GOM use arrays that range in size from 6000-
2000 cubic inches, for a mean array size of 5600 cubic inches. Since 
the different sizes are not distributed normally around that mean value 
(i.e. not a smooth bell shaped distribution), some other value of 
central tendency, like the median (5100 cubic inches) might be deemed a 
more appropriate central value. But in any case, using 8000 cubic inch 
sources for all modeled surveys greatly overestimates actual use.
    The source level of a compressed air array increases as the cube 
root of its volume, all else being equal, so a difference of 8000 and 
5600 cubic inches might seem trivial. But we have seen that it is not 
trivial in terms of the outcome of concern; the number of animals 
exposed, because of the resulting expansion of the acoustic `footprint' 
of the array and the number of animals likely to be found within that 
footprint.
    Furthermore, the modeled array is not only extreme in the total 
volume modeled, but also in the number of elements within the array. A 
typical large array of 8000 cubic inches might include 48 elements and 
sometimes as many as 60, but the BOEM DPEIS used 72 elements. Why is 
this important? Because array source level may only increase trivially 
with total volume, but it is directly proportional to the number of 
elements. An array with 72 elements has double the amplitude of an 
array of 36 elements; volume and air pressure being equal.
    Therefore the combination of using an array at the extreme upper 
end of normally used array sizes, coupled with a number of elements in 
that array which also greatly exceeds the average, can by itself 
produce estimates of takes that are 1.5 to over 2 times as large as 
would be predicted by using the normal range of array sizes and numbers 
of elements actually in use. Based on this variable alone one would be 
justified in taking the final model predictions and halving them. But 
there are many more conservative assumptions in the model.

    Also potentially capable of altering the model outcome, but not 
addressed in this quick analysis, are:

    <bullet> The number of source vessels. When multiple source vessels 
            are used they are used at intervals that are similar to a 
            single source. The total acoustic energy is therefore not 
            increased over using a single source operated at the same 
            inter-pulse intervals, but the total area ensonified is 
            slightly increased, depending on the spatial separation of 
            the vessels. This may be compensated by the fact that each 
            vessel is only producing sound every 60 seconds instead of 
            every 15 seconds for a single source vessel). In the BOEM 
            DPEIS, the maximum number of source vessels, four, is used 
            for all surveys that might use multiple sources, even 
            though many of those surveys, such as NAZ, WAZ and coil 
            surveys, might more often use only one or two sources, and 
            rarely use as many as four source vessels.

    <bullet> Longitudinal tracks were only used during modeling on the 
            slope region of the Gulf, which has the potential to alter 
            sound fields and estimated takes relative to using both 
            lateral and longitudinal tracks typical of most surveys.

    <bullet> The choice of depth at which the array was towed was set 
            at 8 meters, but other tow depths are common (6 meters is 
            considered the default `standard') and the choice of tow 
            depth affects the frequency structure and propagation of 
            the resulting sound field.

    <bullet> The choice of pulse intervals typically varies from 10 to 
            20 seconds, with the DPEIS selection of 15 seconds being 
            fairly typical. A four source survey would result in each 
            source operating at 60 second intervals.

    <bullet> Durations of surveys were not clear. On page 3-23 a 
            nominal survey duration of 10.5 months was applied to all 
            surveys, but elsewhere in the document, e.g. D-177, the 
            survey durations varied.

    <bullet> Survey areas, line separations, and other parameters on 
            page D-177 appear to be in the same conservative direction 
            as the array size and element count; suggesting that line 
            spacing and area covered by a modeled 2D, 3D, WAZ or other 
            survey may be greater than average and thus produce 
            elevated sound exposures and take estimates.

Sound Propagation
    BOEM is to be commended for having run some preliminary models 
(Phase I modeling in Appendix D) to quantify some of the consequences 
of using simplifying or conservative assumptions (e.g. see pages D-100; 
D-106; D-113; D-122). Therefore we can assign some quantities to what 
is otherwise a very complicated variable, the day-to-day fluctuations 
in wind, temperature, currents, and other factors that affect sound 
propagation through the water between the sound source and the animals 
of concern.
    The modeling of sources of variance yielded a 10 decibel difference 
in sound transmission between an average sound speed profile in the 
water and the extreme case used in the model (10 decibels is an order 
of magnitude or ten times the average). Use of hard or median 
properties for the seafloor added another 4 dB over the most likely 
outcome, with most of the Gulf being covered with soft sediment that is 
a poor reflector of sound). Use of a flat sea surface instead of a 
rough sea surface adds another 2 dB minimum, resulting in a 
conservative value of over-estimated propagation of 16 decibels or 60 
times (!) the amount of energy propagated than would be expected on 
average. Add this to the conservatism we saw for the source itself, and 
we already have an ensonified area and number of animals ensonified 
that would be 90 to 120 times the reasonably expected exposures. A 
``best reasonable estimate'' of 100 would become an estimate of 9,000 
to 12,000 from these two precautionary measures alone.
    Also potentially capable of altering the model outcome, but not 
addressed in this quick analysis, are:

    <bullet> A single uniform propagation regime is used for the entire 
            deepwater zone (Zone 7). Assumptions of flat bottom and 
            maximum depth are not met in all cases and propagation is 
            therefore subject to additional over-estimation factors in 
            the deep water region.

    <bullet> Survey days and survey effort appear to have been evenly 
            distributed across the area and seasons, although this is 
            likely not the case for actual survey effort. Theoretically 
            this might average out, but it is also possible that fewer 
            actual survey days in winter, when propagation conditions 
            are best, will lead to actual surveys producing fewer takes 
            than the model estimated by using equal division across 
            winter and summer.

    <bullet> SPLrms for longer range propagation is derived from the 
            SEL values produced by the model. As JASCO acknowledges (D-
            49), modeled SEL at range tends to over-predict SPLrms as 
            the signal is spread over time. Time resolution of the 
            model also hinders accurate modeling of SPLrms based on 
            proper analytic units such as rms.90 (average sound 
            pressure over the time than encompasses 90% of the total 
            pulse energy).

    <bullet> Single frequency long range propagation modeling leads to 
            increased errors in pulse properties with range. For 
            modeling purposes a single frequency at the center of each 
            1/3 octave band is treated as `representative' of all the 
            sound energy within that frequency band. In practice, 
            selection of a non-representative frequency (e.g. located 
            at a ghost notch or filtered by propagating environment) 
            can lead to errors in weighted SEL values needed for 
            determining effects thresholds.

    <bullet> Use of ``maximum over depth'' in some model estimates of 
            take creates a worst-case scenario where all individuals 
            are assumed to be at the depth of highest sound exposure 
            all the time. It is not clear in what context JASCO used 
            maximum over depth as a simplifying step in modeling, but 
            it will always greatly over-estimate takes when used. (D-
            296)

    <bullet> Ranges to effect for mitigation monitoring and shutdown 
            (but not for take estimation?) were calculated from 
            unweighted values, whereas hearing frequency weighting 
            needs to be applied to SEL threshold values (JASCO also 
            seems to have applied weighting to SPLrms data, which may 
            also be inappropriate--see section on Threshold Criteria, 
            below).

Animal Abundance, Density and Movements
    This is a complex set of variables, with precautionary assumptions 
literally varying for each of the species modeled. But overall, the use 
of the Duke model creates an increase in predicted abundance that is 
about double the official NMFS abundance numbers in the SARs. Some 
additional modifications in the use of those data by JASCO add to the 
conservatism (over-prediction) by a fractional amount, in most cases.
    The Duke model is a novel approach to forecasting animal 
distribution and density from historical correlations with readily 
available environmental data, typically not the true environmental 
predictors like prey patches or features like fronts, currents and 
eddies that are less easy to predict or track. As such, there are some 
things that the Duke model likely does better than the SARs, such as 
predicting average abundance of pelagic dolphins that move in and out 
of the U.S. EEZ from one survey to the next, leading to large sampling 
variability. However, other similar models for the U.S. west coast, for 
the UK, and for global oceans, have shown some extreme misses in their 
predictions, an expected outcome for models in the early stages of 
development for species that are infrequently counted and whose habits 
are still poorly understood relative to land animals for example. Too 
great dependence on a single very new model like the Duke model can 
therefore be expected to result in some improvements on the SAR or U.S. 
Navy NODES data resources, but is also likely to produce some extreme 
``misses''. Species with wide disparities between historical data and 
Duke model predictions include Atlantic spotted dolphins (from no 
historic estimates in SAR, to over 45,000 animals predicted by the Duke 
model, making them the third most abundant species in the Gulf, 
virtually overnight. Duke predictions of Clymene dolphin abundance are 
about 85 times higher than the SAR figures, Kogia numbers are increased 
by a factor of 12, rough-toothed dolphins by a factor of 8 and killer 
whales by a factor of more than 7. These are radical changes to our 
understanding of marine mammal abundance in the Gulf that require more 
than blind acceptance of a new model simply because it is generally 
``better'' than the SARs (D-65).
    Some of the animal abundance and distribution modeling may be 
unfamiliar and counter-intuitive to the average reader. The model in 
the BOEM DPEIS uses electronic representations of individual animals, 
or `animats', to construct time series of exposure for a realistic 
number of animals, `behaving' in realistic ways, so that the animats 
move about and dive at realistic speeds and distances relative to the 
sound source, which is also moving. As might be expected, capturing the 
complexities of animal behavior and all of the other variability of the 
sound source and the propagating ocean is impossible, so certain 
statistical techniques are used to smooth out some of the variability 
in outcome that can occur just from sampling errors alone. These 
techniques, such as over-populating the sound field with hundreds or 
thousands of times more animats than animals (and then reducing the 
result proportionally to the actual population) do not affect the 
outcome but do reduce the likelihood of random extreme variation in 
outcomes. Monte Carlo methods, or running the same simulation over and 
over hundreds or thousands of times also helps smooth out the 
distribution of outcomes. Because the animats are seeded randomly for 
each model run and because they run independently according to user-
specified rules, no single model run will produce the same result (as 
in real life) and so the model must be run many, many times in order to 
arrive at a statistical average. This process, which is widely accepted 
as statistically legitimate and even necessary to producing realistic 
model outcomes, should not be confused with the selection of variables 
to put into the animat models and Monte Carlo simulations: those 
variables, like the source and propagating environment variables, can 
and do produce biases in the outcome, as will be discussed in detail 
below.
    Animal survey data for the Gulf of Mexico is sparse overall, and 
therefore statistically weak. Various techniques have been applied to 
the data to generate estimates of population abundance, density and 
distribution. The official NMFS Stock Assessment Reports (SAR) are an 
official estimate by NMFS of the best estimate of population abundance 
in a region, but they do not offer information about animal 
distribution, forcing the user to either evenly distribute the animals 
even across the habitat, even though it is known the animals do not use 
all of the habitat equally. Alternatively, the modeler can generate 
`expert' assumptions about how the animals use the habitat, but those 
assumptions can create unrealistic estimates of take if the assumptions 
are not good. For example, JASCO placed all sperm whale animats in 
water depths greater than 1000 meters because sperm whales are deep 
divers that tend to occupy deep water. However, a look at the data show 
that many, if not most, sightings of sperm whales occur in water depths 
of 400-800 meters, and this is largely confirmed by tagged whale data 
from the BOEM SWSS research project.

    Alternative to applying a population estimate for the entire Gulf 
evenly or selectively across the Gulf is to use habitat features 
correlated with animal sightings to predict where animals are most 
likely to be seen based on `suitability' of habitat. The statistical 
aspect of this process is quite well worked out as in the Duke 
University model applied in the BOEM DPEIS, but there are still `human-
in-the-loop' decisions that can affect model outcome. Something like 
the Duke model is therefore a ``work in progress'' in which model 
predictions may be more or less accurate, depending on the habitat 
variables available to the modeler and whether they are in fact 
strongly predictive of where animals will in fact be. A few ``warning 
flags'' about the novel predictions by the Duke model are:

    <bullet> The distribution of Bryde's whales across the entire GOM 
            shelf edge by the inclusion of ``unidentified baleen 
            whale'' data as Bryde's whale data. Actual observations 
            suggest that the Bryde's whales are confined to a 
            relatively small area of habitat around DeSoto Canyon in 
            the Eastern Planning Area (EPA), and in fact this site has 
            been selected as a special mitigation zone. But the Duke 
            model ``places'' Bryde's whales across large swaths of area 
            where they have never been seen, greatly elevating the 
            predicted takes in the WPA and CPA by what are probably 
            orders of magnitude (hundreds or even thousands of modeled 
            takes not supported by the real data).

    <bullet> Several species for which there are low sighting data 
            produced low likelihoods of occurrence across vast areas of 
            the Gulf in the Duke model, which were further simplified 
            to even probabilities across entire modeling zones: false 
            killer whales, killer whales and several other species are 
            therefore equally likely of being taken wherever surveys 
            occur, when in reality there are probably higher and lower 
            areas of likelihood. It is hard to predict how the 
            ``fuzzy'' predictions of the Duke model, and the 
            modifications of the JASCO model affect take outcomes but 
            generally speaking, these species tend to have predicted 
            abundances derived from Duke density models that are among 
            the highest deviations of the Duke model from SARs (e.g. 6 
            times SAR for killer whale, 14 times SAR for pygmy killer 
            whale).

    <bullet> Deep divers that are seldom seen during visual surveys 
            were subjected to some assumptions about sightability that 
            greatly elevated predicted abundance and greatly expanded 
            habitat occurrence over the SARs; 12 times the SAR for 
            Kogia and about 8 times the abundance for beaked whales 
            (based on Cuvier's beaked whale modeling). This radical 
            departure from historical estimates of abundance is 
            somewhat consistent with comparisons elsewhere (Atlantic, 
            California, Bahamas, eastern north Atlantic sites), but on 
            the high side. It is also higher than predictions by 
            passive acoustic surveys and modeling by Hildebrand, 
            Moretti, and others. Just how ``precautionary'' the Duke 
            model is for these species is hard to estimate at this 
            time, but it is fairly clear that the Duke model is over-
            predicting deep diver abundance and distribution leading to 
            excessive estimates of takes.

    Additional aspects of animal distribution and movements information 
that may lead to over-prediction of takes include:

    <bullet> Assumptions used to deal with the large number of modeling 
            cells that yield zero abundance and zero takes can lead to 
            over-prediction of takes. JASCO notes that the outcomes 
            that yielded a probability of Level A take greater than one 
            (1) was less than 0.2% (i.e., only 2 out of a thousand 
            model results yielded a take of 1 or more animals) (D-123, 
            D-129). The average number of Level A takes was 0.0195 or 
            about 2 per 100, the result of a very small number of model 
            outcomes that yielded more than one Level A take.

    <bullet> The 3MB model used to set swimming and dive parameters for 
            the animals rely on limited data, quite often from related 
            species studied at different locations than the Gulf. It is 
            therefore hard to predict whether the overall effect of the 
            values entered into the 3MB model resulted in over-
            prediction of takes or under-prediction, but the most 
            likely outcome is that the values used were conservative, 
            precautionary values that added to the over-prediction of 
            takes.

    <bullet> The modelers assumed that the animals did not undergo 
            long-term, large-scale movements. Certainly it is widely 
            assumed that animals do not migrate in and out of the Gulf 
            in great numbers, although sperm whales, a variety of 
            baleen whales, and probably many other species do move 
            between the Gulf and Atlantic or Caribbean. But the 
            currently available data do not offer enough information, 
            especially for winter months, to determine whether other 
            species exhibit moderate north-south or east-west movements 
            with the seasons similar to the inshore-offshore movements 
            of estuarine bottlenose dolphins in the late winter and 
            spring, or during other seasons. It is well known that 
            large numbers of animals may travel from east to west, 
            tracking the warm core rings spun off by the Loop Current, 
            but this phenomenon is not sufficiently documented to 
            inform the model.

    <bullet> JASCO modeled the effect of group size on outcome. They 
            did not see a significant difference in average outcome 
            from using single, ungrouped animats, although they did 
            note that obtaining the same outcome regardless of group 
            size means that there will be more zero-take model runs as 
            group size increases (D-135; D-174).

    <bullet> As animats move over time, and if animats are removed once 
            they exceed a take threshold, then the probability of take 
            will decline over time as there are fewer and fewer animats 
            in the field. JASCO used a common technique for keeping the 
            number of animats constant and thus keeping probability of 
            take constant over time by introducing new animats on the 
            opposite side from which an animat had just left (D-49; D-
            82; D201). It is also not clear if and how animals were 
            removed or replaced once taken. This is especially 
            important where animats were left in the field to 
            accumulate SEL for days or weeks. There are other nuance to 
            re-seeding the sound fields that can result in skewed 
            results, but a full treatment is beyond the scope of this 
            short review.

Take (Acoustic Risk) Thresholds
    Both Level A and Level B thresholds range from more than 100 times 
higher than best scientific evidence to over 100,000 times higher. 
There are multiple conservative assumptions that produce this 
extraordinary outcome: the assumption that exposure equals take, the 
conservative linkage of permanent hearing decrements to temporary 
hearing decrements, assumptions about the accumulation of hearing 
effects over time without recovery between exposures, and assumptions 
about how many of these exposures actually have any meaningful 
biological consequences.
    The MMPA defines ``harassment'' with reference to two categories: 
Level A harassment (potential to ``injure'') and Level B harassment 
(potential to ``disturb''). NMFS applies acoustic thresholds to 
estimate the amount of harassment for each category that may result 
from an activity. The acoustic thresholds are often mistakenly assumed 
to mean that an injury or mortality will occur, with 100 percent of the 
exposed animals being injured or killed, or that 100 percent of 
exposures at behavioral thresholds will cause behavioral change and 
that the consequences of the change are a significant and meaningful 
loss of food, energy, or some other key biological function. In fact, 
both thresholds imply a probability of there being an effect upon 
exposure. BOEM was quite emphatic in stating that exposure does not 
equal take, but the model still treats any exposure that exceeds 
threshold as a take. This is the first of many features within the 
Acoustic Risk Threshold part of the model that lead to large over-
estimates of take.
    Additionally, the DPEIS is not always clear when and how animals 
are removed from the model to prevent multiple takes of the same 
individual (e.g., being counted as a Level B take and then exceeding 
Level A criteria and also being counted as a Level A take). Removals 
need to be handled carefully to prevent gradual reductions of model 
`animats' in the sound field as ``taken'' animats are removed.
    The most recent threshold criteria for Level A takes are based on 
empirical data for the threshold at which a temporary decrease in 
hearing sensitivity (TTS) occurs across a narrow frequency range of 
hearing (NMFS, 2016; Finneran, 2015). BOEM also variously cites NMFS 
1995; Southall et al 2007; Finneran and Jenkins, 2012: it is not yet 
clear which criteria they plan to use in the Final EIS, making analysis 
of the DPEIS difficult. JASCO in Appendix D modeled the 1995 threshold.
    The simplest Level A threshold, long since superseded by scientific 
data but still in use by NMFS, is 180 dB SPLrms (root mean squared--an 
average over some specified time period, and since it is an average of 
a logarithmic scale, dB, a square root of the mean of summed square 
values is required rather than a simple average). Despite being 
outdated by more than 20 years, BOEM still modeled takes using this 
hyper-precautionary threshold. This provides a threshold that is some 
10 to 1,000 times more precautionary than the current best data derived 
from TTS thresholds for both impulse and tonal sources; the peak SPL or 
the summed sound energy over time (SEL), although we shall see later in 
this section that the SEL has also been subjected to additional 
conservative assumptions that render it some 10-1,000 times more 
conservative than SPLpeak. The values of 10 to 1000 times are based on 
SPLpeak thresholds of 230-200 dB SPLpeak, and an estimate of 180 dB SPL 
rms being comparable to 190 dB SPL peak (200 dB is ten times 190 dB and 
2230 dB is one thousand times 190 dB on the same scale, in this case 
SPLpeak).
    Permanent Threshold Shift (PTS) is not tested directly, and is 
assumed to occur at a level above TTS consistent with marine mammal TTS 
data and human/lab animal data. PTS, as for TTS, is not a threshold for 
deafness or major loss of hearing, but for a small decrement of hearing 
sensitivity within a narrow frequency range, a `hearing notch'. This is 
a liberal interpretation of ``injury'', since the original sense of the 
term in MMPA was intended for animals that lost eyes, limbs, or 
suffered broken bones and spinal injuries during interactions with 
fisheries or due to being struck by ships, shot at, or otherwise 
seriously injured.
    The criterion is rendered even more conservative by the use of a 15 
decibel difference between TTS and PTS when the data from other 
species, including humans, indicates PTS onset at 20-40 dB above TTS 
threshold. Since even this conservative addition of only 15 dB to TTS 
produces thresholds of PTS above the source level of the sound source, 
Southall et al (2007) and subsequent criteria (NMFS 2016) have 
arbitrarily set the SPL peak metric for PTS at a mere 6 dB above TTS 
threshold, or almost ten times lower (and therefore productive of ten 
times as many exposures and takes).
    The best predictor of TTS and therefore PTS, at least for tonal 
sounds, is SEL, a product of both signal intensity (not amplitude) and 
duration. It is not clear how well this relationship holds up for an 
impulse signal like compressed air (CA) sources, so relationships for 
tonal signals are applied to impulse thresholds. SEL is referenced to a 
time duration, typically one second, but for sounds less than 1 second 
long, like impulse sounds, SEL does not always hold up.
    Furthermore, models like the BOEM DPEIS treat multiple exposures 
separated by many seconds or even hours or days, as if the sound 
exposure had been continuous. Near the source a geophysical survey 
produced 0.1 s of sound every 10-20 seconds, expressed as a ``duty 
cycle'' of approximately 1-2%. Further from the source the energy in 
the impulse may spread in time, increasing the duty cycle, but at 
ranges meaningful for Level A determination, the duty cycle remains 
below 10%, meaning that 90% of the time the ear is capable of 
recovering from some of the induced fatigue or threshold shift. Early 
TTS studies noted that the animals recovered from low levels of TTS 
within seconds or minutes, and subsequent ongoing studies are 
consistent, suggesting that it make take considerably more intermittent 
exposures to produce TTS or PTS than would be predicted by simply 
adding up multiple pulses as if they all occurred in succession without 
any time for recovery (In other words 12 pulses of 0.1 second duration 
each are treated as a continuous 1.2 second pulse and not what they 
are, which 1.2 seconds of sound within ten 15 second intervals or 150 
seconds of ambient sound only).
    The case for some sort of recovery function is even stronger for 
intermittent passes of an array that may be separated by 4, 8, 16 or 
more hours, in which case hearing is likely fully recovered and no 
accumulation of SEL should be carried forward. NMFS has traditionally 
carried SEL forward for 24 hours, a scientifically unwarranted 
precaution that leads to over-estimations of take by another 10-100 
times, if not more. The current modeling exercise suggests in places 
that SEL accumulation was carried forward even further for weeks or 
even months. Appendix K offers annual summations of SEL and a similar 
cumulative sound metric, Leq, for an entire year. This is not 
scientifically justified and leads to overestimates of takes by tens or 
even hundreds of thousands of takes, both Level A and Level B.
    Because we do not have a specific recovery function to offer yet, 
BOEM has not included ANY recovery in their model, whereas a model 
consistent with best available science should include at the very least 
a recovery function consistent with human and other mammalian hearing. 
Absence of a recovery function is likely adding another 10 to 100 fold 
over-estimation to Level A take.
    Thresholds for Level B take have been difficult to derive, although 
more and more publications have offered data and a proposed threshold 
function: most of these papers are not cited or reviewed in the EIS, or 
in the reference used by the Phase II model (Appendix D), which is an 
unpublished contract report to a California utility company (Wood et al 
2012). Wood et al (2012) also presents a potential conflict of 
interest, since the author of Appendix H (Brandon Southall) is also a 
co-author of the Wood et al (2012) report. The industry is sponsoring a 
review of the behavioral effects literature, but that review will not 
be published in time to inform the current PEIS.
    In any case, the Wood et al recommendation was a step function of 
increasing behavioral response at increasing exposure levels, and in 
this respect Wood et al (2012) is similar to other Level B risk 
assessments like the U.S. Navy Programmatic EISs (2009; 2014, draft 
2017). All recognize that out of a given group of animals, a few will 
respond at low levels, with increasing recruitment up to an exposure 
level that approaches thresholds for TTS and PTS. BOEM also applied the 
outdated NMFS 1995 Level B threshold of 160 dB SPLrms.
    The outcome of applying any of these thresholds is the generation 
of tens of thousands to millions of Level B takes in which the vast 
majority of ``takes'' are transitory disturbances that last hours or a 
day or two and have no impact at all on foraging success, breeding 
success, growth, health or any other biologically meaningful metric. 
The hypothetical possibility that cessation of feeding for a day or 
movement a few miles from the source, or a change in vocal behavior 
``might'' lead to biologically meaningful consequences means that the 
model calculations are treated as ``takes'' under MMPA even though all 
acknowledge that exposures don't equal takes and takes do not equal 
meaningful effects. The development of the PCOD model, and population 
of that model with data, confirm that behavioral disturbance from sound 
needs to be reduced to a ``biologically significant'' number that is a 
fraction of the counted exposures; anywhere from a conservative 1% to a 
more realistic 0.001% or less. In other words, estimates of thousand to 
millions of takes in the model are like to result in fewer than 1 to 
1000 takes with actual biological consequences. These numbers, spread 
across large areas like the Gulf and multiple species are 
mathematically too low to result in a population level consequence from 
Level B takes (e.g. elevation of baseline mortality, decrease in 
baseline fecundity). This is consistent with history, where more than 
five decades of regular geophysical survey effort all over the globe 
has not generated any evidence that observed behavioral responses to 
the sound has any biological consequence.
    Calculation of grossly inflated Level B take numbers in the GOM 
DPEIS is not consistent with current best information, and greatly 
over-estimates the consequences for the stocks of marine mammals being 
managed.
    Finally, behavioral aversion was not applied to this model, even 
though a preliminary Phase I model showed that even small amounts of 
aversive greatly affected both Level A and Level B takes. If behavioral 
aversion is a trigger for Level B take then it cannot subsequently be 
omitted from modeling of Level A takes, since the low level exposures 
that trigger aversion will reduce the likelihood of higher levels of 
exposure.
    Additional aspects of threshold assessment that may lead to over-
prediction of takes include:

    <bullet> Conservative thresholds for low frequency whales. Current 
            conservative thresholds for whales increase the estimated 
            Level A and Level B takes for these species by some 4 to 10 
            times over best available science predictions. Arguments 
            for unreasonable precaution in the face of uncertainty are 
            not consistent with mammalian auditory biology in general.

    <bullet> JASCO applied novel uses of weighting functions, using 
            outdated M1 weighting functions from Southall et al (2007) 
            on SPL thresholds, where weighting functions should not be 
            applied.

    <bullet> Kogia are considered to have the same hearing thresholds 
            as porpoises, even though they are unrelated and the 
            evidence for high sensitive is based largely on data about 
            Kogia vocal behavior and some inconsistent evoked potential 
            audiometry.

    <bullet> Modifications to beaked whale Level B thresholds unique to 
            this EIS are applied without justification other than 
            precaution.

Mitigation
    BOEM allowed no reduction in the estimated take for mitigation. 
This is a highly over-conservative assumption, justified by the 
relatively little data available on mitigation effectiveness, together 
with the likely variability in mitigation effectiveness between 
mitigation service providers, types of marine species present, 
monitoring conditions and other variables. Some analysis on page D-151 
suggests ranges of observer mitigation effectiveness from near zero to 
over 70%. One cannot require mitigation and at the same time treat it 
as if it provides no reduction in takes. BOEM needs to come up with 
some metric for the benefits from required mitigation. A variety of 
other possible mitigations have been proposed in the GOM DPEIS, ranging 
from alternative source technologies and active acoustic mitigation to 
time/area closures, vessel separation schemes, and reduced quantities 
of geophysical survey effort of 10-25%. At least two of the suggested 
mitigation measures, vessel separation (Table ES-1; page 1-10; page 2-
10; B-32; page 2-38; and D-162-163) and shutdowns for dolphins 
approaching vessels or bowriding (p. 2-24) offer the possibility of 
actually increasing takes through expansion of ensonified areas (vessel 
separation), or extremely high increases in shutdowns with associated 
prolongation of survey effort (and sound exposure) to achieve survey 
completion (an estimated 35-40% increase).

                                 ______
                                 

    Dr. Gosar. Thank you, Mr. Steen.
    I thank the panel for their testimony. I will remind the 
members of the Committee that Committee Rule 3(d) imposes a 5-
minute limit on questions. The Chairman will now recognize 
Members for questions, and I will start with myself.
    Director Cruickshank, the OCS oil and gas leasing decisions 
made today directly impact our Nation's energy, security, and 
Federal and state revenue streams for decades to come. It all 
starts with seismic surveying data. How does BOEM use 
geophysical data when making offshore leasing decisions?
    Dr. Cruickshank. Mr. Chairman, we use the G&G data we 
receive for a number of our responsibilities under the OCS 
Lands Act. For oil and gas, we use it to make our assessment of 
what resources are there. One of the factors that the Secretary 
is required to consider in putting together a recent program is 
what is the resource potential to the various areas.
    We also use that data to help design the lease sales to try 
to focus them on the areas with most potential, and then when 
we have a lease sale and receive bids, we are using that data 
to help us determine whether the bids that are made are 
adequate to meet the fair market value standard of the OCS 
Lands Act. That is also used for regulatory purposes after 
areas go into production to help monitor what is going on 
subsea, to make sure that operations are behaving as they 
should.
    Dr. Gosar. In my comments, I highlighted that it has been 
30 years since we have actually used seismic in some of these 
areas. How does that really impact us? The technology has 
become much more sophisticated, and these are outdated 
references, are they not?
    Dr. Cruickshank. That is correct, Mr. Chairman. Some of the 
old data has been reprocessed so, to the extent that that data 
is there, we can get a slightly better image. And we also look 
at the other activity going on offshore in Canada, offshore in 
the Bahamas, and on the geographic margins of Africa, where 
they have the same geologic processes after the continent 
split. So, we have been able to improve our estimates a bit, 
but as you note, the data is old and those old technologies do 
not give as clear a picture or as deep a picture of what may 
lie beneath the seabed. We would certainly benefit from having 
better data to understand what resources may be there.
    Dr. Gosar. I am going to stray just a little bit, some of 
the technology that goes into forming the new technology, like 
critical minerals and rare earths--when we were in Norway this 
summer, we were told that in their seismic explorations in the 
Arctic Sea, they found free-form nodules of rare earths. We are 
way behind the curve in that, because if we are looking at new 
technology and technology going forward, we need to have 
dependable supplies of rare earths. And China now controls 100 
percent of that marketplace.
    Dr. Cruickshank, our coastal communities and ecosystems are 
constantly eroded, whether it be from natural events such as 
hurricanes or man-made causes like infrastructure development. 
BOEM uses sand and gravel sources from OCS to replenish these 
environments. How is seismic used to identify suitable offshore 
sand and gravel resources?
    Dr. Cruickshank. We do use seismic surveys to help 
delineate where there are OCS sand resources and the nature of 
those to try to meet the needs of states and local communities. 
It is a different type of seismic than is typically used for 
oil and gas exploration. Oil and gas exploration is very deep 
penetration, trying to see what is thousands of feet below the 
seabed, while for marine minerals and sand deposits, you are 
really only looking a few hundred feet down. So, it is a 
different type of seismic, but still seismic activity that is 
very important to be able to characterize those resources.
    Dr. Gosar. Once again, BOEM recently announced an 
initiative to facilitate offshore wind project development on 
OCS. How do offshore wind developers rely on seismic surveying 
data for project planning and construction? And have you had 
any problems associated with marine life when it comes to 
seismic surveying for wind? Dr. Cruickshank?
    Dr. Cruickshank. We require seismic surveys, again, 
shallow, beneath the surface, to understand what the seafloor 
is like, where there might be geologic hazards. It is important 
to ensure when you are citing wind turbines that you don't 
build them in a spot that may not be stable geologically or 
that you are not putting them where there are critical 
biological or archaeological resources. So, we require seismic 
surveys, again, looking to shallow depths beneath the seabed to 
understand what is there.
    As part of the renewable energy process for those surveys, 
we do consult with National Marine Fisheries Service to make 
sure we have appropriate mitigation measures in place to 
protect all the marine species from any sound that may occur 
during those activities.
    Dr. Gosar. Thank you, Doctor.
    I recognize the Ranking Member for his questions.
    Mr. Lowenthal. Thank you.
    Dr. Cruickshank, on January 9, Secretary Zinke met with 
Florida Governor Rick Scott at the Tallahassee airport, and 
after that meeting, he tweeted, and I quote, ``After talking 
with Florida Governor Scott, I am removing Florida from the 
draft offshore plan.''
    Less than 30 minutes later, he tweeted what he called a 
full statement, which included him saying: ``I support the 
Governor's position that Florida is unique and its coasts are 
heavily reliant on tourism as an economic driver. As a result 
of discussions with Governor Scott and his leadership, I am 
removing Florida from consideration for any new oil and gas 
platforms.'' He added in that tweet, ``local voices matter.''
    Obviously, those of us in other coastal states that are 
heavily reliant on tourism and clean beaches for our economies 
would also say that our coasts are unique, and would like to 
think that our local voices matter as well. So, I just want to 
ask a few questions about the situation with Florida.
    One, did the governor of the Florida submit official 
comments to the Bureau of Ocean Energy Management in response 
to the June 2017 request for information?
    Dr. Cruickshank. We received correspondence from the State 
Governor in Florida. It did not take a position on whether it 
should be in or out of the DPP, but noted specific issues that 
should be analyzed as we go forward.
    Mr. Lowenthal. Thank you. Are you aware of any 
conversations or correspondence between anyone in the Florida 
Governor's Office and employees of the Department of the 
Interior regarding the potential inclusion of waters around 
Florida in the draft proposed plan?
    Dr. Cruickshank. I have not been part of any direct 
conversations, but I know the Secretary has spoken with people 
in Florida.
    Mr. Lowenthal. Would you provide records of those 
correspondence to the Committee?
    Dr. Cruickshank. Yes, any correspondence we have, we will 
provide the Committee.
    Mr. Lowenthal. Thank you. Are you aware of any 
conversations or correspondence between the Florida Governor's 
Office and the Bureau of Ocean Energy Management after the 
publication of the draft proposed plan and before the 
Secretary's meeting with the Governor on January 9?
    Dr. Cruickshank. I am not aware of any particular 
correspondence. But as we look for correspondence in response 
to your previous request, we will check.
    Mr. Lowenthal. Forward those to the Committee. Thank you.
    How about between the Governor's Office and the Secretary's 
Office in the same time frame?
    Dr. Cruickshank. I would not necessarily see correspondence 
that goes directly from the Governor to the Secretary's Office. 
Again, we will search the records and if we find anything, we 
will share them with the Committee.
    Mr. Lowenthal. Are you aware of anyone at BOEM who had a 
discussion with the Secretary about the possibility of him 
sending those tweets or making that decision before he met with 
Governor Scott?
    Dr. Cruickshank. No, sir, I am not.
    Mr. Lowenthal. Have there been discussions between BOEM and 
the Secretary, the Deputy Secretary, or the Assistant Secretary 
for Lands and Minerals Management, or any people in their 
offices, regarding his decision and those tweets since he sent 
them?
    Dr. Cruickshank. Yes, we have had conversations, and we 
will be proceeding with the process called for under the Outer 
Continental Shelf Lands Act and the National Environmental 
Policy Act.
    All of the areas that are in the draft proposed program 
will be subject to the full analyses of both of those statutes. 
And it will be the first time in over 30 years that the entire 
OCS has been so analyzed.
    Mr. Lowenthal. So, that is how you would characterize those 
discussions, and you will also send us copies of any 
correspondence?
    Dr. Cruickshank. Yes.
    Mr. Lowenthal. Were any instructions sent to BOEM regarding 
how to treat the waters around Florida in developing the next 
step of the program?
    Dr. Cruickshank. As I just noted, Mr. Lowenthal, we will be 
conducting a complete analysis, as we will for all of the areas 
in the draft proposed program, looking at resource potential 
with environmental impacts. And all of that analysis and all 
the public comment will be made available to the Secretary so 
his decisions can be reflected in the next stage.
    Mr. Lowenthal. Again, we would like to have that 
correspondence.
    Does BOEM consider Governor Scott's request for a meeting 
and for all of the waters around Florida to be removed from the 
plan to be a comment under Section 18(c)(2) of the Outer 
Continental Shelf Lands Act?
    Dr. Cruickshank. To the extent we have any written 
correspondence in response to the DPP, that will be made part 
of the record. The Secretary responded to the Governor's 
request for a meeting. He has done so with other governors as 
well. He has spoken with eight governors so far, and is willing 
to meet with others. Those conversations are important to the 
Secretary and will be useful to him as he makes decisions going 
forward.
    Mr. Lowenthal. OK. I yield back. Thank you.
    Dr. Gosar. I thank the gentleman.
    The gentleman from Colorado, Mr. Lamborn, is recognized.
    Mr. Lamborn. Thank you, Mr. Chairman, and thank you for 
having this important hearing.
    Mr. Steen, I would like to ask you a few questions. Does 
acoustic surveying occur all over the world and has this 
occurred for many years now?
    Mr. Steen. Yes, it has.
    Mr. Lamborn. And has there ever been any documented case of 
an injured or killed marine mammal from seismic surveying?
    Mr. Steen. I am aware of no documented case.
    Mr. Lamborn. And isn't it also true that BOEM came out on 
March 9, 2015, in a science note, saying that any potential 
links between seismic surveying activity and ``the 
sustainability of species or stocks have not been 
demonstrated''?
    Mr. Steen. That is correct.
    Mr. Lamborn. How long has it been or have we ever had 
accurate and comprehensive seismic surveying off the Atlantic 
Coast?
    Mr. Steen. I am not sure precisely how long it has been, 
but I believe it has been at least a few decades.
    Mr. Lamborn. And is the technology much better now than it 
was a few decades ago?
    Mr. Steen. As far as I know, yes, it would be. I am a 
lawyer, not a technician, but as I understand it from my 
clients and their experts, it is much better today than it used 
to be.
    Mr. Lamborn. With all this in mind, is it possible that 
after accurate seismic surveying, we would discover greater 
amounts of oil and gas reserves than we know about now?
    Mr. Steen. That would be possible.
    Mr. Lamborn. With all that in mind, is it possible that 
opponents of oil and gas are exploiting alleged harm to marine 
mammals simply to prevent scientific survey results from 
becoming public?
    Mr. Steen. I believe that is the case, and I believe that 
is evidenced by and bears out by what we have seen in the 
Arctic as well.
    Mr. Lamborn. Thank you.
    Mr. Chairman, I have no further questions. I yield back.
    Dr. Gosar. Would the gentleman yield?
    Mr. Lamborn. Yes.
    Dr. Gosar. Mr. Steen, can you update us a little bit about 
how seismic has improved over the last several decades, because 
I think that is really important to understand?
    Mr. Steen. Again, I am speaking from the perspective of a 
lawyer. Technology is not my expertise, but as I understand it 
from my clients, it has improved to a degree where the 
resolution of what can be identified through seismic surveying 
is greatly improved. And seismic companies are much better able 
to tell with precision where oil and gas reserves might be, 
where other types of things under the seafloor would be, where 
hazards may be and that it has improved significantly over the 
past several decades. I am sure they would be happy to provide 
the Committee with more detailed technical information to 
support that.
    Dr. Gosar. We definitely would.
    Dr. Cruickshank, there is more to this because we started 
down this line, and not just for mineral evaluation but also 
geological stability, so that when we actually have 
catastrophic events, like tsunamis and stuff like that, the 
understanding of the tectonic and geological plates allow us to 
have better interpretation of how those things can actually 
affect the mainland continent, do they not?
    Dr. Cruickshank. That is correct. And as a matter of fact, 
the U.S. Geological Survey and the National Science Foundation 
have used seismic to try to understand historically what has 
happened to the coast over geologic history to use that to 
better inform decision making for managing the coast now.
    Dr. Gosar. It will also have a big implication on national 
security, would it not?
    Dr. Cruickshank. Yes. Energy is certainly a vital component 
of our national security issues.
    Dr. Gosar. I appreciate it.
    I now acknowledge the gentleman from Florida, Mr. Soto, for 
his 5 minutes.
    Mr. Soto. Thank you, Mr. Chairman.
    We have seen the rollout of the America First energy 
policy. And I was thrilled initially to hear that Florida's 
offshore drilling plan was off the table. Although, I think I 
heard you say just now, Director Cruickshank, that it is still 
under consideration. I have a few questions about how this 
decision initially went down and also what does it mean.
    First, what specifically is still under consideration as 
far as offshore drilling related to Florida?
    Dr. Cruickshank. We are following the process called for in 
the Outer Continental Shelf Lands Act, the statute that governs 
the development of the 5-year program. Under that statute, we 
are conducting the full analyses under Section 18 of that Act 
and under the National Environmental Policy Act of all areas 
that were included in the draft proposed program.
    Mr. Soto. So, then is Secretary Zinke's tweet getting ahead 
of the game? Is that not an official decision? Is that just him 
saying it, but the process actually hasn't happened yet?
    Dr. Cruickshank. The Secretary's statement stands on its 
own. We are following the process, and the Secretary's 
decisions will be reflected in the proposed program decision.
    Mr. Soto. By stand on its own, it just stands on its 
season, but it is not an official action. Is that what you 
mean?
    Dr. Cruickshank. It is not a formal action, no.
    Mr. Soto. So, there has been no formal action to remove 
Florida from the offshore drilling plan as of right now?
    Dr. Cruickshank. We will be including it in the analysis 
for the decisions that will come out later this year.
    Mr. Soto. So, that is a yes.
    Have we looked at whether the 125-mile buffer zone is going 
to be one of those areas that will be respected?
    Dr. Cruickshank. That is one of the specific options that 
the Secretary asked us to analyze, so it will be included in 
that analysis.
    Mr. Soto. And are you all leaning toward taking the 
Atlantic part of Florida off the table too as far as offshore 
drilling?
    Dr. Cruickshank. It will also be subject to the same 
analyses.
    Mr. Soto. So, the tweet is not a test. As you know, with 
rules, there could be arbitrary and capricious decisions. I 
believe the tweet was: Florida is unique. Our coasts are 
heavily reliant on tourism as an economic driver.
    I believe both those things are true, so we are not dealing 
with a two-part test of states being unique and having coasts 
as an economic driver. Is that the test or is that not the test 
to determine what----
    Dr. Cruickshank. Those are factors that need to be 
considered. The OCS Lands Act lays out eight categories of 
information that the Secretary needs to consider in his 
decision-making process, and that is what the analyses that we 
are undertaking now will look at. That includes the laws, 
goals, and policies of the affected states and the OCS Lands 
Act, those call out specific rolls for the governors in 
providing information to the Secretary. And the Secretary will 
carefully consider all of that.
    Mr. Soto. Just so we are clear, Mr. Director, you are going 
to apply those standards as required under the law, and this 
was more of an advanced tweet of an opinion and not an official 
act then?
    Dr. Cruickshank. We will do that complete analysis, and any 
decision the Secretary makes will be reflected in the next 
proposal.
    Mr. Soto. Has this ever happened before where we have a 
statement made by Secretary Zinke or anybody else under the 
umbrella of the Department of the Interior, where they make a 
statement but they have not undergone the analysis yet?
    Dr. Cruickshank. I cannot speak to whether there have been 
comments from other Secretaries over the history of the 
program, since this process was established in the 1970s. 
Certainly, with today's technology, any sorts of statements get 
a broader audience than they might have 30 or 40 years ago.
    Mr. Soto. As you can appreciate, many Floridians now 
believe that we are off the table, that there is going to be no 
offshore drilling because of that statement. And that is not 
true. We still have to go through an analysis to determine 
whether that is going to happen or not.
    Can you give us any early indication how we are doing, 
whether under those factors we officially will be removed both 
under the 125 buffer zone and the Atlantic?
    Mr. Cruickshank. The analysis we provide is basically 
laying out the facts, and that includes an analysis of the 
comments that we are receiving now through this public comment 
period, and the Secretary will consider all of that in putting 
his decision together. Until such time as all of those analyses 
are complete and we have all of those comments to put in the 
record to consider, we will not have any indication of where 
the Secretary wants to go in this process.
    Mr. Soto. So, right now, Florida's shores are still in 
jeopardy if or until an official decision is made. Is that 
correct?
    Dr. Cruickshank. They are still part of the analysis until 
the Secretary gives us an official decision otherwise.
    Mr. Soto. Thank you. I yield back.
    Dr. Gosar. I thank the gentleman from Florida.
    The gentleman from Virginia, Mr. Wittman, is recognized for 
5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    I wanted to go to Director Cruickshank first and ask you a 
little bit about the permitting process, understanding how that 
process unfolds.
    The GAO reported that BOEM made a policy decision to wait 
for the National Marine and Fisheries Service to issue 
Incidental Harassment Authorizations before issuing or even 
considering seismic permitting in the Atlantic. Why did BOEM 
decide to wait for the National Marine Fisheries Service, that 
is not directed through the administrative process, before they 
decided to issue permits or even go through the consideration 
process for these seismic permits in the Atlantic?
    Dr. Cruickshank. We did so in the Atlantic recognizing that 
the Service could not proceed without both our permit and the 
Incidental Harassment Authorization. We will be able to 
complete our work on the permits within a couple of weeks after 
the IHA process is done. We wanted to make sure that any 
conditions that came out of that IHA process would be reflected 
in the final permits that are given to the companies.
    Mr. Wittman. Is that directed, though, in the statute to 
say that you will wait for that? Is there any reason why you 
couldn't do that concurrently with what the National Marine 
Fisheries Service may find in their evaluation efforts?
    Mr. Cruickshank. Our analyses basically are concurrent. 
There is nothing that requires that we wait on the IHA. Indeed, 
in Alaska, we have often issued the permits conditional on them 
receiving the IHAs.
    Mr. Wittman. OK. But in this situation, there was not any 
condition placed on NMFS findings, it was waiting for the NMFS 
findings. There seems to be inconsistency, at least in how 
information is coming back from NMFS to BOEM in this permitting 
process. I am just trying to understand, is there a rhyme or 
reason to that?
    Dr. Cruickshank. Again, the rationale here was, it will not 
take us more than a couple of weeks after the IHA process is 
done to complete the permits. So, once we have all of that 
information and IHA is indeed approved, then we will be able to 
issue those permits very promptly.
    Mr. Wittman. OK. I want to go to another part of the GAO 
report where it speaks about the Marine Mammal Protection Act, 
and agencies are directed to review the incidental harassment 
authorization applications within 120 days of receiving the 
application. Yet, it seems that neither NMFS nor the U.S. Fish 
and Wildlife Service can determine whether or not they are 
meeting that requirement that is in the statute. It also seems 
that both agencies are pretty much unconcerned about that.
    Can you give me a perspective about why you think the 
agencies are unconcerned about whether they are in compliance 
with this requirement in the statute, and are they going to do 
anything to correct that situation? They seem to be somewhat 
ambivalent about that, and that ambivalence ends up creating 
inconsistencies. And at least looking at how the process is put 
forward, and that, unfortunately, lends itself to be used as a 
political tool if there is something that is being pursued with 
an ideology, particularly maybe within an agency. I want to get 
your perspective on the 120-day requirement.
    Mr. Cruickshank. I cannot speak for the National Marine 
Fisheries Service. The Fish and Wildlife Service, I understand, 
generally concurs with the recommendation made by the GAO and 
will be taking steps to implement that recommendation.
    Mr. Wittman. OK. So, do you think that they are going to 
stand by the 120-day time requirement in the statute as far as 
providing their comments on the impact of the incidental 
harassment authorizations?
    Mr. Cruickshank. I think that is what the Fish and Wildlife 
Service is trying to do in implementing the recommendations 
from GAO.
    Mr. Wittman. OK. Mr. Steen, I want to go to you to talk 
about what I see as kind of a dysfunction in this 
administrative bureaucratic regulatory process and get your 
thoughts about how you see that affecting the six Atlantic 
seismic surveying permits. These are not the first Atlantic G&G 
and IHA permits to be issued, but I want to get your 
perspective as to why you think the process at least appears 
based on GAO information and things that we see and somewhat of 
an ambivalence with agencies about being consistent with this. 
Give me your perspective on what you think is unique with the 
six instances of seismic permitting issues in the Atlantic.
    Mr. Steen. Well, I think with the Atlantic, it is the fact 
that six have been submitted at the same time, which is 
perfectly allowable under the law, but it is also an area that 
has not been surveyed for a while and has drawn the criticism 
and controversy from NGOs that are opposed to drilling there. I 
think that that type of controversy oftentimes, in my 
experience with the National Marine Fisheries Service, causes 
the agency to sort of freeze and not know what they want to do 
and how they are going to process things.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Gosar. I thank the gentleman from Virginia.
    The gentleman from Virginia, Mr. Beyer, is recognized for 5 
minutes. A lot busier today than yesterday afternoon, huh?
    Mr. Beyer. Thank you, Mr. Chairman.
    I want to begin by quoting my friend, the former Republican 
Governor of South Carolina, and a distinguished Member of the 
U.S. House who said, ``I mean, you can't say I don't want to 
see an oil rig from Mar-a-Lago as I look out from the waters of 
Palm Beach, but it is OK to look at an oil rig from Hilton Head 
or Charleston, South Carolina.''
    I would like to introduce for the record a letter to 
Secretary Zinke from every Democratic member of the U.S. Senate 
and U.S. House requesting the same consideration for Virginia 
that Secretary Zinke has done for Florida.
    Dr. Gosar. Without objection, so ordered.
    Mr. Beyer. Thank you, Mr. Chairman.
    I wonder if you have had a chance to meet with Governor 
Northam yet, BOEM, on the issue of offshore drilling in 
Virginia.
    Mr. Cruickshank. I don't know if the Governor has requested 
a meeting with the Secretary yet or not, but the Secretary is 
certainly willing to meet with the Governor. We also will be 
having a public meeting in Virginia. Unfortunately, it was 
postponed due to weather the other day, but we will get that 
rescheduled so we can hear directly from the citizens of 
Virginia.
    Mr. Beyer. Thank you very much. In my 3 years on this 
Committee, I have heard again and again that there is no 
instance of seismic testing killing a single marine mammal, and 
we come back again and again to the thing that the previous 
BOEM director said about no effect on marine mammal 
populations. It is cited three times in Mr. Steen's report on 
page 9. No adverse effects from marine mammal population. No 
effects on noise on marine mammal populations. No population 
level effects.
    I think Senator Davis pointed out quite accurately that the 
population level effects are very different from addressing 
individual animals. For example, Ebola didn't have a population 
level effect. The human race is going on, but it killed lots 
and lots of people.
    So, let me just for the record--and forgive me for not 
asking questions, but I think this is important to have in the 
record. Let me cite nine peer-reviewed published studies that 
cite the individual level effects of seismic testing on marine 
animals: First, Acoustic and behavioural changes by fin whales, 
in Biological Conservation; Second, Seismic Surveys Negatively 
Affect Humpback Whale Singing Activity off Northern Angola, in 
PLOS One; Third, Effects of Airgun Sounds on Bowhead Whale 
Calling Rates: Evidence for Two Behavioral Thresholds, in PLOS 
One; Fourth, Widely used marine seismic survey air gun 
operations negatively impact zooplankton, in Nature Ecology and 
Evolution; Fifth, Exposure to seismic air gun signals causes 
physiological harm and alters behavior in the scallop, in 
Proceedings of the National Academy of Sciences; Sixth, The 
sense of hearing in the Pacific oyster, in PLOS One; Seventh, 
The impact of seismic air gun exposure on the haemolymph 
physiology and nutritional condition of spiny lobster, in 
Marine Pollution Bulletin; Eighth, Effects of seismic shooting 
on local abundance and catch rates of cod and haddock, in 
Canadian Journal of Fisheries and Aquatic Sciences; and 
finally, Ninth, Seismic survey noise disrupted fish use of a 
temperate reef, in Marine Policy.
    There is an abundance of scientific evidence that seismic 
stuff has a real impact on our mammals. Senator Davis, do you 
want to expand on this at all?
    Mr. Davis. Thank you, Congressman. That was included in the 
written testimony that I have submitted. You have just gone 
ahead and listed the findings of those studies. There are seven 
particular scientific studies that do document that there is a 
significant impact on marine animals as a consequence to that 
sort of sonic noise being introduced into the ocean. And it 
makes common sense that when you are shooting those guns into 
the ocean floor, and with the noise reverberating up to 1,500 
miles in radius, common sense dictates that there is going to 
be an impact on aquatic life and marine animals. And to say 
that studies don't support any harm whatsoever defies common 
sense or it also defies the scientific studies that you have 
listed, sir.
    Mr. Beyer. Thank you. And let me also point out just this 
difference, I think it is the essential thing, because our 
ongoing debate is, does seismic testing hurt marine mammals or 
not, and if it doesn't, then why not go ahead and use it to 
discover where oil and gas is, and if it does, there has to be 
an important consideration for takes.
    A recent marine compilation level impact was in the papers 
this week about how on the Kazakhstan plateau 60 percent of the 
saiga antelope were decimated in 3 weeks by climate change 
affecting a specific bacteria. It killed 200,000 of them, which 
is roughly 60 percent. That is a population level event, and we 
are not arguing that seismic testing is going to have a 
population level event, but as those nine studies just 
suggested, it will affect everything from the zooplankton that 
everything eats, to the North Atlantic right whale, which is in 
danger of extinction specifically from seismic testing.
    Mr. Chairman, I yield back.
    Dr. Gosar. I thank the gentleman from Virginia.
    The gentleman from Colorado is recognized for his 5 
minutes.
    Mr. Tipton. Thank you, Mr. Chairman. I just have a couple 
of questions.
    Mr. Ludwigson, the GAO report indicated that the National 
Marine Fishery Service was unable to provide accurate data for 
the dates the agency determines an application is adequate and 
complete. What reasons did the agency give to the GAO on why 
they have not consistently defined and tracked adequate and 
complete dates?
    Mr. Ludwigson. Thank you for the question. The officials at 
both Fish and Wildlife and Marine Fisheries cited slightly 
different answers, but essentially it fell into the category of 
they began processing the information when they received it and 
that they did not feel it was necessary to really record that 
date in terms of when all the applications were complete. They 
had a sort of check sheet that allowed them to identify which 
items were required. They just didn't fill in their database in 
terms of when the date was that they received all those items.
    Mr. Tipton. Thanks. Based on the GAO's findings, what can 
the National Marine Fishery Service and the Fish and Wildlife 
Service do to be able to improve on the permitting process?
    Mr. Ludwigson. As we identify in the report, we think it 
would be very helpful for them to do two things, for each of 
the agencies to do two things. The first is begin recording 
that date accurately, and then second is to examine whether or 
not they are meeting their statutory time frames. I think it 
goes a long way to mention that the agencies both agreed with 
our findings, conclusions, and recommendations, and both 
agencies have committed to implementing those recommendations. 
And we do follow up, so we will be looking, checking, seeing 
how that is going.
    Mr. Tipton. Just out of curiosity, did they give a timeline 
when they would be able to achieve that?
    Mr. Ludwigson. I believe that they were in the process of 
developing the plan for implementing that. In the case of Fish 
and Wildlife, they were not recording any date. In the case of 
Marine Fisheries, they were recording a date that was not 
always accurate. So, I think that in that case, they have to 
develop guidance in terms of making sure that they consistently 
record a date. I believe that they were in the process of 
developing that now.
    Mr. Tipton. OK. It is going to be pretty easy to identify, 
I think.
    Mr. Cruickshank, in your written testimony, you indicate 
that BOEM is leading a streamlining team consisting of Interior 
solicitors, BOEM, and the Bureau of Safety and Environmental 
Enforcement staff to put together recommendations that reduce 
undue burdens and create more predictability in the permitting 
for oil and gas activities. However, these recommendations 
could also benefit ocean activities. What procedural or 
regulatory changes is BOEM considering? Could you enlighten us 
on that?
    Mr. Cruickshank. So, what our internal team was doing is 
identifying things that we wanted to propose to the National 
Marine Fishery Service as part of the discussions called for in 
the Executive Order for our two agencies to get together and 
try to streamline the permitting process around seismic 
surveys.
    The interagency team, between us and Marine Fisheries, is 
hard at work and will give us some final recommendations in the 
not too distant future. But some of the things that we are 
looking at is, can we identify some best practices that can be 
identified through conversations with stakeholders and thus be 
made part of each application that would allow those to be sort 
of accepted upfront and not subject to a new analysis every 
time a new application comes in.
    We are also looking to see if there are categories of 
activities that can be identified as being appropriate for 
informal consultation or for programmatic consultation as 
opposed to an application-by-application look. So, we are 
trying to find some ways that would allow the process overall 
to be more efficient and more effective.
    Mr. Tipton. Great. Thank you for that.
    I have no further questions. I will yield to the Chairman.
    Dr. Gosar. Yes. I want to make a point, so I am going to 
quote a former Supreme Court Justice: ``In a government of 
laws, the existence of government will be imperiled if it does 
not observe the law scrupulously. If government becomes the 
lawbreaker, it breeds contempt for the law and invites every 
man to become a law unto himself and invites anarchy.''
    And the reason I bring that up is, Dr. Cruickshank, it is 
the law, right, to process this information?
    Mr. Cruickshank. Yes, that is correct.
    Dr. Gosar. So, when we start doing interpretative aspects 
on what every individual would like to do, we invite that same 
type of anarchy. If we don't like the law, let's change the 
law, but what we have to stop is that the unintended 
consequences of bureaucrats dictating the principles in which 
Congress finds itself predicating through a statute only breeds 
the contempt of the law. Would you agree with that?
    Mr. Cruickshank. I would agree that it is our 
responsibility as public servants to carry out the laws that 
Congress has passed.
    Dr. Gosar. Thank you.
    I now recognize the gentleman from California, Mr. Huffman.
    Mr. Huffman. Well, thank you, Mr. Chairman, and I hope that 
that same passion for the rule of law carries over to our 
considerations of obstruction of justice and the tax on the 
courts and other institutions. That is a very welcome sentiment 
that I just heard.
    Dr. Gosar. I would interject, I don't think there is any 
qualm from the gentleman----
    Mr. Huffman. On your time?
    Dr. Gosar. You will have your full time.
    I don't think there is any qualm to challenge me on my 
application of the rule of law. I have been there from day one.
    Mr. Huffman. I am grateful for that.
    Dr. Gosar. I appreciate it.
    Mr. Huffman. And thanks to the witnesses.
    Dr. Cruickshank, I think to many the decision to roll out 
this plan to expose the coastlines of 23 states to new offshore 
drilling, and then the very sudden almost impromptu exemption 
of Florida from the Secretary after a phone call with Governor 
Scott, seemed purely political, arbitrary, and capricious. If 
anybody would know about the rigor of this decision, the 
rationale of this decision, it would seem to be you, the 
Secretary's Acting Director of the Bureau of Offshore Energy 
Management. So, here's your chance. Tell us all of the reasons 
why Florida is so unique that it justifies this exemption and 
yet California, Virginia, South Carolina, and other coastal 
states are not.
    Mr. Cruickshank. As I noted previously, all of the areas 
included in the draft proposed program will be subject to the 
full analysis under the OCS Lands Act and national 
environmental policy.
    Mr. Huffman. No, I don't want to talk about the process. A 
decision was made to give an exemption to Florida. I want to 
know every reason why Florida is so unique that it got that 
spot exemption from the Secretary. You have all my time, if you 
want it, but I just want you to fully articulate the difference 
between Florida and these other coastal states that would 
justify this carve-out.
    Mr. Cruickshank. Again, the Secretary's statement stands 
for itself, and we have no formal decision yet on what is in or 
out of the 5-year program.
    Mr. Huffman. So, there has been no decision to exempt 
Florida?
    Mr. Cruickshank. The Secretary's statement stands for 
itself, and we will continue to analyze those areas according 
to law.
    Mr. Huffman. It doesn't stand for itself because we have 
not heard the reasons to justify it. Tell me why Florida and no 
other coastal states got that exemption, all the reasons. You 
have all my time, please.
    Mr. Cruickshank. Again, the Secretary's statement is what 
it is. I am in no position to interpret it any further. I will 
note that----
    Mr. Huffman. So, there are no reasons that you can 
articulate?
    Mr. Cruickshank. I will note that Congress has treated 
Florida differently than other areas of the OCS, at least with 
respect to the West Coast of Florida, in establishing a 
congressional moratorium.
    Mr. Huffman. Are you aware of a single reason why Florida 
would be treated differently than other coastal states for the 
granting of that exemption?
    Mr. Cruickshank. We will be treating all the states the 
same in terms of the analysis.
    Mr. Huffman. That is not my question. I am asking are you 
aware of a single reason why Florida is more unique than other 
coastal states, why it would get this special tweeted out 
exemption from the Secretary?
    Mr. Cruickshank. I believe every state has its unique 
attributes along its coast and the uses that are made of the 
resources and we will be analyzing all of those.
    Mr. Huffman. Let me be clear, I am giving you all the time 
you want, and you are not giving me a single reason why Florida 
is more unique than California, Virginia, South Carolina, or 
other coastal states.
    Mr. Cruickshank. I think all states have their unique 
attributes, and that is what we are required to look at under 
the law and what we will be looking at through this decision-
making process.
    Mr. Huffman. Well, let's be clear. You had a great chance 
here to defend this decision and to offer a rationale, and you 
are not taking it.
    What is the process that you are going to use to decide 
which other states might be able to qualify for a similar 
exemption?
    Mr. Cruickshank. What we are doing under the Outer 
Continental Shelf Lands Act, the program development process 
outlined in Section 18 requires us to analyze eight factors 
that are specified in that Act ranging from resources to 
potential environmental impacts to other uses of the oceans to 
the laws, goals, and policies of affected states.
    Mr. Huffman. When will the decision be made?
    Mr. Cruickshank. That is analysis we are working on. We are 
also doing a programmatic EIS and going through a public 
comment period right now. All of that information will be put 
together and provided to the Secretary, and we expect that the 
second of the three proposals required under the Act will be 
published later this year.
    Mr. Huffman. OK. Thank you. This week, I joined with Ted 
Lieu and Alan Lowenthal and several of my other colleagues, 36 
Members of the California Delegation, in writing a letter to 
the Secretary urging that California be removed from the 
Administration's offshore drilling plan. That is in addition to 
clear opposition from our governor and from other officials 
throughout the state.
    Can you assure me that we will get a response from this 
Administration to our letter?
    Mr. Cruickshank. You will get a response, and that letter 
will be part of the record for consideration going forward in 
our program development process.
    Mr. Huffman. Thank you.
    Thanks, Mr. Chairman.
    Dr. Gosar. You have a couple more seconds if you have 
something else.
    Mr. Huffman. I will yield.
    Dr. Gosar. OK. The gentleman from Texas is recognized for 
his 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman. And I thank the 
witnesses for being here today.
    Mr. Steen, given your experience with Arctic MMPA 
authorizations and the related litigation, has there been any 
indication that Arctic surveys have been harmful to marine life 
there? Marine mammals, particularly?
    Mr. Steen. Well, the short answer is that, no, there has 
not. There has been seismic activity and surveys that have 
occurred in the Arctic, the Beaufort, and the Chukchi Seas for 
many decades. There have been authorizations that have been 
issued by the Fish and Wildlife Service for polar bears and 
walruses and by the National Marine Fisheries Service for a 
variety of other marine mammals, and they have consistently 
held, over periods of documented reporting and monitoring from 
the surveys, a negligible impact in every finding that they 
have made that has looked at these, and that bears out in the 
scientific record.
    For example, over this period of decades when seismic 
surveying has been occurring in the Arctic, the bowhead whale 
has gone from a point, due to past whaling practices, of being 
almost extinct to now reaching almost its carrying capacity, 
increasing by huge magnitudes, and that has occurred while 
seismic surveying is happening. And there have been no 
indications of any other harm to any other marine mammal 
populations in the Arctic as a result of exploration 
activities.
    Mr. Gohmert. Your written testimony details the highly 
litigated Arctic ITR applications, and you state that, ``Almost 
every MMPA ITR issued for Arctic oil and gas activities has 
been challenged by environmental advocacy organizations,'' but 
that the authorizations were upheld in Alaskan District Court 
and by the Ninth Circuit, shock. But why do these environmental 
groups continue to sue given their failure rate?
    Mr. Steen. In my opinion, they continue to sue because they 
are able to raise funds to fund their lawsuits to do that by 
characterizing it as opening the Arctic to oil and gas 
development.
    Mr. Gohmert. Even though they have not been successful even 
in front of the Ninth Circuit?
    Mr. Steen. That is correct. And the best example is the 
last lawsuit that challenged the Chukchi Sea incidental take 
regulation. It was expressly intended by the plaintiffs that 
filed that suit as an attempt to try to block Shell's 
exploration program that was planned that summer. So, it is a 
matter of rolling the dice. Even though they have been 
unsuccessful, the Marine Mammal Protection Act contains very 
vague standards, and there are always areas where some argument 
by a creative lawyer can be exploited. So, those arguments are 
attempted and they have been rejected over and over again, but 
if there is a shot and you have funding to bring the lawsuit, 
in my view, they keep taking those shots.
    Mr. Gohmert. Are you saying that Congress actually passed 
something that was vague?
    Mr. Steen. Incredibly vague.
    Mr. Gohmert. What effect do these lawsuits that appear to 
be frivolous have on the resources there? The court resources?
    Mr. Steen. I cannot speak for the Federal Government, but I 
would imagine they consume the resources of the Department of 
Justice to defend those lawsuits, of the courts and the judges 
and their clerks that have to process the lawsuits. But they 
also cost the applicants for the permits money and time as well 
because they intervene in the lawsuits rightly to help defend 
the permits, and it adds another phase to the permitting 
process, and it adds a lot of cost because lawyers cost money.
    Mr. Gohmert. Do you think there is any chance they are 
attempting to wear down the efforts to seek the resources, the 
mineral resources?
    Mr. Steen. I think that is unclear from the record, but I 
think, with Shell's experience in the Arctic and its decision 
to pull out, that was due to numerous things. One might argue 
it was due to the incredible controversy they encounter trying 
to explore in the Chukchi Sea.
    Mr. Gohmert. Yes. Let me ask, Mr. Cruickshank, you had 
mentioned that with regard to the streamlining team led by BOEM 
that, if I understood right, I was listening in the next room, 
that you expected that in--I believe you used a vague term. Do 
you have anything more specific about when we could expect the 
streamlining?
    Mr. Cruickshank. I don't have a hard date on when we will 
get the recommendation.
    Mr. Gohmert. How about a soft date?
    Mr. Cruickshank. I would expect them sometime this spring.
    Mr. Gohmert. All right. Thank you.
    Dr. Gosar. I thank the gentleman.
    The gentleman from California, Mr. Costa, is recognized for 
his 5 minutes.
    Mr. Costa. Thank you very much, Mr. Chairman, members of 
the Subcommittee.
    The hearing today on permitting process for offshore 
seismic research, I guess, has merit, although it is not, in my 
view, any new ground that we are treading. And I must say, Mr. 
Chairman, in listening to the conversation this morning, I am 
reminded of one of America's great philosophers, Yogi Bear, who 
once said, ``It seems like deja vu all over again.''
    I chaired this Committee 10 years ago, this Subcommittee, 
and I am not going to get into the details of two career 
Federal employees, Mr. Cruickshank and Mr. Ludwigson, who I 
think are trying to do their jobs as best as they can and 
follow the law, but I do want to take a step back as we talk 
about the point of this hearing as it relates to the larger 
issue.
    The flaws that I have found as a person, a Member of 
Congress, who in the 14 years that I have been here and when I 
served in the California State Legislature, has always 
supported, in terms of an energy policy, the use of all our 
energy tools and our energy toolbox, which includes the 
utilization of fossil fuels. And as I pointed out last week in 
California, half of the energy in California is fossil fuel, 
and we have been producing it for 100 years. And people ignore 
the fact that California is the third largest energy producer 
of fossil fuels and that we have over 20 platforms in the Santa 
Barbara Channel, and we do slant drilling to a very significant 
degree along our coast.
    Yet, Californians feel just as strongly about their 
coastline as people in Florida do and anywhere else. You need 
to understand that 70 percent of California's population lives 
within 60 miles of the coastline, and it is one of the most 
significant drivers of our tourism industry.
    I want to get back to where this is all going, because this 
Administration, and you talked about ideology, and I have heard 
ideologies until I am sick and tired of hearing ideologies, 
because what we are talking about, at least from my 
perspective, is how we come together in a bipartisan fashion 
with a comprehensive energy policy that uses all the energy 
tools in our energy toolbox. And I listened to both sides 
trying to be objective. And ``drill baby drill'' nor ``use it 
or lose it'' constitutes an energy policy. They make nice 
bumper stickers, but it is not a comprehensive energy policy. 
It does not take into account how you balance the incredible 
changes that are occurring in the 21st century with renewable 
energy and the challenges we have with climate change, or with 
the impacts we have when we make mistakes and we have to deal 
with the environmental impacts of those mistakes.
    So, I guess I am just trying to figure out, and I will talk 
to the two individuals who are testifying on behalf of the 
Natural Resources and Environmental Accountability Office and 
the Director of Ocean and Energy Management, have there been 
any conversations as you have been directed to pursue this 
policy and any coordination that you are aware of between the 
Energy Department, the Interior Department, or the Department 
of Defense? Is there any, or is this just kind of a silo 
approach?
    Mr. Cruickshank, could you opine?
    Mr. Cruickshank. Yes, I would be happy to, Congressman. We 
reached out to several of the cabinet agencies as we start 
development of our planning process and continue to do so.
    Mr. Costa. Are we looking at the totality of all the energy 
that we are using in this country and are we looking at the 
amount of new technologies and how they are changing?
    Mr. Cruickshank. That is not directly part of what we look 
at in the program process for offshore oil and gas. We 
certainly consider those things in how we model what may happen 
in the future, but the 5-year program for offshore oil and gas 
is not one that creates a national strategy for energy policy.
    Mr. Costa. That is the problem. And my time has run out, 
Mr. Chairman, but it has been, I think, a fault in this effort 
by this Committee and Subcommittee to try to deal with what is 
one of the real important issues in America, and that is how we 
pursue a 21st century process of a common-sense energy policy 
that takes into all of the above, takes into account our 
environment and the impacts of climate change and the fact that 
a lot of other countries are doing some things that I think 
look to be on a much more balanced approach than simply 
pursuing an ideology.
    Dr. Gosar. I thank the gentleman.
    The point I want to make is that before you can actually 
have a dedicated, predicated, concerted conversation in regards 
to an all the above, which I believe in as well, you need to 
know the assets that you actually hold. As Dr. Cruickshank has 
said and the record supports, when you have 30 years of lack of 
proper investigative tools to know what is exactly there, not 
just in oil, gas, and carbon fuels but anything else, you 
cannot have an organized, predicated, great conversation. So, I 
think there is a very valuable aspect about knowing what your 
value and what your assets are.
    Mr. Costa. Would the gentleman yield?
    Dr. Gosar. You betcha.
    Mr. Costa. We can, and maybe we should, have a separate 
conversation about this, but there has been a lot of research 
in California. We have significant reserves in California that 
we know are there, and we have known that for decades that they 
are there, and if you believe in federalism, and I do, and I 
like to try to be consistent, I mean, California, Florida, and 
other coastal states have made determinations on how they want 
to balance. But we have lots of oil in California, and that is 
not a secret, and it is to what degree we want to utilize those 
resources versus other resources.
    I guess we could put a fine point on this with new research 
and new technologies. We could find out how much more we have, 
but we know it is significant. We also know in California that 
Californians want to have a more balanced use and not rely on 
totally one source of energy, and that is a political will of 
people who live in a particular state.
    Dr. Gosar. I agree and I understand the gentleman has been 
very consistent with his federalism views, as I am as well. I 
am a border state with you, so I will tell you, when we start 
looking at the totality of alternative energy processes, a 
sizable amount of solar is instituted in our state on your 
behalf. I do understand that, but I think there is a mutual 
respect to ascertaining what our assets are all the way across 
the board.
    Mr. Costa. I don't mind knowing what our assets are. I 
think we should all know what----
    Dr. Gosar. I am the son of a geologist, so I understand 
this very, very well. Thank you for the dialogue and the 
colloquy.
    Mr. Costa. Thank you.
    Dr. Gosar. The gentleman, the muscle man from Louisiana, is 
recognized for his 5 minutes.
    Mr. Graves. Thank you. Gosh, so many thoughts.
    First, Mr. Costa, I want to thank you for your very 
thoughtful comments, and I largely agree with what you had to 
say with regard to looking at the full spectrum of all the 
assets in potential energy sources that we have. I think we can 
do a better job and certainly appreciate, again, your thoughts 
on that topic. In fact, I just made a down payment on an 
electric vehicle yesterday that I didn't tell my wife about 
yet, so if you all could keep that between us, I would 
appreciate it. Hi, honey.
    Mr. Costa. She knows now.
    Mr. Graves. I very much doubt that she is watching C-SPAN. 
If she is, then----
    In any case, a few things here. Mr. Lowenthal, you talked 
about this letter from California. A few of you discussed the 
concern that was related to Secretary Zinke's decision. I 
actually sent a letter to him as well. I agree with you. I 
agree with you. But here's where I struggle, and I think this 
is where we differ. You all are so sick of me talking about the 
coast of Louisiana, but I am getting ready to do it again.
    We have sat in this Committee and we have argued over 
offshore energy revenue sharing policy. President Obama and 
President Trump have issued these budget documents and they 
said that this is a Federal resource that belongs to all 
Americans and they all should benefit from it.
    You are arguing that the decision to give Florida special 
treatment, arguably special treatment, is inappropriate, yet 
you are saying that the state of California wants the same 
thing, that the state of California should unilaterally be able 
to determine what happens with the Federal resources off the 
coast of their state. You are saying that the state of 
California alone should be able to dictate to the Federal 
Government what happens with the billions of dollars in public 
resources that are there.
    Now, if that is what you subscribe to, if that is what you 
all think, I want the same deal for Louisiana. And the $200 
billion that we have given to the United States Treasury from 
our offshore energy production, we want it back. So, you can't 
keep going through and saying, well, I think it should be like 
this here and this here. No. We have paid for land and water 
conservation funds. We have bought all these natural resources 
and protected these grounds all over the United States, which I 
support, if bought from willing sellers. But you can't just go 
through and cherry-pick all this stuff. Our coast is eroding. 
We have lost almost 2,000 square miles. That is under our 
Constitution, that is where the money is dedicated to. So, if 
states get to pick and choose what happens off their coast, we 
want it too.
    So, I want to ask you all for policy consistency, to be 
with us, to stop picking and choosing, to be with us. We are 
trying to protect our environment, so I would appreciate all of 
your consideration as we move forward on that.
    Dr. Cruickshank, thank you for being here. I had the 
opportunity to work with you on various energy issues dating 
back to the Clinton administration. I know you have incredible 
expertise. I want to ask you something. You have worked for 
Democrat administrations and Republican administrations. Have 
you not issued seismic permits under President Clinton and 
President Obama?
    Mr. Cruickshank. There have been some individual permits 
that may not have----
    Mr. Graves. But have you issued permits?
    Mr. Cruickshank. Generally, the permits have been approved.
    Mr. Graves. And as I recall, I think there were 400 permits 
issued under the Obama administration.
    Mr. Cruickshank. I think that is about right, yes.
    Mr. Graves. Four hundred seismic permits issued, 
harassment, take, everything under the Obama administration. 
So, all these people sitting here saying, oh well, this is 
suddenly an awful situation, where were you when President 
Obama was there? You had the opportunity to shut these things 
down. Why didn't President Obama, perceived as an 
environmentalist, shut this down? It is because you have to 
look across the full spectrum of considerations for the 
American public. The Administration did it, and they issued 
permits.
    Do you mind--OK, throw the slide up. I heard a lot of 
comments here. This is a great CRS slide that I stole. I just 
ran next door and made a quick PowerPoint, so it is not very 
good, but this shows you the total volume of oil spill--that is 
the blue bars, the vertical bars--the total volume of oil 
spilled in various years from 1973 to 2003. So, you see a clear 
trend of it going down, the total volume of oil spilled. The 
red line shows, or whatever it is, red, orange, whatever it is, 
shows the number of individual incidences. Look, this is a good 
document. This is a good trend. We are moving in the right 
direction of fewer spills and lower volumes of oil, OK, so good 
news.
    Next one. This is a different way of showing it similarly, 
yet it breaks it down by different types of spills, and once 
again, you can clearly see that trend. You see the anomaly in 
2005. I want to make note that was Hurricanes Katrina and Rita, 
which caused the majority of that blue bar right there. But 
also I want to be clear that the majority of this oil was not 
extraction related. This was largely onshore storage of oil in 
big tanks that were destroyed. We had extraordinary winds, 
incredible hurricane, so that is what that was largely 
attributed to. But once again, clearly you see the trend that 
is going downward.
    Now, here's the next one that is interesting, and Senator 
Davis, I want to talk to you about. Can you give me the next 
slide? All right. I know there are a lot of numbers and 
everything else, but here is what this is, and I am going to 
read--the next one kind of distills a bit. This is a National 
Research Council report that shows the sources of oil in terms 
of the oil that was spilled.
    So, Senator, I have been to South Carolina. You have a 
fantastic state. I love your coastal area, Charleston in 
particular. You have a port there that you all are trying to 
grow. I have heard you express concern that you don't want to 
have spills on your beaches, and I don't either. I spent many 
years of my life restoring our coast, protecting our 
environment, but when you actually look at this, you will find 
that there is a greater chance of oil being spilled by vessels 
than by production and extraction. So, I am having trouble 
understanding how South Carolina is putting a lot of eggs in 
the basket at that port, great port, in trying to expand it, 
trying to lure more vessels there whenever there is a greater 
threat--if you go to the next slide--there is a greater threat 
of oil spilling from discharge of ships and land-based related 
activities than there is from extraction. And this is a summary 
of the last number-intense chart that you just saw. So, 
extraction spills are about 3 percent, whereas the ships 12 
percent or some of the land-based associated activities 37 
percent. Can you help me understand that?
    Mr. Davis. Thank you, Congressman. In terms of looking at 
whether or not it is a good idea to do seismic testing and then 
subsequently drilling--looking at a cost-benefit analysis, our 
domestic petroleum production has increased 64 percent by 
fracking. And when you weigh that against the relatively small 
amount of oil, relatively speaking, that you are going to get, 
if you weigh that against the potential for damage, and I 
understand that the potential for damage has decreased over 
time as your charts have shown, but when that damage occurs, 
and even oil industry advocates admit that there are going to 
be some spills at some point in time, the unique nature of our 
coastline, the estuarine system, the nurseries, the things that 
will be impacted forever, in law, we like to speak in terms of 
irreparable harm where monetary damages cannot make you whole, 
and you can see that in the coast as well.
    In terms of the BP oil spill where you had damages that 
were awarded and monetary amounts given, it is never going to 
make those areas whole. It is not going to restore that 
ecosystem. Those marshes are going to be destroyed forever.
    Mr. Graves. Hang on. Let me reclaim. First of all, I was 
the lead trustee for the Deepwater Horizon oil spill. Under the 
law, you are required to demonstrate how your remediation plan 
is going to fully restore the environment, and if that does not 
happen, you can get citizen suits challenging you. Largest 
settlement from a single company in U.S. history. And I will 
tell you, and BP's CEO will tell you, I was the one that kept 
rejecting their offers because it was not sufficient to restore 
our coast. I have spent 20 years of my life busting my butt to 
restore our coast and protect our coastal environment. I don't 
agree that people say that we don't care about our environment, 
we don't care about our coasts.
    Can you go two slides down? You walked into the trap I set 
for you. So, here we go. What this shows right here is the 
landings, or the fisheries production. You talked about 
ecological production. The first table, and I understand it is 
small, what it shows is the state of California, the total 
fisheries landings. This is an indication of ecological 
productivity. Fisheries landings in the state of California, 
and I chose 2011 through 2016 intentionally, the aftermath of 
the Deepwater Horizon oil spill, it shows that you have 840,000 
metric tons of seafood in California totaling about $1.3 
billion. In South Carolina, you have about 40,000 metric tons 
valued at about $136 million. In Louisiana, in the aftermath of 
the oil spill, we had nearly 3 million tons, dwarfing what 
California--again 40,000 in California, 3 million in Louisiana, 
valued not at $136 million in South Carolina, but $2.3 billion. 
So, you can manage, these things can co-exist. My point is 
this--I know I am way over, and I am sorry, but----
    Dr. Gosar. That is fine. To the gentleman, we are going to 
offer the same time to the other side.
    Mr. Graves. OK. Thank you. That was the Muscle Milk.
    You can have ecological productivity. You can have energy 
production. We have produced up to 90 percent of all the 
offshore energy production in the United States in Federal 
waters. My point is that, look, I understand the sensitivity. I 
think that there is some conflict in your statements about the 
state's statements about wanting to deport and expanding new 
vessels whenever you have a higher risk of spilling there than 
you do from actual extraction activities. I think we have to 
have better discussion, more discussion about is this a Federal 
resource or is it not, and an understanding where we exercise 
discretion and control over that resource on the offshore to 
either benefit all Americans or let states decide how that 
should be managed.
    But thank you very much. I will shut up.
    Dr. Gosar. I thank the gentleman.
    The gentleman from California is now awarded 6 minutes.
    Mr. Lowenthal. First of all, I thank you for that 
discussion. I think it is a very important discussion about 
what is the relationship between what is a Federal resource and 
how do the states that are the most impacted benefit.
    Just as you have raised some of these issues about 
Louisiana, we have some of the same concepts and same problems. 
As you know, I recently had a meeting with you about the harbor 
maintenance fee, another Federal resource, which we are paying 
for, the primary donor ports, 40 percent of that revenue comes 
from the ports in my district. We get a tiny percentage of it, 
so that discussion is a very important discussion.
    But let's remember the reason why we are here today and the 
reason why California is raising this issue. It is not 
regarding what is a Federal resource and what is a state. It is 
the fact that we want the same consideration that Florida has. 
How come one state--and we know you agree with us on this. I am 
not pointing this out to you to say that you don't agree with 
us. I am saying that is the reason for the discussion today 
that we have raised, that decisions were made, an analysis will 
be done, Mr. Cruickshank says, but we all know that after that 
analysis, the decision will be made by the Secretary, the same 
Secretary that circumvented the process by already pulling 
Florida out and then saying later on, I will make that decision 
based upon the analysis, but Florida is still out. We know what 
is going on. We just ask for the same consideration, just as 
you have done on these other same issues. And I think that is a 
worthy discussion.
    But today, we are talking about why are we not receiving, 
all of us, the same consideration and the same decision making. 
That is all.
    Mr. Graves. Do you mind commenting just on what I said? Do 
you think it is fair that Florida gets to decide what happens 
in Federal waters with Federal resources off its coast with 
multi-billion dollar Federal Treasury implications? You are 
asking California----
    Mr. Lowenthal. Florida did not make that decision. We are 
not concerned, we are not arguing about Florida. We are saying 
how did Secretary Zinke make those decisions, that is what we 
are asking. These are Federal decisions that are made by the 
Secretary. Under what conditions does he choose one over the 
other before there is an analysis of it? That is what we are 
asking.
    Mr. Graves. But do you think if they grant it for 
California, they grant it for Florida, do you see disparity in 
the case of Louisiana when we are asking for additional revenue 
sharing for our coast?
    Mr. Lowenthal. I think that is a legitimate discussion that 
we should be having, what is that relationship, as I have also 
pointed out that we want to do about things such as the harbor 
maintenance fee. We agree with you those are discussions. All I 
am saying is that is not----
    Mr. Graves. I tell you what, I will give you harbor 
maintenance if you give us all the offshore revenue. Do we have 
a deal?
    Mr. Lowenthal. Maybe we can do that. All right. Let's talk 
about that, because they are the same issues that we are 
raising.
    Dr. Gosar. You still have 3 minutes.
    Mr. Lowenthal. Senator Davis, your opposition to offshore--
let me just see this.
    Dr. Gosar. While you are gathering that together, for the 
witnesses, I allowed this to go forward because we don't get 
the opportunity for debate, and, Senator, you know that, and so 
this is exactly why we should be having more of these.
    So, the gentleman from California.
    Mr. Lowenthal. I just wanted to follow up our discussion in 
asking Senator Davis about what are your feelings about how 
this Florida situation has unfolded. That is the issue.
    Mr. Davis. Thank you, Congressman. I think several things, 
and I can tell you what South Carolinians are thinking right 
now. They listened to what Secretary Zinke had to say. They 
listened to him saying that local voices matter. They listened 
to what he had to say about Florida having unique coastal 
environment and tourism. All of those things apply to South 
Carolina. Our local voices matter. We have had municipalities 
up and down the coast opposing this. We have had our governor, 
Governor McMaster, just as Governor Rick Scott in Florida has 
done, opposing this.
    We have unique environmental resources. We are heavily 
dependent upon tourism. So, as a lawyer, when I hear statements 
like that being made by Secretary Zinke, I think about due 
process. I think about equal protection. I think about 
arbitrary and capricious. And it may well be that Secretary 
Zinke spoke, I don't know, out of turn is the right word to 
say, and whether or not the bureaucracy is still going to be 
processing Florida along with the rest of the states, but I can 
tell you what South Carolinians are thinking. They are 
thinking, if those criteria are sufficient to exempt Florida, 
if the governor of Florida is speaking out, if the uniqueness 
of Florida's coast and environment are the reasons for 
exempting Florida, all those apply to South Carolina. And we 
are not going to understand in South Carolina about how an 
exemption can be granted to Florida where the various same 
reasons voiced by Secretary Zinke can apply to South Carolina. 
And there are going to be challenges based on that.
    I mean, you cannot take a law and apply it unequally when 
you have the applicants or the states citing the same criteria. 
You have governors up and down the East Coast that have cited 
the same concerns and the same reasons that Governor Scott 
cited and that persuaded Secretary Zinke.
    So, we want to be fed out of the same spoon. We want to be 
treated fairly and equally. And like it or not, the rules of 
the game have been established here that people of South 
Carolina and the people up and down the East Coast believe that 
if local voices matter, which is what Secretary Zinke said, and 
if environmental conditions and tourism are factors, those 
equally apply to my state. So, that is going to be a concern 
for us going forward.
    Mr. Lowenthal. Thank you. I now yield back.
    Dr. Gosar. One comment just to bring this all into the 
aspect. As a landlocked state that has lots of Federal land, I 
do hope you understand that that conversation has to go 
forward, and that is why we have had these conversations at 
this level and at this Committee, is that the equal application 
of the law, well, there are vast stretches of public lands in 
Arizona, Wyoming, and Colorado that were contractually 
obligated for conversation and compensation to us. And that is 
why we cannot afford good infrastructure government and our 
schools in our western states because of this very application.
    And this also has an implication on landlocked states and 
public lands, so there is more to this story. That is why we 
have to have that conversation.
    The gentleman who has been waiting patiently from 
Louisiana, Mr. Johnson, is recognized for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and thank each of our 
witnesses for being here today.
    I want to echo everything that my good colleague from 
Louisiana said and endorse all that, except for him buying an 
electric car without telling Carissa. I disagree with him on 
that.
    Gentlemen, as I am sure all of you know, I have an 
important bill that is headed to the House Floor now. It is 
called the SEA Act, the Streamlining Environmental Approvals 
Act of 2017, which will increase regulatory efficiency and 
decrease all of these permitting delays that we lament and 
remove unnecessary duplication. However, some opponents of 
seismic surveying have expressed objections about that. The 
science is really important as we go forward for a number of 
measures that we will be considering in this Congress, I think, 
this year.
    Mr. Steen, you hold a degree in fisheries and you have 
worked for the University of Washington as a fisheries 
biologist before becoming a lawyer. Is that right?
    Mr. Steen. That is correct.
    Mr. Johnson. It is impressive background. I want to ask you 
to clarify a few statements made by Senator Davis in his 
written testimony. Earlier today, you were asked whether 
seismic surveying harms or kills marine mammals or other marine 
life. I think you were specifically asked if you knew of any 
documented case, and you said no. Is that correct?
    Mr. Steen. That is correct.
    Mr. Johnson. So, just so I am clear, I consider you, I 
think, a most qualified expert on this subject, so I want to 
ask you, is it your belief that the concerns that are being 
stated are greatly exaggerated? Is that a fair statement?
    Mr. Steen. I do believe the concerns are greatly 
exaggerated.
    Mr. Johnson. The Senator states in his written testimony 
that ``over 100 whales beach themselves'' due to seismic blast 
off of Madagascar. We have some of the media reports of that. 
Can you confirm the source of the Madagascar stranding and the 
status of the subsequent report?
    Mr. Steen. My understanding of that is that had nothing to 
do with seismic sound. That was multibeam sonar sound, which is 
completely different than seismic and it has much different 
effects on marine mammals. So, that is really not a seismic 
issue.
    Mr. Johnson. Just for the layperson, can you elaborate just 
briefly the differences between the two, sonar and seismic, and 
what each is used for?
    Mr. Steen. I can elaborate as best I can. When it comes to 
the technology of sound, I consider myself a layperson, but my 
understanding is they utilize completely different wavelengths 
in the water. Sonar is used for things by the Navy. It is used 
by NOAA ships. It is used by the Army Corps of Engineers. 
Again, it has much different types of effects on marine mammals 
than seismic sound does, which operates at different 
wavelengths and has different types of effects, if any.
    Mr. Johnson. Senator Davis' testimony also states that 
``seismic blasting will affect fish that spawn in rivers and 
estuaries all along the East Coast.'' To your knowledge, Mr. 
Steen, is it possible for the acoustics generated by seismic 
surveying to have this effect on fish in rivers and estuaries?
    Mr. Steen. No, I don't think that would be possible.
    Mr. Johnson. I know we are running short on time, so I will 
yield back. I appreciate you all being here.
    Dr. Gosar. They are calling votes.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. The members of the Committee may 
have some additional questions for the witnesses, and we ask 
you to respond to those in writing. Under Committee Rule 3(o), 
members of the Committee must submit their witness questions 
within 3 business days following the hearing by 5:00 p.m., and 
the hearing record will be held open for 10 business days for 
their responses.
    I want to compliment the panel for the dialogue, the 
Members sitting on the dais for the dialogue. We need to see 
more of this. As you know, Senator Davis, we need to see more 
of this, not less of this, and so I want to compliment everyone 
for a fabulous hearing.
    Without further objection, the Subcommittee stands 
adjourned.
    [Whereupon, at 10:50 a.m., the Subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Beyer Submission

    --Letter signed by multiple Representatives addressed to 
            Secretary Zinke regarding the removal of offshore 
            Virginia drilling zones dated January 12, 2018.
Rep. Gosar Submission

    --NOAA, Statement for the Record regarding NMFS actions and 
            additional methods to streamline permitting 
            application processes.
Rep. Lowenthal Submissions

    --Letter signed by multiple Members of Congress addressed 
            to Secretary Zinke regarding opposition to lease 
            sales in the Atlantic, Arctic, and Pacific Oceans 
            dated January 18, 2018.

    --Letter signed by multiple Members of Congress addressed 
            to Secretary Zinke regarding the opposition to the 
            Department of the Interior's National Outer 
            Continental Shelf oil and gas Leasing Draft Program 
            dated January 18, 2018.

                                 [all]
</pre></body></html>
